<html>
<title> - TRANSPORTATION RESEARCH AND DEVELOPMENT: INVESTING IN THE FUTURE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                      TRANSPORTATION RESEARCH AND
                  DEVELOPMENT: INVESTING IN THE FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY,
                             AND STANDARDS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2003

                               __________

                           Serial No. 108-10

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


86-341              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
VACANCY
                                 ------                                

         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
NICK SMITH, Michigan                 MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         JIM MATHESON, Utah
MICHAEL C. BURGESS, Texas            ZOE LOFGREN, California
VACANCY                              RALPH M. HALL, Texas
SHERWOOD L. BOEHLERT, New York
                ERIC WEBSTER Subcommittee Staff Director
            MIKE QUEAR Democratic Professional Staff Member
            JEAN FRUCI Democratic Professional Staff Member
                 OLWEN HUXLEY Professional Staff Member
                MARTY SPITZER Professional Staff Member
               SUSANNAH FOSTER Professional Staff Member
        AMY CARROLL Professional Staff Member/Chairman Designee
                ELYSE STRATTON Majority Staff Assistant
                MARTY RALSTON Democratic Staff Assistant


                            C O N T E N T S

                             April 10, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    15
    Written Statement............................................    16

Statement by Representative Mark Udall, Member, Subcommittee on 
  Environment, Technology, and Standards, Committee on Science, 
  U.S. House of Representatives..................................    17

                               Witnesses:

Mr. Emil H. Frankel, Assistant Secretary for Transportation 
  Policy, U.S. Department of Transportation
    Oral Statement...............................................    19
    Written Statement............................................    21

Mr. Eric E. Harm, P.E., Deputy Director, Division of Highways, 
  Illinois Department of Transportation
    Oral Statement...............................................    26
    Written Statement............................................    27

Dr. C. Michael Walton, Ernest H. Cockrell Centennial Chair, 
  University of Texas-Austin, Department of Civil Engineering
    Oral Statement...............................................    30
    Written Statement............................................    32

Ms. Katherine Siggerud, Acting Director, Physical Infrastructure 
  Team, General Accounting Office
    Oral Statement...............................................    41
    Written Statement............................................    43

Ms. Anne P. Canby, President, Surface Transportation Policy 
  Project
    Oral Statement...............................................    50
    Written Statement............................................    51

Dr. Michael D. Meyer, Professor, Georgia Institute of Technology, 
  School of Civil and Environmental Engineering
    Oral Statement...............................................    55
    Written Statement............................................    57

Discussion
  Are We Spending Enough on Transportation Research? How Should 
    the Funding Be Allocated?....................................    68
  Policy vs. Technical Research..................................    72
  Metered Ramps and Public Experience............................    73
  Transportation Research Information Service (TRIS).............    75
  Social Factors and Transportation Choices......................    75
  Meeting the Goals of ISTEA and TEA-21..........................    77
  Comments on F-SHRP.............................................    79
  Human Factors, Decision-making, and the Bureau of 
    Transportation Statistics....................................    81
  Earmarking in Research Appropriations..........................    84
  The Status of STECRP...........................................    86

  Appendix 1: Biographies, Financial Disclosures, and Answers to Post-
                           Hearing Questions

Mr. Emil H. Frankel, Assistant Secretary for Transportation 
  Policy, U.S. Department of Transportation
    Biography....................................................    90
    Answers to Post-Hearing Questions............................    92

Mr. Eric E. Harm, P.E., Deputy Director, Division of Highways, 
  Illinois Department of Transportation
    Biography....................................................    95
    Financial Disclosure.........................................    96
    Answers to Post-Hearing Questions............................    97

Dr. C. Michael Walton, Ernest H. Cockrell Centennial Chair, 
  University of Texas-Austin, Department of Civil Engineering
    Biography....................................................    99
    Financial Disclosure.........................................   100
    Answers to Post-Hearing Questions............................   101

Katherine Siggerud, Acting Director, Physical Infrastructure 
  Team, U.S. General Accounting Office
    Biography....................................................   105

Ms. Anne P. Canby, President, Surface Transportation Policy 
  Project
    Biography....................................................   106
    Financial Disclosure.........................................   107
    Answers to Post-Hearing Questions............................   108

Dr. Michael D. Meyer, Professor, Georgia Institute of Technology, 
  School of Civil and Environmental Engineering
    Biography....................................................   111
    Answers to Post-Hearing Questions............................   112

             Appendix 2: Additional Material for the Record

American Association of State Highway and Transportation 
  Officials, Research, March 2003................................   116

Statement of the American Society of Civil Engineers (ASCE)......   120

Statement of the American Road and Transportation Builders 
  Association (ARTBA)............................................   123

Statement of Philip J. Tarnoff, Director, University of Maryland, 
  Center for Advanced Transportation Technology on behalf of the 
  Institute of Transportation Engineers (ITE)....................   126

Statement of the American Concrete Pavement Association (ACPA), 
  the National Asphalt Pavement Association (NAPA), and the 
  National Stone, Sand and Gravel Association (NSSGA)............   130

Statement of the American Public Transportation Association 
  (APTA).........................................................   134

Investing in Transportation, Education, and Research.............   137

Statement of Elizabeth Deakin, Professor of Transportation 
  Planning and Policy, University of California-Berkeley; 
  Director, UC Transportation Center.............................   141

 
    TRANSPORTATION RESEARCH AND DEVELOPMENT: INVESTING IN THE FUTURE

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                  House of Representatives,
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Vernon J. 
Ehlers [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

         SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, AND STANDARDS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                      Transportation Research and

                  Development: Investing in the Future

                        thursday, april 10, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, April 10, 2003 at 10:00 a.m., the Subcommittee on 
Environment, Technology, and Standards of the House Science Committee 
will hold a hearing on Research and Development (R&D) priorities for 
the reauthorization of the Transportation Equity Act for the 21st 
Century (TEA-21). TEA-21 funded a wide range of transportation R&D 
programs conducted by the Federal Government, states, universities and 
the private sector. The hearing will examine the state of the current 
R&D programs, how well they are meeting the goals laid out in TEA-21, 
and whether there are significant gaps in our R&D programs. In 
addition, the hearing will investigate how the Department of 
Transportation (DOT) can improve the quality of the R&D it funds, and 
measure the success of R&D projects, programs and the transportation 
system as a whole.
    The Committee plans to explore the following overarching questions:

        <bullet> What types of R&D are under-funded, over-funded, or 
        not funded at all?

        <bullet> Is our R&D spending properly balanced, for example 
        between long- and short-term R&D and between ``hard'' R&D on 
        materials like concrete and ``soft'' research on driving 
        behavior? Are there major gaps in our transportation R&D, and 
        if so, how should they be filled?

        <bullet> Is there a way to organize transportation R&D through 
        a coherent strategic plan despite its decentralized nature?

        <bullet> Are there ways to improve transportation R&D, for 
        example, by improving stakeholder involvement, strengthening 
        peer review, or placing a greater emphasis on measuring the 
        performance of R&D programs and the transportation system as a 
        whole?

Witnesses

Mr. Emil Frankel, Assistant Secretary for Transportation Policy, U.S. 
Department of Transportation

Mr. Eric Harm, Deputy Director, Division of Highways, Illinois 
Department of Transportation

Dr. Michael Walton, Ernest H. Cockrell Centennial Chair University of 
Texas at Austin Department of Civil Engineering

Ms. Kate Siggerud, Acting Director, Physical Infrastructure Team, 
General Accounting Office

Ms. Anne Canby, President, Surface Transportation Policy Project

Dr. Michael Meyer, Professor, Georgia Institute of Technology School of 
Civil and Environmental Engineering

General Background

    In 1998, Congress passed TEA-21, which funded State and Federal 
activities to support our nation's transportation system. TEA-21 
included a title on transportation R&D (Title V). The Science Committee 
shares jurisdiction with the Transportation and Infrastructure 
Committee over surface transportation R&D. As part of TEA-21, the 
Science Committee passed the Surface Transportation Research and 
Development Act, H.R. 860 (105th Congress). Many of the provisions from 
H.R. 860 were incorporated into the House and final version of TEA-21 
legislation.
    Over the six-year life of TEA-21 (1998-2003), the Federal 
Government will have invested approximately $2.9 billion (or about $500 
million per year) in surface transportation R&D under Title V. The 
funding for TEA-21 comes from gas tax receipts that are deposited in 
the Highway Trust Fund. Although this is a significant R&D investment, 
the federal transportation R&D investment represents only about 0.5 
percent of federal spending on surface transportation. Many experts 
criticize this level of investment as too low. By comparison, the 
Federal Government invests approximately 10 percent of total health 
care spending on R&D. While Congress increased funding for overall 
transportation programs by about 40 percent in TEA-21, funding for 
transportation R&D remained relatively flat.
    Transportation R&D is highly decentralized, with the Federal 
Government, states, universities, the National Academy of Sciences, and 
the private sector each playing an important role. In TEA-21, Congress 
further decentralized R&D by increasing the proportion of R&D funds 
that go directly to states, while decreasing the federal share of R&D 
dollars. At the federal level, the Federal Highway Administration 
(FHWA) conducts surface transportation research (primarily through the 
Turner Fairbanks laboratory in Virginia), supports technology 
development and deployment, and funds training and education programs. 
Other DOT agencies, such as the Federal Transit Administration (FTA), 
also conduct some research. The states are required to spend 25 percent 
of their State Planning and Research (SPR) funding (which is two 
percent of their overall funding) on research, and tend to fund applied 
research aimed at the implementation of tools and technologies. In 
addition, each of the states contribute 5.5 percent of its SPR funding 
to the National Cooperative Highway Research Program (NCHRP), a program 
administered by the Transportation Research Board (TRB), which is part 
of the National Academy of Sciences, and designed to address research 
issues relevant to all states. Universities also receive funding 
through the University Transportation Center (UTC) program, and have 
great discretion in the research they conduct. There is no strategic 
plan for how all of these actors should fit together to create a 
comprehensive and coordinated research program.
    The R&D conducted under TEA-21 is wide ranging. Federal R&D 
includes research on materials (such as pavements and concrete), 
structures (such as bridges), operations (such as traffic light 
timing), asset management, planning and environment, Intelligent 
Transportation System (ITS) technologies (such electronic toll 
collection and adaptive cruise control), safety (such as rumble strips 
and research on driver behavior), and transit (such as Bus Rapid 
Transit).
    Surface transportation R&D has produced many successes. Some 
examples in highway safety are improved designs of guardrails and 
median barriers and the development of rumble strips. New technologies 
have been successfully developed for retrofitting existing bridges and 
building new bridges to resist earthquake damage. Increases in the 
lifespan of pavements, realized through research on materials, have 
saved money and reduced the disruption caused by construction. Finally, 
in the operations field, Geographic Information Systems (GIS) have 
improved the management of vehicle fleets, including transit fleets, 
increasing their efficiency.
    Note: Additional detail on the goals and organization of surface 
transportation R&D funded by the Federal Government, including 
descriptions and funding levels, is included in the appendix.

Issues

Is surface transportation R&D under-funded? The Federal Government 
invests only 0.5 percent of total federal spending on surface 
transportation in R&D. Many stakeholders believe that this level of 
investment is inadequate given that total national transportation 
spending is roughly 10 percent of the Nation's Gross Domestic Product 
(GDP). Stakeholders, including the American Association of State 
Highway and Transportation Officials (AASHTO) have called for a greater 
investment in transportation research.

Is our R&D spending balanced? According to the TRB and many others, our 
current R&D portfolio is not properly balanced between short-term 
applied and long-term fundamental R&D, between ``hard'' (materials, 
structures) and ``soft'' (human factors and policy) R&D, and between 
R&D on highways and on other modes, such as transit, bicycling and 
walking. Instead, the decentralized structure of R&D, the needs of some 
important stakeholders for quick-fix R&D products, and the shift of R&D 
funds to states under TEA-21 has led to a heavy emphasis on short-term, 
applied R&D into materials and structures (such as pavements and 
bridges).

Are there major gaps in our transportation R&D? The funding shortfall 
and imbalanced portfolio, coupled with a large number of earmarks, have 
contributed to important R&D gaps. The Transportation Research Board 
(TRB) and others have identified critical gaps, including environmental 
R&D, long-term fundamental research, policy research (addressing such 
things as changing demographic, economic and social trends), 
performance measurement and evaluation R&D, research addressing 
institutional barriers to deployment (particularly for ITS 
technologies), transit R&D, and security R&D.

How should these gaps be filled? Funding the Surface Transportation 
Environmental Cooperative Research Program (STECRP) and the Future-
Strategic Highway Research Program (F-SHRP) could fill several (but not 
all) of these gaps. STECRP would carry out research on the links 
between environment and transportation. F-SHRP would address R&D gaps 
in four areas: (1) Renewal of the existing highway infrastructure, (2) 
Safety, (3) Reliability of travel times, and (4) Capacity, which will 
look holistically at the relationship between highways, the economy, 
communities and the environment. Other research programs or emphases 
will be required to fill the remaining gaps.

    More background on these two programs and other research gaps is 
included later.

Does the decentralized nature of transportation R&D undercut strategic 
planning? Federal funding of transportation R&D is highly decentralized 
with funds flowing to federal agencies, states, universities, and the 
Transportation Research Board (TRB). Although this structure gives 
stakeholders an opportunity to shape transportation R&D, TRB, FHWA and 
others point out that this structure, coupled with Congressional 
earmarks, has undermined FHWA's ability to carry out a multi-year 
strategic R&D plan, which could help R&D target important gaps.

Is there relevant stakeholder involvement in DOT research? Both the TRB 
and the General Accounting Office (GAO) have recommended a greater role 
for stakeholders (such as researchers, research sponsors, users, and 
other affected parties) in determining the direction of DOT R&D 
programs. The critical challenges are ensuring that stakeholder input 
is balanced across appropriate interest groups and sought at the 
appropriate point in the research process.

Should the FHWA strengthen its competition and peer-review 
requirements? According to GAO, FHWA rarely subjects R&D project 
proposals to competition and peer-review, and frequently does not 
follow best practices in evaluating the outcomes of R&D projects or in 
fostering deployment of R&D results.

Is the Intelligent Transportation System (ITS) Research and Deployment 
program meeting users needs? The ITS program is designed to use 
emerging technologies in other fields (such as communications) to 
improve transportation system performance. While it is not clear 
whether DOT has a clear plan for developing technologies that users 
will deploy, it is clear that DOT does not evaluate technologies to see 
if they are measurably improving performance (by reducing congestion or 
improving safety). Even among proven technologies, institutional 
barriers to deployment (for example, fragmented authority, privacy 
considerations, and rigid procurement rules) hamper effective 
deployment of technologies and must be surmounted.

Should we modify the University Transportation Center Program? TEA-21 
created 10 regional centers, which were selected by competition, and 33 
other earmarked centers, which received direct funding to conduct R&D. 
Because there was little to no competition for most of the named 
centers, many believe the quality of the R&D is variable. The 
universities themselves primarily determine the direction of their R&D 
efforts, and are not part of any systematically developed strategic R&D 
agenda.

How can we improve data collection at the Bureau of Transportation 
Statistics (BTS)? According to a number of recent TRB reports and 
various user groups (such as local and regional planning organizations, 
as well as the freight and shipping community), BTS has not lived up to 
its mandate in TEA-21 to provide sound, comprehensive information on 
the condition and performance of our transportation system. As a 
result, we have inadequate data to guide private sector investment 
decisions (particularly for freight movement), local and regional 
transportation planning, and overall strategic planning and performance 
evaluation.

Do we know whether our transportation system is meeting the goals of 
TEA-21? Although the goals of TEA-21 are well accepted and the Federal 
Government spends more than $30 billion per year on surface 
transportation, DOT carries out little research and provides little 
information on whether the transportation system as a whole and our 
annual transportation investments meet the goals of TEA-21.

Background on Issues

Research and Development Gaps

    The decentralized structure of transportation R&D and inadequate 
funding, have led to several critical gaps. In some areas, the 
Transportation Research Board (TRB) has recommended specific and 
detailed programs to fill gaps. However, in other areas it is not clear 
exactly how these gaps should be addressed programmatically.

Future Strategic Highway Research Program (F-SHRP)
    Building on the success of Strategic Highway Research Program 
(SHRP) created in the precursor to TEA-21, the Intermodal Surface 
Transportation and Efficiency Act of 1991 TEA-21 called for TRB to 
develop a proposal for Future-SHRP to cut across disciplines and 
address short- to medium-term R&D gaps. In response, TRB developed a 
proposal in 2001 that would address R&D gaps in four areas: (1) 
Renewal, which will focus on R&D to minimize disruptions as we renovate 
existing highway infrastructure; (2) Safety, which will focus on the 
link between human factors and circumstances that lead to collisions at 
intersections; (3) Reliability, which will focus on R&D to improve the 
reliability of travel times by reducing the frequency and effects of 
events that cause delay; and (4) Capacity, which will look holistically 
at the relationship between highways, the economy, communities and the 
environment. TRB proposes funding F-SHRP with a takedown of .25 percent 
of federal-aid highway funds apportioned to the states, which would 
generate approximately a total of $450 to $500 million over six years. 
The proposal has strong support from key constituency groups such as 
TRB, the American Association of State Highway and Transportation 
Officials (AASHTO) and private associations.

Surface Transportation Environmental Cooperative Research Program 
        (STECRP)
    GAO, TRB and others have identified the lack of environmental R&D 
as a major gap in our transportation research portfolio. To fill this 
important gap, the Science Committee created the STECRP program, which 
was included in TEA-21. The program was to be modeled on the highway 
and transit cooperative research programs, and included provisions for 
an advisory committee to develop a long-term strategic plan. The goal 
of the program was to develop knowledge, tools, and performance 
measures that would help us understand the linkage between the 
environment (which includes energy) and the transportation system. 
Proponents believed STECRP would fill in missing pieces that could help 
TEA-21 meet its broad policy goals.
    However, DOT has yet to allocated money to the program. The U.S. 
DOT contracted with the TRB to create the advisory committee, which 
released its strategic plan in 2002 as TRB Special Report 268. The 
strategic plan calls for six areas of concentrated R&D: (1) human 
health, (2) ecology and natural systems, (3) environmental and social 
justice, (4) emerging technologies, (5) land use, and (6) planning and 
performance measures. There has been general praise of the plan for its 
integrated approach to environmental and energy impacts of the Nation's 
transportation systems. The report stated that it would be reasonable 
to fund federal surface transportation-environment R&D at up to $150 
million per year. According to the FHWA Administration, it spends about 
$10 million a year on environmental research, but this funding cuts 
across various programs and business units, with no specific focus or 
goal. AASHTO supports the program and has recommended a funding level 
of $15 million per year.

Advanced Research
    TRB Special Report 261, ``The Federal Role in Highway Research and 
Technology'' concludes that most transportation R&D is focused on near-
term, applied issues, as the transportation community tends to be risk 
averse. There is a need for fundamental, long-term (6-20 years) 
research aimed at achieving breakthroughs in understanding 
transportation phenomena. Examples of this type of research include 
research on pavements at the molecular level, which could lead to 
pavements that would last twice as long, and research into 
understanding how to assess the value of our surface transportation 
assets. The report stated that, of all the actors in the transportation 
system, only the Federal Government is in a position to conduct what 
they characterize as ``high-risk'' research. The report further 
acknowledged that FHWA's current research program does not reflect this 
role. While TEA-21 includes an advanced research program, it is funded 
at less than $1 million and has no specific focus. TRB proposed that 
FHWA should spend 25 percent of its surface transportation R&D on this 
type of advanced research.

Policy R&D
    Increasingly, transportation planners, social scientists and 
engineers are stating that to better manage our transportation system 
problems we shift some of our attention to policy research questions. 
Specifically, they point to dramatic changes in demographic, economic 
and social trends that will affect and are affected by the 
transportation system. For example, the aging of the baby boomers has 
profound research and transportation system implications. Today, 
roughly 13 percent of the population is over 65. By 2020, that figure 
will be more than 20 percent. This means that for the first time in our 
history, there will be large numbers of senior citizens living in 
suburban communities whose lifestyles depend on easy mobility. However, 
we have not invested in the research needed to know how to adapt our 
communities and our transportation system to meet this inevitable 
trend.
    Economic trends raise other questions. Household transportation 
costs are now second only to housing expenses for most families in 
America, a dramatic change from 30 years ago. For many families, these 
costs may be delaying home purchases, and savings for college and 
retirement. Again, we have little research on this phenomenon, its 
implications, or possible policy responses.
    The potential link between transportation and health is another 
research gap. For example, there is a growing body of evidence that 
links the obesity epidemic in America to our auto dependency and 
related lack of exercise. Although the Centers for Disease Control has 
been involved in some research, the gap in research is perceived to be 
so large that the Robert Wood Johnson Foundation has initiated a major 
initiative to better understand this phenomenon. We must examine other 
ways to ensure that this research becomes part of are overall 
transportation research effort.

ITS Evaluation and Deployment R&D
    The ITS program promises to provide valuable tools and technologies 
to improve system performance (by reducing congestion and improving 
safety and security), however some say that there are research gaps 
that limit the effectiveness of ITS technologies and the cost-
effectiveness of our sizable investment in them. The ITS Joint Program 
Office (housed in FHWA) recently ended its contract with ITS America to 
act as an advisory committee and is in the process of chartering a new 
advisory committee. This provides Congress with the opportunity to 
address significant gaps in the ITS program through shaping the 
advisory committee and implementing other programmatic changes.
    Some stakeholders have said that it is not clear that the DOT 
develops a clear strategic plan, with relevant stakeholder involvement, 
before investing R&D dollars in ITS technologies. In addition, many 
stakeholders point out that ITS technologies are not adequately 
evaluated. For example, while DOT knows how many lanes are equipped 
with electronic toll collection technology, and how many dynamic 
signboards have been deployed on roadways, it does not know if, and how 
much, these technologies have contributed to mitigating congestion. 
Without this evaluative data, it is difficult to know which 
technologies to deploy.
    Even among promising technologies, there are significant barriers 
to deployment: (1) fragmented authority at the local level over 
deploying and operating technologies, (2) privacy considerations in the 
collection and dissemination of information, (3) the need for public-
private partnerships in deploying in-vehicle ITS technologies such as 
adaptive cruise control and transponders to transmit and receive 
information, (4) procurement rules that limit states and localities 
from looking at costs and benefits holistically, and (5) the difficulty 
of attracting and retaining a capable workforce to operate 
technologies. R&D into these issues, such as how to collect and 
disseminate information in a way that protects privacy, is critical to 
the success of ITS technologies. In addition, the ITS deployment 
section of TEA-21 has been 100 percent earmarked and so ITS 
technologies are not deployed in a strategic manner to achieve optimum 
results.

Transit R&D
    Federal Transit Administration (FTA) R&D funding has remained 
stagnant for more than 10 years at approximately $60 million per year. 
The Transit Cooperative Research Program (TCRP), administered by the 
TRB to address short-term needs of national importance, has also 
received flat funding at $8.25 million per year since 1992. This low 
level of funding has led to under-investment in several areas. This 
includes research and assistance to provide tools and information to 
transit agencies to increase ridership, R&D on reducing the life-cycle 
costs of transit vehicles, systems and facilities, research on multi-
modal transportation planning, and public-private research on 
technologies to develop hybrid-electric vehicles. AASHTO has 
recommended that FTA funding increase by at least $70 million annually, 
and that TCRP be funded at $15 million annually.

Security R&D
    Since 9/11, the Nation has focused heavily on national security. 
Our transportation system plays an important role in national security, 
both as a system to move people away from threats as well as a system 
that is vulnerable. It is clear that research must focus on critical 
security issues. Again, ITS provides promising solutions to national 
security problems. ITS information technologies, such as dynamic 
signboards, can direct vehicles in an evacuation in order to 
efficiently move people away from threats.
    ITS technologies could track freight movement and detect variation 
from an expected pathway. While there are no ready answers to the scope 
of research that is required to protect national security, DOT must 
direct greater resources, in cooperation and coordination with the 
Department of Homeland Security, toward transportation security 
research.

Performance

    In order to develop an R&D program that strategically invests in 
the transportation system, it is necessary to understand the 
performance of our R&D projects, programs, and the transportation 
system as a whole. Although interest in performance evaluation 
continues to grow across the Federal Government, transportation R&D 
programs and the Nation's overall transportation system have not yet 
been subject to meaningful performance evaluation.
    There are at least three levels at which Congress should be 
concerned with building performance into transportation programs: 1) 
Project level--DOT R&D does not follow ``best practices'' in using peer 
review for project evaluations, or evaluating deployment of their R&D 
results; 2) Portfolio level--little R&D is done to assess whether we 
have balanced the R&D program across the goals of TEA-21; and 3) System 
level--DOT carries out little or no policy R&D looking at whether the 
overall transportation system is delivering on the goals of TEA-21.
    In a recent report on DOT's R&D projects, GAO concluded that FHWA 
does not follow best R&D practices for competing and conducting merit 
review of project proposals or for evaluating project outcomes. GAO is 
concerned that without competitive, merit review, a practice carried 
out by many other federal R&D programs, it is difficult to know whether 
funds are being directed to the highest quality research. And project 
evaluation is necessary because without meaningful performance goals or 
regular evaluations, we cannot know what research should be continued, 
what methods, tools and technologies should be deployed, or how to best 
invest federal R&D dollars. The ITS program, described above, 
illustrates this point.

Bureau of Transportation Statistics (BTS)
    In order to do performance and evaluation R&D, researchers need 
high quality data. The Bureau of Transportation Statistics (BTS), 
created in ISTEA, was intended to collect and analyze single and multi-
modal transportation data to enable sound transportation policy 
decisions. Under TEA-21, BTS has received $31 million per year from the 
Highway Trust Fund. However, BTS has not lived up to its billing as an 
independent source of high quality information.
    According to a number of recent TRB reports and various user groups 
(such as local and regional planning organizations, as well as the 
freight and shipping community), BTS faces a number of important 
challenges if it is to meet its mandate. At the organizational level, 
BTS has been hamstrung because it does not control many of the most 
important data sets maintained by department. It is forced to rely on 
the other entities, which have been collecting data in certain ways for 
years. Because it has not been responsive enough to user needs, it may 
be necessary adjust the existing advisory system structure required in 
TEA-21.
    Data quality and collection has suffered because of inadequate and 
flat funding. Sample sizes of studies have been cut repeatedly, making 
the data less useful, especially at more local and regional levels. The 
increasing use of phone surveys and voluntary surveys is reducing 
response rates and missing significant constituencies (such as those 
who are Spanish speaking, without phones or who only use cell phones). 
The primary surveys, which look at trip making for households and 
freight, are not addressing the entire range of trips to move people 
and goods from one place to another.
    TEA-21 also authorized the creation of a National Transportation 
Library, akin to the National Library of Medicine for the 
transportation field. After funding it for several years, DOT is 
proposing to cut the program in FY 04 budget. The Committee will need 
to look carefully at the reasons for eliminating the program.

Questions for Witnesses

    Mr. Emil Frankel, Assistant Secretary for Transportation Policy, 
U.S. Department of Transportation

        <bullet> Please give an overview of the surface transportation 
        research programs administered or funded by the Department of 
        Transportation (DOT) with particular emphasis on the following 
        questions: How much money does DOT spend on this research? 
        Please give a list of examples of the type of research 
        conducted. Who actually conducts the research (Federal 
        Government, states, universities, private sector)? How is 
        surface transportation research in the various modes 
        coordinated within the DOT?

        <bullet> What steps has DOT taken to create a strategic plan 
        for surface transportation research and development, including 
        performance indicators and Government Performance and Results 
        Act (GPRA) goals, as required by TEA-21? By what measures does 
        DOT determine whether this research it funds meets the overall 
        goals of TEA-21?

        <bullet> What surface transportation research, if any, does 
        DOT fund that could be considered fundamental, long-term 
        research aimed at achieving breakthroughs in understanding 
        transportation? Why is such research important?

        <bullet> How do you involve stakeholders in determining what 
        surface transportation research to conduct? In what ways could 
        you increase stakeholder involvement these research projects 
        before contracts are finalized?

    Mr. Eric Harm, Deputy Director, Illinois Department of 
Transportation

        <bullet> Please describe the State of Illinois' transportation 
        research programs with particular emphasis on the following 
        questions: How much money does the state spend on such 
        research? What types of research does it conduct? Who actually 
        conducts the research (e.g., in-house labs, universities, or 
        private sector labs)? What role, if any, do the universities 
        play in conducting research for the state?

        <bullet> What should be the role of the Federal Government in 
        conducting transportation research? What should be the role of 
        the universities?

        <bullet> What role, if any, do states like Illinois play in 
        setting priorities for the Federal Highway Administration 
        (FHWA) research program? How much of the research conducted by 
        FHWA produces results that are implemented in your state? More 
        specifically, has the ITS program produced technologies or 
        research that you have used? Please provide other examples of 
        FHWA research that you have implemented.

        <bullet> What are the important gaps in our current 
        transportation research agenda? Should the government invest 
        more in transportation research? If so, what types of research 
        are under-funded, what types of research are over-funded, and 
        what types of research are we not funding at all? What need is 
        there for long-term, fundamental transportation research?

    Dr. Michael Walton, Ernest H. Cockrell Centennial Chair, University 
of Texas at Austin Department of Civil Engineering

        <bullet> What are the goals the Future Strategic Highway 
        Research Program (F-SHRP) is expected to achieve? Why is this 
        research important, and what funding level do you recommend for 
        this program?

        <bullet> Please define advanced research and give specific 
        examples of advanced research currently being conducted. Should 
        we be doing more advanced research and, if so, who should 
        conduct it?

        <bullet> Is there a need for improved stakeholder involvement 
        in Department of Transportation (DOT) research? If so, in what 
        ways could DOT better involve stakeholders in planning its 
        research agenda and in planning for specific projects?

        <bullet> Many people have criticized the ITS program for 
        failures in technology transfer, and this is often due to 
        institutional barriers, such as driver acceptance or liability 
        concerns. How should research address these barriers? In 
        addition, is there a better way to evaluate the performance of 
        ITS technologies to determine how they help meet goals such as 
        safety and congestion mitigation?

        <bullet> Are we getting our money's worth from our 
        transportation research investments? How can we measure whether 
        our research program is meeting our overall transportation 
        goals such as mobility, safety, economic vitality, system 
        preservation and environmental protection?

    Ms. Kate Siggerud, Acting Director, Physical Infrastructure Team, 
General Accounting Office

        <bullet> How does the Federal Highway Administration (FHWA) 
        currently involve stakeholders in determining the direction of 
        its research programs? What is the best way to ensure that 
        transportation R&D programs incorporate the present and future 
        needs of the users (states, Metropolitan Planning Organizations 
        and the private sector)?

        <bullet> How can FHWA ensure that projects funded with federal 
        dollars are of the highest quality? Are there lessons that can 
        be learned from other Federal Government agencies?

        <bullet> How does FHWA currently evaluate ongoing and 
        completed research, and what are the strengths and weaknesses 
        of its approach? How can FHWA improve its evaluation process to 
        ensure that research projects achieve their intended results?

    Ms. Anne Canby, President, Surface Transportation Policy Project

        <bullet> Do you support the Surface Transportation Environment 
        Cooperative Research Program (STECRP) and the Future-Strategic 
        Highway Research Program (F-SHRP)? How would these programs 
        fill important gaps in our research agenda? At what level 
        should these programs be funded?

        <bullet> Does the current overall transportation research 
        portfolio invest the appropriate amount in research that 
        supports each of TEA-21's goals, including mobility, safety, 
        economic vitality, system preservation and environmental 
        protection? What steps, if any, should Congress take in those 
        areas where the research is inadequate?

        <bullet> Are we currently conducting research on critical 
        transportation policy questions such as how demographic, 
        economic and social trends will affect future system needs? 
        What questions are we not yet investigating, and do we have the 
        necessary data to help us answer these questions? What would be 
        the appropriate entity to conduct this type of policy 
        research--for example, the Federal Government, the 
        Transportation Research Board (TRB), universities?

        <bullet> Are we currently measuring the performance of our 
        transportation investments relative to the goals set forth in 
        TEA-21 (including goals for mobility, safety, economic 
        vitality, system preservation and environmental protection)? If 
        not, what are the barriers to doing so? What research, if any, 
        is needed to overcome these barriers?

        <bullet> Why does STPP believe that the Bureau of 
        Transportation Statistics (BTS) has not lived up to its mandate 
        as outlined in ISTEA and TEA-21? What additional kinds of data, 
        if any, do we need to measure the performance of the 
        transportation system? What recommendations do you have to 
        improve the quality and relevance of data collection and 
        analysis by BTS?

    Dr. Michael Meyer, Professor, Georgia Institute of Technology 
School of Civil and Environmental Engineering

        <bullet> What are the major economic, demographic, and social 
        trends that affect the performance of our transportation system 
        and the demands it is expected to meet? How can research 
        efforts to understand these trends best be directed to 
        improving our nation's transportation?

        <bullet> Are we currently conducting research on such critical 
        transportation policy questions? What questions are we not yet 
        investigating, and do we have the necessary data to help us 
        answer these questions? What would be the appropriate entity to 
        conduct this type of policy research--for example, the Federal 
        Government, TRB, universities?

        <bullet> Are we currently measuring the performance of our 
        transportation investments relative to the goals set forth in 
        TEA-21 (including goals for mobility, safety, economic 
        vitality, system preservation and environmental protection)? If 
        not, what are the barriers to doing so? What research, if any, 
        is needed to overcome these barriers? To what extent is the 
        Bureau of Transportation Statistics (BTS) suited to provide the 
        necessary information to measure the performance of these 
        investments?

Appendix 1

 Goals and Descriptions of Federally Funded Surface Transportation R&D 
                                Programs

Goals of TEA-21

    The goals of TEA-21 are to: (a) support economic vitality, 
especially by enabling global competitiveness, productivity, and 
efficiency; (b) increase the safety and security of the transportation 
system for motorized and non-motorized users; (c) increase the 
accessibility and mobility options available to people and for freight; 
(d) protect and enhance the environment, promote energy conservation, 
and improve quality of life; (e) enhance the integration and 
connectivity of the transportation system, across and between modes, 
for people and freight; (f) promote efficient system management and 
operation; and (g) emphasize the preservation of the existing 
transportation system.

Programs funded out of Title V of TEA-21

Federal Highway Administration ($529 million\1\)
---------------------------------------------------------------------------
    \1\ Funding levels are from FY02 and were taken from the U.S. 
Department of Transportation's ``Research, Development and Technology 
Plan,'' September 2002
---------------------------------------------------------------------------
    The Federal Highway Administration's (FHWA) mission is to enhance 
mobility, while ensuring safety and security, and promoting efficiency 
and protection of the environment. The FHWA R&D budget, authorized in 
Title V of TEA-21, is divided into four major components: 1) surface 
transportation research; 2) technology deployment; 3) training and 
education; and 4) intelligent transportation systems.

Surface transportation research ($101 million) The funding for this 
program is directed primarily toward pavements and structures research, 
including the Long-Term Pavement Program. Other R&D programs include 
safety; environment, planning and right-of-way; highway operations and 
asset management; technical assessment, support and deployment; and 
advanced research.

Technology Deployment ($41 million) Deployment was a major focus of 
TEA-21 because there was concern that new technologies were being 
developed through the R&D program but not deployed. Funding is 
distributed to FHWA headquarters and field offices to support 
technology and innovation deployment activities.

Training and Education ($17 million) This program includes: 1) the 
National Highway Institute, which develops and administers 
transportation-related training and education programs; 2) the Local 
Technical Assistance Program which aims to improve the skills and 
knowledge of local transportation providers through 58 LTAP centers; 
and 3) the Eisenhower Transportation Fellowship Program, which awards 
fellowships to undergraduate and graduate students.

Intelligent Transportation Systems ($95 million for research; $108 
million for deployment) ITS is founded on the premise that by applying 
well-established technologies in communications, control, electronics 
and computer hardware and software, surface transportation system 
performance can be improved. The goals of the program are to reduce 
congestion, enhance safety, mitigate environmental impacts, enhance 
energy performance, and improve productivity. In TEA-21, the ITS 
program was funded in two parts--research and deployment. The research 
program includes research on intelligent vehicles, electronic toll 
collection and smart cards, as well as funding for standard setting and 
the development of a national architecture. In TEA-21, virtually none 
of the research dollars were earmarked, but 100 percent of the 
deployment dollars were earmarked. The ITS program is administered by 
the Joint Program Office, housed in FHWA, but funding also flows to 
other DOT administrations for ITS research (such as National Highway 
Traffic Safety Administration).

State Planning and Research ($128 million)
    States fund an assortment of R&D programs using their own revenue 
sources as well as federal funds. Research funded by states tends to be 
applied and is often geared toward figuring out how to implement tools 
and technologies at the local level. States must set aside two percent 
of the money they receive from several federal surface transportation 
programs for state planning and research (SPR) activities. Of this 
amount, 25 percent must be spent on R&D activities. On a voluntary 
basis, the states contribute 5.5 percent of their SPR funds to the 
National Cooperative Highway Research Program (NCHRP) to conduct R&D on 
issues of national importance (more information on this program is 
included below). States in certain regions also often pool R&D funds to 
conduct research on regional issues.

National Cooperative Highway Research Program ($31.5 million)
    The NCHRP facilitates R&D in acute problem areas that affect 
highway planning, design, construction, operation and maintenance. 
NCHRP is administered by the National Academy of Sciences 
Transportation Research Board (TRB). Research programs are identified 
through a two-stage process that involves the American Association for 
State Highway and Transportation Officials' (AASHTO) Standing Committee 
on Research (SCOR). Problems are solicited from the SCOR and nominated 
projects are ranked, prioritized, and voted on annually. The TRB then 
puts together a panel of experts who select and oversee the work of the 
research contractors for each contract.

University Transportation Centers ($30 million)
    The University Transportation Center (UTC) program was created in 
1987 under the precursor to ISTEA. The UTC program distributes funding 
to universities to conduct research and support graduate students in 
transportation fields. The program began with a competition for 10 
regional centers around the country, funded at $1 million per year 
(which is the same funding level these universities receive today). 
ISTEA and TEA-21 continued the competition for the 10 regional centers, 
but specifically listed other universities as centers, with little or 
no competition for the funding. FHWA and Federal Transit Administration 
(FTA) fund the program. Matching funds are also often provided by the 
states. While the Research and Special Projects Administration (RSPA) 
administers the funding, the universities themselves primarily 
determine how to spend their funds.

Bureau of Transportation Statistics ($31 million)
    The Bureau of Transportation Statistics (BTS), begun in 1992, is 
responsible for providing transportation data and information of high 
quality, and to advance the use of this data in public and private 
decision-making. The BTS compiles, analyzes and makes information 
accessible on the Nation's transportation systems; collects information 
on inter-modal transportation and other areas as needed; and works to 
enhance the quality and effectiveness of government statistics.

Program funded out of other Titles of TEA-21 and other statutes

Office of the Secretary ($11.5 million)
    The Office of the Secretary (OST) is responsible for formulating 
national transportation policy. OST focuses research on crosscutting or 
multimodal issues including safety, the environment (including climate 
change), energy, planning, and congestion management.

National Highway Traffic Safety Administration ($82 million)
    Established in 1970, the National Highway Traffic Safety 
Administration's (NHSTA) mission is to save lives, prevent injuries, 
and reduce traffic-related health care and economic costs. NHTSA's 
research includes databases and data collection, crashworthiness 
research to improve vehicle structure and design, biomechanics research 
to evaluate the extent and severity of potential crash injuries, and 
ITS research on collision avoidance systems such as adaptive cruise 
control (Intelligent Vehicle Initiative).

Federal Transit Administration ($60 million)
    The Federal Transit Administration's (FTA) mission is to ensure 
personal mobility and community vitality by supporting high-quality 
public transportation. FTA R&T encompasses several program areas, 
including safety and security, equipment and infrastructure, fleet 
operations, specialized customer services, planning and project 
development, and performance and review. The FTA also funds (at $8 
million) the Transit Cooperative Research Center (TCRP), administered 
by the TRB. The TCRP focuses on issues significant to the transit 
industry, with emphasis on local problem-solving research. FTA also 
funds university research through the UTC program.

Research and Special Programs Administration ($10 million)
    The Research and Special Programs Administration (RSPA) is the 
Department's multimodal research administration. RSPA has the task of 
coordinating research across the modes. In addition, RSPA conducts 
research in pipeline safety, hazardous materials, and emergency 
transportation.

Federal Motor Carrier Safety Administration ($3 million)
    The Federal Motor Carrier Safety Administration's (FMCSA) focus is 
on saving lives and reducing injuries by helping to prevent truck and 
motorcoach crashes. FMCSA's R&T program includes research on major 
crash factors, training, education and outreach.

Federal Rail Administration ($65 million)
    The Federal Railroad Administration (FRA) promulgates and enforces 
railroad safety regulations, administers financial assistance programs 
to the railroads, and fosters the development of high-speed rail. The 
FRA R&D program addresses safety (including human factors, track and 
structures, hazardous materials, etc.). The FRA also manages the Next 
Generation High-Speed Rail program, and a Magnetic Levitation program. 
Only a small portion of FRA research funding comes from TEA-21.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Ehlers. I now call the Subcommittee on 
Environment, Technology and Standards to order. I wish to 
welcome everyone here. We do not have one witness yet, but she 
is en route, and so since my good Ranking Member showed up on 
time, we will start on time. And we will welcome the new 
witness when she arrives.
    It is my pleasure to welcome you to today's hearing, 
``Transportation Research and Development: Investing for the 
Future.''
    The United States has one of the most extensive 
transportation systems in the world. Every day planes, trains, 
boats, trucks, and automobiles transport billions of dollars 
worth of goods across America. Every day hundreds of billions 
of people use this system to travel to and from work, to visit 
family, or to go on a vacation. Moving people and goods from 
one location to another is one of the most basic means for an 
economy to grow.
    However, this system faces tremendous challenges. The 
public wants safer, less congested roads. State and local 
governments are striving to meet this want, but much of their 
resources are tied up maintaining our existing system with 
little, if any, money left for improving it and planning for 
the future. Considering that we won't have the ability to 
simply build more roads to keep pace with our growth due 
especially to urban population density, we must look at new 
ways to improve the overall system to make it safer and more 
efficient.
    As Will Rogers once said, ``A Congressman is never any 
better than his roads, and sometimes worse.'' So those of us up 
here on the dais have--also have a keen interest in what is at 
stake as we examine our transportation system.
    Today, we will review one aspect that can fundamentally 
improve the entire system in many different ways: surface 
transportation research and development. During consideration 
of the Transportation Equity Act for the 21st Century, commonly 
referred to as TEA-21, in 1998, and its precursor, the 
Intermodal Surface Transportation and Efficiency Act, known as 
ISTEA, in 1991, the Science Committee played a major role in 
creating the research and development provisions.
    As we proceed to reauthorize TEA-21, the Science Committee 
will, again, play a key role in evaluating the current research 
programs and funding levels, understanding the gaps in our 
research agenda and proposing changes to improve it. In short, 
we want to make sure that we are getting our money's worth both 
from the research we do and from our transportation system as a 
whole.
    Our task is not easy. Surface transportation research is 
complex and highly decentralized. The Federal Government plays 
a large role, as do states, which conduct their own research, 
universities, the National Academy of Sciences, which manages a 
nationwide research program, and the private sector.
    TEA-21 has provided about $600 million a year for highway 
research during the past five years. Although this is a 
significant investment, it represents only about 1/2 of one 
percent spending by all units of government on highways. This 
is an extremely low percentage compared to industries and is a 
specific concern of mine. Given the tremendous challenges and 
pressures facing our transportation system, research is more 
important than ever, and proper funding is crucial to our 
success in meeting these challenges. And I feel very strongly 
about that, not only because I am a research physicist, but 
simply by looking at corporations, entities who are involved in 
any activity, they generally spend far more than 1/2 of one 
percent of their gross on research. And if they don't, they 
generally don't survive. I think we have to apply that same 
principle to the transportation industry, which will survive 
without it, but may not operate as efficiently as it could 
without additional research funding.
    Our goal is to produce the research title to be included in 
reauthorization of TEA-21. Throughout this process, the Science 
Committee will continue to work with Members and staff from the 
Transportation and Infrastructure Committee. Also, as a senior 
Member of the Transportation Committee along with Chairman 
Boehlert, we will be intimately involved in all aspects of 
reauthorizing TEA-21 and to the new bill, which is tentatively 
named TEAM LOU.
    [The prepared statement of Mr. Ehlers follows:]

            Prepared Statement of Chairman Vernon J. Ehlers

    Welcome to today's hearing, ``Transportation Research and 
Development: Investing for the Future.''
    The United States has one of the most extensive transportation 
systems in the world. Every day, planes, trains, boats, trucks and 
automobiles transport billions of dollars worth of goods across 
America. Every day, hundreds of millions of people use this system for 
travel to and from work, to visit family, or to go on vacation. Moving 
people and goods from one location to another is one of the most basic 
needs for an economy to grow.
    However, this system faces tremendous challenges. The public wants 
safer, less congested roads. State and local governments are striving 
to meet this want, but much of their resources are tied up maintaining 
our existing system, with little, if any, money left for improving it 
and planning for the future. Considering that we won't have the ability 
to simply build more roads to keep pace with our growth, due especially 
to urban population density, we must look at new ways to improve the 
overall system, to make it safer and more efficient.
    As Will Rogers once said, ``A Congressman is never any better than 
his roads, and sometimes worse.'' So, those of us up here on the dais 
also have a keen interest in what is at stake as we examine our 
transportation system.
    Today we will review one aspect that can fundamentally improve the 
entire system in many different ways--surface transportation research 
and development. During consideration of the Transportation Equity Act 
for the 21st Century (commonly referred to as TEA-21) in 1998, and its 
precursor, the Intermodal Surface Transportation and Efficiency Act 
(known as ISTEA) in 1991, the Science Committee played a major role in 
creating the research and development provisions.
    As we proceed to reauthorize TEA-21, the Science Committee will 
again play a key role in evaluating the current research programs and 
funding levels, understanding the gaps in our research agenda, and 
proposing changes to improve it. In short, we want to make sure we are 
getting our money's worth both from the research we do and from our 
transportation system as a whole.
    Our task is not easy. Surface transportation research is complex 
and highly decentralized. The Federal Government plays a large role, as 
do states, which conduct their own research; universities; the National 
Academy of Sciences, which manages a nationwide research program; and 
the private sector.
    TEA-21 has provided about $600 million a year for highway research 
during the past five years. Although this is a significant investment, 
it represents only about one half of one percent of spending by all 
units of government on highways. This is an extremely low percentage 
compared to other industries and a specific concern of mine. Given the 
tremendous challenges and pressures facing our transportation system, 
research is more important than ever--and proper funding is crucial to 
our success in meeting these challenges.
    Our goal is to produce the research title to be included in 
reauthorization of TEA-21. Throughout this process, the Science 
Committee will continue to work with Members and staff from the 
Transportation and Infrastructure Committee. Also, as a senior Member 
of the Transportation Committee along with Chairman Boehlert, we will 
be intimately involved in all aspects of reauthorizing TEA-21.
    I welcome the distinguished panel before us, and I look forward to 
your testimony.

    Chairman Ehlers. The Chair now recognizes Congressman Mark 
Udall, the Ranking Minority Member on the Environment, 
Technology and Standards Subcommittee for an opening statement. 
Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman. I, too, want to welcome 
the panel and Congressman Ehlers, I think that is the most 
positive thing Will Rogers ever said about a Member or Members 
of Congress. So we will add that to our repertoire.
    I, too, am excited to hear what you all have to say today. 
And this hearing touches on a very important issue. It is one 
that I hear about frequently in my district. Our roads and 
highways in Colorado's case, our mass transit system is well--
every weekend I am back in the district, people want to talk 
about congestion, about funding, and about what we can do to 
ease the problem. We have a lot of wide open space in Colorado, 
but the more and more we understand, you can't just build your 
way out of traffic problems. We have to use our current system 
more efficiently, improve our transportation planning, and 
develop highway materials that last longer and demand less 
maintenance. And as Chairman Ehlers pointed out, research is 
the only way, I believe, that we are going to develop the 
solutions for these transportation problems.
    Starting in '91 with the passage of ISTEA, we began to 
devote a significant amount of transportation monies to 
research. We have had some successes, but we have also had some 
misses. And from what I understand, many of the misses are a 
function of not having a holistic approach to the 
transportation system and not giving sufficient consideration 
to human factors. And in that light, I believe that the public 
should have a greater role in transportation planning in the 
development of new technologies that might allow us to use our 
highway systems more efficiently. And I am concerned that human 
factor issues are not given an adequate consideration or not 
integrated sufficiently into our transportation R&D efforts.
    Now we have got a tough budgetary environment right now, so 
we have to use our limited R&D funds efficiently and get the 
biggest bang for our buck. And that may mean we have got to be 
more rifle-shot oriented as opposed to a scatter shot approach 
that fund a host of well-meaning and possibly exciting R&D 
activities, but in that situation, we may not get the results 
that we want. We need to prioritize our research and 
development activities within the context of the overall 
transportation system so that it will perform its intended 
function, which is to efficiently and safely ensure the 
mobility of goods, services, and individuals within our 
communities and throughout the Nation.
    And in that spirit, I hope you all have some specific 
suggestions as to how we can improve our R&D funding 
allocations to address some of these issues. I also want to 
encourage our witnesses--our witness from the Administration to 
discuss what should be the research agenda and priorities for 
the follow on to TEA-21. And I realize the Administration has 
not yet submitted a reauthorization bill to Congress, but we 
need your expert opinion on what the research agenda and 
priority should be. So again, I want to thank you, and I look 
forward to the testimony this morning.
    Chairman Ehlers. If there is no objection, all additional 
opening statements submitted by the Subcommittee Members will 
be entered into the record. Without objection, so ordered.
    At this time, I would like to introduce our witnesses. We 
have--are pleased to have an outstanding panel with a great 
divergence of experience and views. And I am sure they will be 
extremely helpful to the Subcommittee as we begin developing 
our legislation. We are joined by, first of all, from the 
Department of Transportation, Mr. Emil Frankel. He is the 
Assistant Secretary for Transportation Policy in the U.S. DOT. 
Previously, he served as Commissioner of the Connecticut 
Department of Transportation and was Chairman of the Standing 
Committee on the Environment at the American Association of 
State Highway and Transportation Officials, familiarly known as 
AASHTO.
    Mr. Eric Harm is the Deputy Director of the Division of 
Highways at the Illinois Department of Transportation. He is 
responsible for coordination of construction and research 
activities.
    Dr. Michael Walton, not of TV fame, is the Ernest H. 
Cockrell Centennial Chair of the Department of Civil 
Engineering at the University of Texas at Austin. Dr. Walton is 
the Chairman of the Research and Technology Coordinating 
Committee at the Transportation Research Board and has also 
chaired numerous TRB panels, including the recent panels on 
strategic highway research and the federal role in highway 
research.
    Next, we have Ms. Kate Siggerud, who is an Acting Director 
of the Physical Infrastructure Team for the U.S. General 
Accounting Office, familiarly known around here as the GAO. It 
is also known by a few other names occasionally, particularly 
by administration officials. For the past several years, she 
has directed GAO's review of surface transportation issues.
    Next, we have Ms. Anne Canby, the President of the Surface 
Transportation Policy Project. Until recently, Ms. Canby was 
Secretary of the Delaware Department of Transportation. 
Previously, she has served as Deputy Assistant Secretary at the 
U.S. Department of Transportation and as Commissioner of the 
New Jersey Department of Transportation.
    And last, but certainly not least, Dr. Michael D. Meyer is 
a professor in the School of Civil and Environmental 
Engineering at the Georgia Institute of Technology. He conducts 
research on economic, demographic, and social trends that 
affect the Nation's transportation system. Previously, he was 
Director of Transportation, Planning and Development for the 
State of Massachusetts.
    As our witnesses know, spoken testimony is limited to five 
minutes each, and so we encourage you to condense your written 
testimony to five minutes oral testimony after which the 
Members of the Committee will also each have five minutes to 
ask questions. We will start with Mr. Frankel. Would you turn 
on your microphone, please?

   STATEMENT OF MR. EMIL H. FRANKEL, ASSISTANT SECRETARY FOR 
    TRANSPORTATION POLICY, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Frankel. Mr. Chairman, Members of the Subcommittee, 
thank you for the opportunity to testify today on the important 
contributions of the U.S. Department of Transportation as you 
consider the role of research, technology, and education in 
surface transportation reauthorization legislation.
    I have submitted a longer, more detailed written statement 
and ask that that be made part of the record of this hearing. 
And I might also say that I am looking forward to not only 
talking, but particularly listening to the questions and 
comments of Members of this subcommittee and my colleagues on 
this panel, many of whom are personal friends, I might say, but 
also known to me by reputation. And I am sure I will learn as 
much--learn probably more than I will contribute to this 
hearing.
    As you know, Secretary Mineta has called for a safer, 
simpler, smarter transportation system, and the development of 
new technologies is critical to achieving such a system. The 
successful development and implementation of appropriate 
technologies is key to alleviating many of the problems facing 
transportation. The Department of Transportation will partner 
with other government agencies, the private sector, and 
academia to enhance the process of transportation innovation 
and facilitate the speedy adoption of new technologies and new 
approaches.
    DOT supports research in all areas of transportation in 
order to first improve the operational mission of the 
Department and our public sector partners, in particular, state 
and local governments and transit agencies who are DOT grant 
recipients; second, support our regulatory activities and 
policy agenda; and third, assume some of the risks of 
innovation and galvanize our stakeholders to adopt those 
innovations that appear to be successful, appropriate, and 
productive. Most of our research agenda is relatively near-term 
as we seek immediate solutions to the serious problems we face 
in safety, congestion, and the environment. Nonetheless, it is 
important that we use some of today's scarce resources to 
search for long-term solutions.
    The Department has made considerable progress under ISTEA 
and TEA-21 in many areas, including Intelligent Transportation 
Systems, or ITS, pavement improvement, and safety related 
behavioral research, to name just a few. We will build upon the 
success of these programs and extend the concept of ``smart 
transportation'' to the entire surface transportation sector.
    The Administration's surface transportation reauthorization 
proposal is still being refined in the Executive Branch Review 
process. It is in the last stages, I hope, of the clearance 
process. And we look forward to presenting our specific 
reauthorization proposal to you very soon.
    In the meantime, President Bush's fiscal year 2004 budget 
provides the foundation for our reauthorization proposal and 
signals the importance placed on research, technology and 
education programs by the President and by Secretary Mineta. 
Total research, development, and technology funds for DOT's 
surface transportation modes totaled approximately 3/4 of a 
billion dollars annually. This budget represents a strong 
commitment to excellent and adequately funded research and 
technology programs.
    I would like to briefly summarize some of the highlights of 
what the Department has proposed for fiscal year 2004. The 
Federal Highway Administration fiscal year 2004 budget requests 
a substantial increase in funding for research. The Surface 
Transportation Research Development and Deployment Program 
asked for just under $200 million compared to the $153 million 
appropriated by Congress in fiscal year 2003 and $121 million 
for the ITS program research compared to $110 million in fiscal 
year 2003.
    The National Highway Traffic Safety Administration, NHTSA's 
fiscal year 2004 budget requests for its Highway Safety 
Research and Development Program is $88.5 million, about a 23 
percent increase over the $72 million authorized for each of 
the fiscal years 1998 to 2003.
    Federal Motor Carrier Safety Administration has requested 
$7 million for fiscal year 2004 and FTA, the Transit 
Administration, proposes nearly $50 million to carry out 
research and technology programs compared to a 2003 request 
that was over $60 million.
    Finally, the Research and Special Programs Administration, 
RSPA's fiscal year 2004 budget request includes $32.5 million 
for the multi-modaled University Transportation Centers program 
with which I know you are familiar and $1 million in fiscal 
year 2004 to support work on developing technology for 
commercially viable hydrogen-powered transportation, or I 
should say DOT's role in regard to that.
    The Department has made continual progress in research, 
management, and coordination that we know is of interest to 
this committee. It is critical that each operating 
administration conduct the research needed to support their 
individual missions. However, we have made progress, we 
believe, in coordinating these research efforts across the 
Department and in developing strategic direction for Department 
research. The ITS Joint Programs Office is a prime example of 
the many important Department-wide coordinating committees and 
collaboration for particular types of research. The Human 
Factors Coordinating Committee is another such example.
    The Department-wide Research and Technology Coordinating 
Council shares information, facilitates joint research, reduces 
duplication, and serves as a form for sharing results. The RTCC 
leads the preparation of the DOT Research, Development, and 
Technology Strategic Plan that is based upon DOT's Strategic 
Plan and annual performance plans. The fiscal year 2003 
Research, Development, and Technology Strategic Plan, which was 
approved by Secretary Mineta in September 2002, reflects 
President Bush's goal of managing for results. Finally, in 
response to Secretary Mineta's determination to add strength, 
focus, and scope to the Department's policy-making capability, 
Congress authorized a new position, that of Undersecretary for 
Policy. The President nominated Jeffrey Shane for this 
position. He was sworn in to that position at the end of March. 
Improvements in both organization and process will result in an 
even stronger and more relevant program of research, 
technology, and education across the Department.
    The President's 2004 budget shows that the Administration's 
commitment to the resources needed for research, technology, 
and education will be sought.
    Mr. Chairman, this concludes my statement, and I will be 
pleased, at the conclusion of remarks by my colleagues on this 
panel, to answer any questions of you or your colleagues.
    [The prepared statement of Mr. Frankel follows:]

                 Prepared Statement of Emil H. Frankel

INTRODUCTION AND BACKGROUND

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify today on the important contributions of the U.S. 
Department of Transportation (DOT) as you consider the role of 
research, technology and education in surface transportation 
reauthorization legislation.
    Secretary Mineta has called for a safer, simpler, smarter 
transportation system. The development of new technologies is important 
to achieving such a system. The successful development and 
implementation of appropriate technologies is key to alleviating many 
of the problems facing society. The challenges of continued travel 
growth, greater accessibility, and enhanced safety may be best met by 
the proper use of new and emerging technologies.
    The invention of a new device or a new way of operating is, we 
know, only a part of the task of developing new technologies. Too 
often, the hardest challenge is finding a way to encourage those 
changes to be adopted by users and operators of the system. 
Accordingly, we need to find ways to move technologies into the 
transportation system faster and encourage our stakeholders to accept 
new approaches to doing business. The Department of Transportation will 
partner with other government agencies, the private sector, and 
academia to enhance the process of transportation innovation and 
facilitate the speedy adoption of new technologies and new approaches.
    A major portion of DOT's research agenda is to improve the 
operational mission of the Department and that of our public-sector 
partners--in particular, State and local governments and transit 
agencies who are DOT grant recipients. Other elements of DOT research 
are support our regulatory activities and policy agenda. Finally, some 
DOT-supported research is intended to assume some of the risks of 
innovation and to stimulate all our stakeholders--public and private--
to adopt those innovations that appear to be successful, appropriate, 
and productive. In short, DOT's role in conducting research to address 
national problems stems from our stewardship role in using national 
resources wisely.
    Most of our research agenda is relatively near-term. The pressing 
needs we currently face in safety, congestion and the environment are 
so important that we have to support immediate change. Nonetheless, we 
are mindful that our future ability to make short-term improvements 
depends on our willingness to commit some of today's scarce resources 
to the search for long-term solutions. Accordingly, while we are not 
principally a ``science'' agency, our organic legislation requires the 
Secretary of Transportation to ``promote and undertake research and 
development related to transportation.'' We are mindful of the 
importance of ensuring that the process of innovation will continue, by 
providing support for some level of longer-term and basic research.

PAST SUCCESSES AND FUTURE VISION

    The Department has already made considerable progress under the 
Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA) and 
the Transportation Equity Act for the 21st Century (TEA-21) in changing 
highway and public transit operations. Under TEA-21, the Department of 
Transportation has made strides in research, including development and 
deployment of Intelligent Transportation Systems (ITS), pavement 
improvement, congestion reduction, seismic hardening of highway 
infrastructure elements, strengthening of bridges, and new tunnel 
technology. The Highway Safety Research and Development program is the 
scientific underpinning for the Department's national leadership in 
highway safety programs, and includes behavioral research to reduce 
traffic deaths and injuries, crash avoidance research, roadway design 
and operational improvements, and vehicle safety performance standards. 
Rail-related research and development has focused on the next 
generation of high-speed rail equipment and train control, and 
innovative technologies to mitigate grade crossing hazards. We will 
build upon the success of these programs and extend the concept of 
``smart transportation'' to the entire surface transportation sector.
    The Administration's surface transportation reauthorization 
proposal is still being refined and finalized in the Executive Branch 
Review process We look forward to presenting our specific 
reauthorization proposal to you as soon as possible.
    In the meantime, President Bush's Fiscal Year (FY) 2004 budget 
provides the budgetary foundation for our reauthorization proposal and 
signals the importance placed on RT&E by the President and the 
Secretary. Total research, development and technology funds for DOT's 
surface transportation modes totaled approximately three-quarters of a 
billion dollars. Although I cannot discuss the details of our six-year 
proposal, I would like to present to you some of initiatives projected 
for FY2004.

FEDERAL HIGHWAY ADMINISTRATION (FHWA)

    The FY2004 budget requests substantial increases in funding for 
research, and especially for the Surface Transportation Research 
Development and Deployment Program managed by the FHWA. The President 
asked for $199 million for this program, approximately 30 percent above 
the FY2003 appropriated amount of $153 million for the program. These 
resources will permit FHWA undertake its traditional programs such as 
structures, pavements, and safety, as well as emerging priorities and 
programs in policy, operations, asset management and environment and 
planning.
    FHWA's role in conducting research is to find ways to meet our 
highway responsibilities to the public by efficiently delivering the 
very best in safe, secure, operationally efficient and technically 
advanced highway facilities, while meeting our environmental 
responsibilities. FHWA's research program is focused on the following 
priority areas: safety; infrastructure; planning, environment and 
realty services; transportation system management and operations; 
freight; policy; security; and training and education. In FY '03 FHWA 
spent $500,000 as a part of the multi-modal DOT effort on climate 
change research, emphasizing the impacts of climate change on the 
transportation system.
    FHWA also provides leadership for the intelligent transportations 
systems (ITS) research and technology program. TEA-21 authorized a 
total of $603 million for ITS research for FY1998 to 2003, and 
significant progress has been made in applying this technology to our 
surface transportation system. TEA-21 called for development of a 
national ITS architecture to plan for regionally and nationally 
compatible deployments of ITS and, currently, 200 architecture 
development efforts are underway or completed. TEA-21 also called for 
the accelerated development of national ITS standards and, in the last 
four years, 51 standards have been approved and published. The TEA-21 
authorization for FY2003 for ITS Research was $110 million. The 
President's FY2004 Budget requests $121 million for this program. ITS 
research will place more emphasis on providing a stimulus to innovation 
and emphasizing initiatives with high payoff potential to users of the 
transportation system.
    Improved operation of surface transportation systems will be a 
focus in reauthorization. ITS will have a major role in accomplishing 
this objective. The Department will foster a greater use of 
technologies that provide more relevant and real-time information to 
the traveling public. To address the issues of congestion, security, 
and emergency response, the Department not only has to complete the 
deployment of ITS infrastructure in metropolitan areas, but also needs 
to develop new partnerships with the public safety community and focus 
on managing the system for better reliability.

NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION (NHTSA)

    The National Highway Traffic Safety Administration's FY2004 budget 
request for its Section 403 program--which is the NHTSA Highway Safety 
Research and Development Program--is $88,452,000--about a 23 percent 
increase over the $72,000,000 authorized for Section 403 for each of 
the fiscal years 1998-2003.
    A major priority will be behavioral research safety initiatives for 
increasing safety belt use and deterring impaired driving, which are 
the two most urgent requirements needed to reduce death and injury. 
Past research carried out under ISTEA and TEA-21 provided the basis for 
innovative intervention strategies for use nationwide. Currently, NHTSA 
will focus on special populations most at risk to determine appropriate 
countermeasures. In addition, NHTSA will examine methods for 
integrating high-visibility traffic law enforcement into the daily 
routine of State and community enforcement agencies.
    NHTSA has a lead role in the Department-wide Intelligent 
Transportation Systems (ITS) program's Intelligent Vehicle Initiative. 
Through this effort, which is funded through FHWA's ITS Joint Program 
Office, NHTSA is working closely with vehicle manufacturers to advance 
the availability of crash avoidance technologies on vehicles. These 
technologies are designed to assist drivers under hazardous situations 
and to help them avoid impending crashes. In addition, NHTSA is engaged 
in other joint efforts with other DOT operating administrations. 
Especially noteworthy are cooperative efforts with FHWA's safety office 
in the areas of speed, pedestrian safety, and crash data systems, and 
with the Federal Motor Carrier Safety Administration's (FMCSA) 
Commercial Vehicle Analysis Reporting System (CVARS) and its commercial 
vehicle safety enforcement program.
    Other NHTSA research in FY2004 will focus on areas such as Impaired 
Driving; Occupant Protection; Pedestrian Safety, Bicycle and Motorcycle 
Safety; Enforcement and Justice Services; Emergency Medical Services 
(EMS); Highway Safety Research; Traffic Records, Driver Licensing & 
Driver Education; the National Driver Register, Data Analysis Programs; 
State Data Programs; and Motor Vehicle Crash Causation Survey (MVCCS).
    On the last area, the Motor Vehicle Crash Causation Survey is a new 
survey that will collect up-to-date, real-world crash causation data to 
identify and understand motor vehicle crash factors that are integral 
to developing and evaluating crash-preventing countermeasures. The 
survey, which will update 25-year-old data to identify and understand 
events that lead to motor vehicle crashes. This knowledge is vital to 
the development and evaluation of crash prevention countermeasures.

FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION (FMCSA)

    FMCSA has a relatively new research program which, in FY2004, will 
support work in driver safety performance; commercial vehicle safety 
performance; carrier compliance and safety; safety systems and 
technology; cross-cutting safety initiatives; and security. The 
Research & Technology FY '04 Budget Request is $7,000,000--virtually 
the same as received in FY '03.
    In addition to these efforts to improve commercial vehicle safety 
using the knowledge from research and deployment of new technology, 
FMCSA has a multi-faceted education and outreach program. This includes 
traditional program and skills training for our State partners and 
local police on the mechanics of commercial vehicle enforcement such as 
inspections, data collection, safety enforcement, and drug 
interdiction.
    FMCSA has embarked on broader scale education efforts to improve 
commercial vehicle safety through education designed to modify human 
behavior. For example, FMCSA initiated a national ``Share the Road 
Safely'' education campaign designed to educate the public about the 
very different operating characteristics of commercial motor vehicles 
and to teach them how to avoid collisions with large trucks and buses. 
Another example is a national ``Safety is Good Business'' campaign 
designed to share information with motor carriers and operators about 
the significant cost savings and increased carrier profits that can 
result from improved safety awareness, improved maintenance practices, 
and the adoption of best practices. This program evaluates its 
effectiveness through motor carrier safety improvements, reduced costs 
of unsafe behavior, and reduced highway crashes. Finally, FMCSA is 
working very closely with the Transportation Security Administration 
and other parts of the Department of Homeland Security to ensure the 
safety and security of motor coach and truck operations.

FEDERAL TRANSIT ADMINISTRATION (FTA)

    The Federal Transit Administration partners with the transportation 
industry to undertake research, development, and education to improve 
the quality, reliability, and cost-effectiveness of transit in America 
and encourage increases in transit ridership. The President's Budget 
for Fiscal Year 2004 proposes nearly $50 million to carry out these 
research and technology programs, including $31.5 million for the 
National Research Program, $8.3 million for the Transit Cooperative 
Research Program, and $4 million for the National Transit Institute 
training programs. Their comparable FY2003 request was over 
$60,000,000.
    Other key areas for FTA will include a renewed focus on technical 
assistance to support transit agency efforts to increase ridership and 
continued efforts to help transit agencies better leverage federal 
investments in public transportation infrastructure. Additional areas 
of FTA research, technology, and education programs include joint 
partnerships with public and private research organizations, transit 
providers, and industry to promote the early deployment of innovation 
in public transportation services, management, and transit operational 
practices. FTA also supports projects to support advances in fixed 
guideway technologies, bus and bus rapid transit technologies, fuel 
cell-powered transit buses, advanced propulsion control for rail 
transit, and other types of technologies in development. Finally, 
through the Transit Cooperative Research Program (TCRP) of the 
Transportation Research Board, FTA funds research directed to local 
problem-solving in service concepts, vehicles and equipment, 
operations, human resources, maintenance, policy, and administrative 
practices.
    FTA also supports a Hydrogen and Fuel Cell Bus Initiative which is 
a broad-based, national effort to coordinate, consolidate, and 
rationalize the diverse efforts in hydrogen and fuel cell buses in 
order to accelerate its commercial viability, and to help accelerate 
the successful commercialization of hydrogen and fuel cells into other 
transportation applications. Projects include managing the development 
of a fuel cell bus propulsion system with UTC Fuel Cells, a hydrogen 
fueling station at SunLine Transit that could also support light-duty 
fuel cell vehicles, and funding for fuel cell buses FY2003 funding was 
$10.1M and their FY '04 budget request includes $25M for this program.
    FTA will also support research to improve transit readiness for 
terrorist attacks, with particular focus on security training, public 
awareness and emergency preparedness. It will continue to support 
research to test and validate transit security technologies to prevent, 
reduce the impact of, and enhance the recovery from terrorist attacks. 
FTA will also continue to leverage the resources of the intelligence 
community, security professionals, the Department of Homeland Security, 
and others to address a variety of needs identified through security 
assessments conducted over the past year.

BUREAU OF TRANSPORTATION STATISTICS (BTS)

    The Bureau of Transportation Statistics is responsible for 
developing transportation data and information of high quality and to 
advance their effective use in transportation research and policy 
formulation. It has a particular focus on multimodal and intermodal 
data and analysis. Although this is not really research it is funded 
out of Title V of TEA-21 and good research requires good data.
    The FY04 budget request of $35.5 million--$31.5 million from the 
Highway Trust Fund and $4 million from the Airport and Airways Trust 
Fund--reflects a proposal to sharpen the agency's focus on five core 
data programs and two crosscutting research programs. The data programs 
will develop useful, timely, and reliable freight, travel, economic, 
airline, and geospatial data. The research programs will develop and 
publish key indicators of national transportation system performance 
and provide long-term improvements to statistical and data collection 
methods to ensure the accuracy and usefulness of transportation data. 
Last year, BTS released TranStats which is an intermodal transportation 
database combining 100 key transportation data sets. This statistical 
resource has already been recognized with two top prizes--the 
Excellence.Gov and iForce Partner Excellence awards.
    Next year, BTS will release findings from the National Household 
Travel Survey (NHTS)--a national survey of long-distance travel--which 
is a companion to FHWA's NHTS work on short-distance travel as well as 
results from the joint BTS-Census Bureau Commodity Flow Survey.

RESEARCH AND SPECIAL PROGRAMS ADMINISTRATION (RSPA)

    Finally, the Research and Special Programs Administration has a 
number of programs that are part of the Department's Surface 
Transportation Programs. In particular, RSPA is responsible for 
managing the University Transportation Centers program, which is funded 
out of FHWA and FTA surface transportation funding accounts. The UTCs 
perform transportation research projects in support of the Department's 
strategic goals in coordination with State and local governments, the 
private sector, and non-profit partners. UTCs also use research 
projects to help train the next generation of transportation leaders, 
and conduct education and technology transfer programs, all as part of 
the Department's strategy to meet America's need for a trained, 
technology-savvy future transportation workforce. The President's FY 
'04 Budget Request includes $32,500,000 for this program compared to 
$29,559,000 enacted in FY '03.
    Another RSPA program associated with the surface transportation 
program is the Remote Sensing Applications to Transportation program, 
which it is undertaking in cooperation with the National Aeronautics 
and Space Administration (NASA). Through private-public-university 
consortia, RSPA is helping to bring the benefits of commercially 
available airborne and satellite-based remote sensing products to the 
transportation sector, and advancing the state of technology 
applications in infrastructure and asset management, intermodal traffic 
flows and operations, container security, environmental assessment and 
streamlining, and disaster assessment and emergency response.
    RSPA has been managing an advanced vehicle technologies program and 
since 1999 has spent $15 million on over 50 projects on various aspects 
of this program to improve energy efficiency and improve safety for 
medium- and heavy-duty vehicles. RSPA coordinates DOT's in the 
Department of Energy's 21st Century truck project by cataloging and 
providing information and results of DOT research projects with bearing 
on 21st Century Truck Program objectives, and by participating in 21st 
Century Truck meetings.
    RSPA has requested $1,000,000 in FY2004 to support work on the 
President's goal of reversing America's dependence on foreign oil by 
developing the technology for commercially viable hydrogen-powered 
transportation. While the U.S. Department of Energy has a clear 
leadership role in implementing the President's new hydrogen fuel 
initiative, RSPA will address important hydrogen-related transportation 
and refining infrastructure.

CONCLUSION

    The President's FY2004 Budget represents a strong commitment to 
excellent and adequately funded research and technology programs. 
Moreover, under ISTEA and TEA-21, the Department has made continual 
progress in research management and coordination that we know is of 
interest to this committee. We have made significant progress in 
coordinating the various research efforts across the Department and in 
developing a strategic direction for the Department's research. The ITS 
Joint Program Office is a prime example of the many important 
Department-wide coordinating committees and collaboration for 
particular types of research. Other examples include a human factors 
committee that shares information and results and, in many cases, 
coordinates joint research. Another area of collaboration across the 
Department is in environmental research.
    In addition, the research, technology, and education undertaken by 
the Department are now being driven by our Strategic Plan and our 
annual Performance Plans. The coordination of research within DOT is 
accomplished by cooperation and consultation. The actual conduct of DOT 
research is undertaken by each operating administration in order to 
maintain its close applicability and relevancy to their programs. A 
Department-wide Research and Technology Coordinating Council (RTCC) 
provides a mechanism for sharing information on agency research 
programs, facilitates joint research activities, and provides the 
opportunity to share research results. The RTCC also leads the 
preparation of the DOT RD&T Strategic Plan, which identifies research 
priorities and shows the relationship between research initiatives and 
the Department's Strategic Goals and Performance Goals. The FY2003 RD&T 
Strategic Plan was approved by Secretary Mineta on September 16, 2002. 
This is helping to make the RT&E program more supportive of President 
Bush's desire to manage for results.
    Finally, in response to Secretary Mineta's determination to add 
strength, focus, and intermodal scope to the Department's policy-making 
capability, the Congress late last year authorized the new position of 
Under Secretary of Transportation for Policy. It is Secretary Mineta's 
intention that this new position should serve as a more effective focal 
point for the coordination and harmonization of the policy and research 
activities of the different operating administrations and the Office of 
the Secretary itself. The President's nominee for the new position, 
Jeff Shane, was sworn in at the end of March. We are just now in the 
process of reorganizing the Department's policy function in keeping 
with Secretary Mineta's vision. Improvements in both organization and 
process will result in an even stronger and more relevant program of 
research, technology and education.
    The President's FY04 Budget that you have already seen shows the 
commitment to the resources needed for research, technology, and 
education. I am confident the Administration's reauthorization proposal 
will address many of the programmatic and reform measures needed for an 
effective, efficient Research, Technology, and Education Program for 
these first years of the 21st Century.
    Mr. Chairman, that concludes my statement, and I would be pleased 
to answer any questions from you or your colleagues.

    Chairman Ehlers. Thank you. And I neglected to remind all 
of you that we do have an indicator light system. When it is 
green, you go. When it is yellow, you have a minute left. When 
it is red, you are in deep trouble. So----
    Mr. Frankel. I probably went through a red light, I will 
bet.
    Chairman Ehlers. At any rate, we--those are as an aid to 
you, and so we would appreciate if you would pay attention to 
those. Mr. Harm.

STATEMENT OF MR. ERIC E. HARM, P.E., DEPUTY DIRECTOR, DIVISION 
       OF HIGHWAYS, ILLINOIS DEPARTMENT OF TRANSPORTATION

    Mr. Harm. Good morning, Mr. Chairman, Members of the 
Subcommittee. As introduced earlier, I am Eric Harm, Deputy 
Director of Highways at the Illinois Department of 
Transportation. Since 1985, I have overseen the Department's 
research program in various capacities.
    Illinois, as with other states in the Nation, face enormous 
transportation research challenges. In the very near future, we 
have to figure out how to move more freight and more people on 
aging facilities that are already near or at capacity. We have 
to consider environmental, social, and economic impacts as 
well, and we have to do this while, at the same time, 
continuing to reduce accidents and save lives. Only with a 
strong federal transportation research program can we 
accomplish this.
    Illinois DOT expends over $6.5 million annually on 
research-related activities. The expenditures that we do are 
focused on definable problems where solutions can be identified 
in a short period of time, and I am sure other states are 
similar. Illinois' research has accomplished, through in-house 
staff, about 30 percent, universities, 60 percent, and private 
sector, about 10 percent. This mix keeps in-house staff 
expertise high, allows for access to university knowledge and 
expertise, gives students real world experience, and these 
students are probably our future transportation professionals 
and allows for the important private sector perspective on 
addressing our problems.
    The states look to and expect a federal research program 
that is broad, fundamental, high-risk/high-payoff research that 
addresses the transportation issues we will have facing us five 
to 10 to 20 years from now. I compliment the Federal Highway 
Administration, FHWA, for changing its internal culture and now 
being more active in seeking stakeholder input into its 
research activities, but there is still room for improvement at 
the strategic program and individual project levels.
    FHWA research has been productive in recent years. Some 
recent examples where FHWA research was used by Illinois are: 
one, to improve smoothness of our newly constructed and 
rehabilitated pavements and bridges; to prevent a bridge 
collapse similar to what occurred on the Hoan Bridge in 
Wisconsin; to examine impacts of alternative traffic control 
strategies to minimize traffic delays to the public; and to 
change material and construction procedures resulting in longer 
lasting bridges.
    Illinois has been using innovative technology and computers 
to move and direct traffic more efficiently, which is often 
referred to as Intelligent Transportation Systems, or ITS, for 
over 40 years in the Chicago area. This effort started out as a 
research project. Today, this system is recognized as one of 
the premier systems in the country, and we continue to enhance 
it through the findings from State and Federal ITS research 
projects. Also in the area of Intelligent Transportation 
Systems, the federal funding leadership and facilitation of all 
of the stakeholders involved has been vital to the recent 
successes at all levels of ITS projects in Illinois, both at 
the local, regional, and state level.
    But what is left to be done in transportation research? The 
use of our systems and modes of transportation is increasing 
rapidly. To address this increased use of systems, solutions 
have to be identified. Building more facilities is only one 
part of that solution. We also need to find innovative ways to 
move goods and people through the existing facilities we have. 
We need to find ways to include land use, urban sprawl, the 
environmental, and the economic development issues in 
appropriate manners.
    The interaction between the various modes has to be 
improved. For example, rail freight traffic is increasing. That 
freight is ultimately moved by trucks to and from trains on our 
highway systems, so that intermodalness has to be addressed. 
These are only a few examples, but only with research and new 
approaches can we accommodate this phenomenal growth in the use 
of our systems.
    Illinois supports the need for increased research funding 
at all levels and all modes, but the transportation is outlined 
in the research recommendations set forth in AASHTO's TEA-21 
reauthorization policies for the various federal research 
programs. And we do have a document I would like to submit for 
the record from AASHTO.
    [See Appendix 2: Additional Material for the Record for the 
information referred to.]
    Mr. Harm. The role of the Federal Government in conducting 
transportation research should be of one, preserving and 
enhancing all modes of transportation research, accelerating 
the demonstration of new technology, facilitating all 
stakeholders in developing coordinated research strategies, 
providing stable and adequate funding levels.
    In closing, the federal transportation research in the past 
has helped transportation professionals find solutions. And all 
levels in research will be vital to help the problems of today 
and the future. A strong federal transportation research 
program based on input by all stakeholders is necessary, and 
such a program must be funded at appropriate and stable levels 
to support high-risk/high-payoff research.
    Thank you for the opportunity to testify today on this 
important issue.
    [The prepared statement of Mr. Harm follows:]

                   Prepared Statement of Eric E. Harm

    Mr. Chairman, Mr. Ranking Member and Members of the Subcommittee, I 
appreciate the opportunity to speak before you concerning the research 
priorities for the reauthorization of the Transportation Equity Act for 
the 21st Century (TEA-21). I am representing the Illinois Department of 
Transportation (IDOT) where I am the Deputy Director of Highways 
responsible for materials, construction, local agencies, and research 
functions on a statewide basis. I am currently a member of the American 
Association of State Highway and Transportation Officials (AASHTO) 
Standing Committee on Research and recently was the Vice Chair of 
AASHTO's Research Advisory Committee.
    My testimony will address IDOT's research programs, what role the 
Federal Government, especially the Federal Highway Administration 
(FHWA) should have in conducting transportation research, and what gaps 
exist in the Nation's current transportation research agenda.
    I would like to preface my remarks by emphasizing that 
transportation research is vital to the state of Illinois at the local, 
regional, state and national levels. Illinois is the transportation hub 
of the Nation. Given its central geographic location in the United 
States and historical prominence in agriculture, manufacturing, and 
commerce Illinois has developed an extensive and intensively used 
system of transportation and transportation services. There are over 
288,000 lane miles of public highway in Illinois that carries over 102 
million vehicles miles of travel annually. Overall, Illinois ranks 
third in total highway center line miles, third in total lane miles, 
seventh in vehicles miles of travel, and fifth in total population. 
IDOT provides technical assistance and administers state and federal 
funding to 50 public transit systems with 5,700 transit vehicles 
serving approximately 600 million passengers a year which includes the 
second largest public transit system in the Nation. With its 7,300 
track-mile network, Illinois also has the second largest rail freight 
transportation system in the Nation. In addition, Amtrak provides 50 
passenger trains per weekday serving 3.6 million passengers a year. 
Finally, Illinois' air transportation system, the second largest in the 
Nation, is comprised of 120 public-use airports, including Chicago's 
O'Hare International Airport, one of the world's busiest airports.
    IDOT expends over $6.5 million annually on research-related items. 
Illinois rarely performs fundamental research studies due to the higher 
risks involved and the lack of usable solutions within a reasonable 
time or budget. This means research activities are directed toward 
definable problems with solutions that can be applied with ``off-the-
shelf'' technology or by means of limited development of new technology 
in a short period of time. Such solutions reduce cost, improve 
durability, reduce maintenance, reduce congestion, increase efficiency, 
extend the life, or improve safety of our transportation 
infrastructure. Currently the department's research budget is expended 
as follows:

        Bridges:        27%

        Pavement:      25%

        Materials:      12%

        Environment:    2%

        Safety:          7%

        Traffic:         23%

        Transit:         4%

    Illinois accomplishes this research through a strong in-house 
component of research (30 percent) along with university research (60 
percent) based on funding grants. A limited amount of work is performed 
by the private sector (0 percent). It should be noted the in-house 
percentage represents only formal research activities. Due to the 
nature of engineering work and the challenges presented, a great deal 
of informal research is performed throughout the department in order to 
develop new and unique solutions to problems. For example, Illinois 
often takes research findings by others such as National Cooperative 
Highway Research Program (NCHRP), FHWA, fellow states, and/or 
international sources and applies them to problems within Illinois. 
This is the all important aspect of research called implementation.
    Illinois has a long-standing cooperative research relationship with 
the University of Illinois to conduct highway-related research studies. 
In 1991, the department expanded our relationship with 11 Illinois 
public and private universities to support research in all modes of 
transportation. All entities involved benefit greatly from this 
cooperative relationship. The department benefits by gaining access to 
Master's and Ph.D. level expertise, the professors guiding the research 
gain expertise in real work issues, and the students and the 
transportation field gain by providing education and research 
opportunities to future transportation professionals. This relationship 
is important in the preparation of the student in the transportation 
field. These benefits can be multiplied over 50 times when you include 
all the other states and Federal Government research programs that 
utilize universities and colleges.
    Over 15 years ago, when I first was involved with the FHWA research 
program as the department's research manager, Illinois and other states 
had very little input into the direction and the selection of FHWA 
research work. Today, the situation has changed. The FHWA is 
proactively seeking out stakeholder input into what the research needs 
are from a national perspective. I compliment FHWA for moving in this 
direction, but there is still room for improvement in providing more 
stakeholder involvement in setting priorities and resource allocation. 
This involvement should be at the strategic, program, and individual 
project levels.
    The FHWA program should be one of broad, fundamental, high risk/
high payoff research that will address the transportation issues that 
we will face five to ten to 20 years in the future. To be successful, 
funding commitment levels must be sustainable and must deliver the high 
risk/high payoffs we all expect. The federal transportation research 
program should be one that has the ability at the national level to 
facilitate bringing the stakeholders together and develop the needed 
long-range high risk/high payoff research agendas.
    Research is not effective unless the results are used. The 
implementation and benefits of any research project or program can be 
measured in many ways. Implementing research findings occurs by 
specification changes, policy changes, use of new or different 
materials and/or construction techniques, and new equipment and/or 
technology. Some recent examples of FHWA research results used by 
Illinois are:

        <bullet> To improve the smoothness of our newly constructed 
        and rehabilitated pavements and bridges.

        <bullet> To prevent a bridge collapse similar to what occurred 
        on the Hoan Bridge in Wisconsin.

        <bullet> To examine impacts of alternative traffic control 
        strategies to minimize traffic delays.

        <bullet> To change material and construction procedures 
        resulting in longer lasting bridges.

        <bullet> To develop a temporary concrete traffic barrier 
        without having to perform expensive crash testing.

        <bullet> To develop designs for innovative roundabout 
        intersections.

    Illinois has been using innovation technology and computers to move 
and direct traffic more efficiently, which is referred to as 
Intelligent Transportation Systems or ITS, for over 40 years in the 
Chicago area. This effort started out as a research project. This 
system has evolved into what is now referred to as one of the premier 
systems in the world. More recently, the Gateway Traveler Information 
System, named the top traveler information Web site in the country by 
USDOT in 2002, resulted from implementing the results of state and 
federal funded research demonstration projects conducted in the 1990s. 
This system takes real time travel information from multiple agencies 
and sources and processes it into useful information for travelers and 
agency operational uses.
    Throughout Illinois, we are using the National ITS Architecture 
championed and funded by the Federal Government to develop statewide, 
regional, and project specific specifications. This has enabled us to 
develop and implement non-proprietary protocols resulting in 
competitively priced, inter-operative system components which we can 
maintain cost-effectively. Without the federal funding, leadership, and 
facilitation, this could not have occurred.
    While past research efforts have helped this nation achieve the 
great transportation infrastructure it has today, many issues remain. 
Many facilities are at or near capacity. We need to find new ways to 
move more goods and people through existing facilities. We have to 
address the intermodal movement of freight and its impacts on 
congestion. The issues of land use, urban sprawl, the environment, and 
movement of goods and people are more intertwined and complex than ever 
before. We have to expand the disciplines used to address these issues 
from the traditional civil engineering discipline. Disciplines such as 
human factors, land use, business and economic issues, and information 
management. As we expand into these other disciplines, the research 
areas and needs expand as well.
    Noise from our facilities is an example of a definite gap in 
knowledge that multidisciplined research can help. Noise not just from 
the use of our facilities, but also when we maintain, rehabilitate and/
or reconstruct our facilities. There is very little knowledge on how to 
measure, what is measured, what is acceptable versus preferable levels 
of noise, how to reduce or eliminate noise. The answers to these 
questions will come from an interdisciplinary approach of human 
factors, acoustical engineering, mechanical engineering, land use and 
zoning issues, and traditional civil engineering.
    While expanding more into the multidisciplined research efforts, 
the more traditional research into asphalt, concrete and steel 
discipline cannot be forgotten. Continued research into these areas is 
needed to find more cost-effective designs, longer lasting facilities, 
and new materials that have not yet been invented.
    There is room to expand transportation research. Currently only one 
half of one percent of highway expenditures (Federal, State, and local) 
is directed towards research whereas in other industries such as 
medical devices and computers it is 5-7 percent. Each state, as well as 
AASHTO, has research needs far greater than funding allows. The need 
for increased research has been identified by AASHTO during their 
review of the issues involved with reauthorization. In all aspects of 
current transportation research, AASHTO recommends sustaining or 
enhancing existing research programs in both funding levels and 
stakeholder input. Illinois supports the research funding 
recommendations being set forth by AASHTO in its TEA-21 Reauthorization 
Policies.
    Future federal transportation research has to be one of sufficient 
levels that is stable to support the high risk/high payoff fundamental 
research that address the transportation issues this nation faces in 
five to ten to twenty years from now. The federal role in this expanded 
transportation research program should be:

        <bullet> To preserve and enhance research in all modes of 
        transportation.

        <bullet> To accelerate application of new technology.

        <bullet> To facilitate all stakeholder involvement for 
        strategic, program and individual projects.

        <bullet> To provide appropriate and stable resource 
        allocations.

    These items have to be accomplished at the federal level. Among the 
states and regions many of our problems are common and they should be 
attacked with national programs.
    In closing, federal transportation research in the past has helped 
transportation professionals find solutions. Research will be vital to 
help face the problems of today and the future. A strong federal 
transportation research program based on input by all stakeholders is 
necessary and the program must be funded at appropriate and stable 
levels to support high risk/high payoff research.
    Thank you for the opportunity to testify on this important issue.

    Chairman Ehlers. Thank you. Dr. Walton.

    STATEMENT OF DR. C. MICHAEL WALTON, ERNEST H. COCKRELL 
CENTENNIAL CHAIR, UNIVERSITY OF TEXAS AT AUSTIN, DEPARTMENT OF 
                       CIVIL ENGINEERING

    Dr. Walton. Good morning, Mr. Chairman, Members of the 
Subcommittee. I appreciate the opportunity to be here to 
discuss the national transportation research enterprise with 
you. As indicated, my name is Michael Walton. I am a faculty 
member at the University of Texas at Austin in Engineering and 
Public Affairs. In addition, I should mention that I have the 
honor of serving as Chairman of the Board of ITS of America, a 
regional Vice President with ARTBA, American Road and 
Transportation Builders Association, and a member of the 
National Transportation Policy Committee of the American 
Society of Civil Engineers in addition to the comments that the 
Chairman made as well with TRB. However, my testimony is my own 
and not that of any of the above affiliations.
    My written testimony addresses five specific issues that 
you requested: the future of the Strategic Highway Research 
Program, F-SHRP; advanced research; stakeholder involvement; 
ITS; performance measures for research. And I will limit my 
remarks to selected aspects of each.
    With respect to F-SHRP, the program is designed to be a 
special-purpose, time-constrained research program that 
complements other transportation research and technology 
programs and focuses on four strategic areas: renewal, which is 
accelerating the renewal of American highways, that is get in, 
get out, and stay out; safety, making a significant improvement 
in highway safety; reliability, providing a highway system with 
reliable travel times; capacity, providing highway capacity in 
support of the Nation's economic and environmental and social 
goals. The funding level for this program is recommended at $75 
million per year over the six-year period, assuming a six-year 
bill, and a recommended funding mechanism was the same that was 
used in the previous SHRP program in the 1980's and 1990's. 
There is an allocation process that was recommended for each of 
the four thrust areas, however, there is an AASHTO committee 
that is underway at this particular time coming up with a 
detailed work program for each of those elements, and they, 
indeed, alter the recommended allocation.
    Next, the advanced research topic, also referred to as 
exploratory, long-term, enabling or high-risk/high-payoff 
research, uses the results of basic or fundamental research 
often carried out in support of non-highway fields to better 
understand the highway problems and to spark more innovative 
solutions to these particular problems. The results of advanced 
research typically take several years to reach an implementable 
stage, and usually require additional applied research and 
development after that stage to make it effective in 
implementation.
    Among several areas of which the--my committee, which as 
the Research and Technology Committee recommended, was that 
FHWA's program continue to focus on advanced research in 
particular and become a stronger part of their program. And 
indeed, there is a priority to do so, I believe.
    Stakeholder involvement. Stakeholder involvement is another 
aspect of FHWA's need to be responsive to influence by major 
stakeholders. As was mentioned before, they have an active 
program underway making substantial progress. We believe there 
is opportunity for continued improvement.
    In the ITS arena, in the implementation, while the ITS 
evaluation program, consisting of operational tests, self-
evaluations, and national evaluations has been largely 
successful, one way to improve the evaluation process is to 
reform the mechanism for distributing ITS deployment funds. And 
I will speak to that in my summary.
    Given the significant investment in intelligent vehicle 
research, some have asked why these technologies have not been 
transferred more quickly to the marketplace. There are too 
many--there are two primary reasons for this: cost and 
liability issues. What is recommended, perhaps, is that we take 
this head-on and suggest that we conduct a study that would, 
indeed, deal with the non-technical barriers, which suggest 
remedies to the liability concerns. Meanwhile, though, the 
ongoing federal research and operational tests should continue 
in parallel.
    In summary, there are many entities at the national level 
that conduct federally funded transportation research with 
little coordination. To ensure that we meet national goals and 
to ensure that we are getting our money's worth for federal 
investments, we should take steps to maximize coordination and 
collaboration among each of the independent research programs. 
Therefore, I recommend that Congress consider the creation of a 
national strategic plan for highway and for transportation 
research and development. And my--this is expanded in my 
written testimony. The strategic plan would also be used by 
Congress to ensure that federally appropriated monies for 
transportation R&D issues to effectively and efficiently and in 
furtherance of national goals, and I would strongly recommend 
your consideration.
    Again, I would like to thank you for this opportunity to 
address future needs of our transportation system and look 
forward to discussion. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Walton follows:]

                Prepared Statement of C. Michael Walton

Introduction

    Good morning. Mr. Chairman and Members of the Subcommittee, I 
appreciate this opportunity to discuss future transportation research 
needs with you. My name is Michael Walton; I am the Ernest H. Cockrell 
Centennial Chair in Engineering, Professor of Civil Engineering with a 
joint academic appointment in the Lyndon B. Johnson School of Public 
Affairs at the University of Texas at Austin. Currently, I also have 
the honor of serving as the Chairman of the Board of the Intelligent 
Transportation Society of America (ITSA), as the Western Region Vice 
Chairman of the American Road and Transportation Builders Association 
(ARTBA) and as a member of the National Transportation Policy Committee 
of the American Society of Civil Engineers. I also chaired the National 
Research Council (NRC) Committee for a Study for a Future Strategic 
Highway Research Program and I currently chair another NRC committee 
that performs an ongoing review of the research and technology programs 
of the Federal Highway Administration. However, my testimony is my own 
and not that of any of the above affiliations.
    I will focus my remarks on five specific issues: the Future 
Strategic Highway Research Program (F-SHRP), advanced research, 
stakeholder involvement, intelligent transportation systems, and 
performance measurement for research. Following a brief overview, I 
will go through each of these topics in turn.

Overview

    For decades, several research programs have promoted innovation in 
the Nation's highway transportation system. The Federal Highway 
Administration, state departments of transportation, and the National 
Cooperative Highway Research Program constitutes the largest of these 
programs and provide research and technology services across a wide 
spectrum of highway and transportation related disciplines. Beginning 
as part of the 1991 Intermodal Surface Transportation Act (ISTEA), and 
continuing as part of the Transportation Equity Act for the Twenty-
first Century (TEA-21), the federal Intelligent Transportation Systems 
program has directed the development and deployment of advanced 
communications and information technologies across all modes of the 
surface transportation system to address safety, security, and mobility 
needs. Another successful example is the University Transportation 
Centers program. This program is essential to developing the next 
generation of transportation researchers and professionals and is often 
a source of researcher-initiated, rather than mission-agency-initiated, 
research.
    In addition, special-purpose research programs have been developed 
to concentrate additional resources on a small number of especially 
pressing problems. The American Association of State Highway Officials 
(AASHO) Road Test in the late 1950s and 1960s developed design 
standards for the nascent interstate highway system. The first 
Strategic Highway Research Program (SHRP), in the late 1980s and early 
90s, addressed selected critical infrastructure and operations problems 
faced by state highway agencies. The proposed Future Strategic Highway 
Research Program (F-SHRP) is aimed at a set of issues facing the 
highway community at the beginning of the 21st century.

Future Strategic Highway Research Program (F-SHRP)

    The Future Strategic Highway Research Program (F-SHRP) is designed 
to be a special-purpose, time-constrained research program that 
complements, but does not replace, other transportation research and 
technology (R&T) programs by concentrating additional resources at a 
larger scale on a few strategic focus areas to accelerate solutions to 
critical problems.
    At the request of Congress, the Transportation Research Board (TRB) 
established a committee to study the need for such a program. The study 
committee conducted an extensive outreach process to identify highway 
needs and research opportunities. Stakeholders representing user 
groups, the private sector, various interest groups, and universities, 
as well as federal and local agencies and all state departments of 
transportation, participated in the outreach process. Through this 
process, the committee identified research areas where results can have 
a significant impact on highway system performance and recommended the 
establishment of a Future Strategic Highway Research Program comprising 
the following research program goals in four strategic focus areas:

        Renewal: Accelerating the Renewal of America's Highways--After 
        decades of constant use, much of the highway system is in need 
        of extensive renewal, which must often be performed while the 
        facilities remain in service. The public demands that this work 
        be done quickly, with as little social and economic disruption 
        as possible. The objective of the F-SHRP Renewal research is to 
        provide transportation agencies with integrated strategies to 
        renew aging infrastructure rapidly and with minimum disruption 
        to users. These strategies will package together optimal 
        combinations of design approaches, information technologies, 
        construction and operations methods, materials and equipment, 
        financing techniques, impact assessment, project management, 
        and public involvement. The research will also provide agencies 
        with tools to characterize renewal projects; to determine which 
        projects require special rapid, minimum disruption strategies; 
        and to decide which strategies to use for each type of project.

        Safety: Making a Significant Improvement in Highway Safety--
        Each year approximately 42,000 people are killed on the 
        Nation's highways, and three million are injured. The cost of 
        these crashes approached $182 billion in 1999. While progress 
        has been made in highway safety during the last several 
        decades, increases in vehicle-miles traveled (VMT) threaten to 
        drive up the absolute numbers of fatalities and injuries even 
        as fatality and injury rates fall. The Safety research is 
        intended to provide fundamental knowledge about major crash 
        types in order to open up a new path for safety improvements. 
        The research will focus on run-off-the-road and intersection 
        crashes, which account for more than half of all highway 
        fatalities. The major focus of the effort is on analysis of 
        driver risk-taking behavior, including how drivers respond to 
        geometric, roadside, operational, vehicular, and other 
        circumstances. The research will use advanced technologies to 
        gather pre-crash and crash data as well as exposure data.

        Reliability: Providing a Highway System with Reliable Travel 
        Times--Highway usage and congestion are growing in many areas 
        of the country. Congestion makes the highway system more 
        susceptible to unforeseen variations in travel time while users 
        have become much more sensitive to such variations. The 
        Reliability part of F-SHRP is aimed at improving the 
        reliability of highway travel times by reducing the impact of 
        events that cause travel time to vary from day to day. The 
        research will address multiple causes of this variation: 
        crashes, breakdowns, work zones, weather, special events, and 
        hazardous materials spills. It will produce strategies and 
        technologies to prevent non-recurring incidents, where 
        possible; to respond more quickly and effectively to those that 
        cannot be prevented; and to mitigate their impacts on mobility 
        and safety.

        Capacity: Providing Highway Capacity in Support of the 
        Nation's Economic, Environmental, and Social Goals--Given 
        anticipated growth in population and travel and a projected 
        doubling of truck tonnage by 2020, selected additions to 
        highway capacity are warranted. However, provision of new 
        highway capacity must explicitly consider the relationships 
        between highways and the economy, communities, and the 
        environment. The objective of the Capacity portion of F-SHRP is 
        to develop tools and approaches to systematically integrate 
        environmental, economic, and community requirements into the 
        highway analysis, planning and design process. The research 
        will lead to better and faster decisions about new highway 
        capacity and will provide transportation agencies with tools to 
        deliver this capacity to communities.

    These four research focus areas address the most critical facing 
state and local transportation agencies and represent the concerns that 
are most important to highway users: safety, congestion, and livable 
communities. While existing research programs have addressed aspects of 
these problems in a piecemeal fashion, to achieve meaningful solutions 
to these problems, additional scientific and technological must be 
brought to bear in a more focused manner. Each problem area is 
multidisciplinary in nature and includes institutional and social 
science aspects, making them difficult to address in a comprehensive 
manner in existing programs, which are most effectively organized along 
disciplinary lines.
    The F-SHRP committee recommended a funding level of $75 million per 
year over a six-year period. The committee further recommended that the 
funding mechanism should be a percentage takedown from the federal-aid 
highway funds apportioned to the states. This is the same mechanism 
that was used to fund the first SHRP during the 1980s and 1990s. The 
committee's initial recommendation is that F-SHRP funding be 
distributed as follows: 25 percent for Renewal, 40 percent for Safety, 
20 percent for Reliability, and 15 percent for Capacity. A follow-up 
planning activity is currently underway, employing four technical 
panels and an oversight panel, to develop detailed research plans and 
possibly to revisit this funding distribution.
    Precisely because of the nature and criticality of these issues and 
because the state departments of transportation have indicated a 
willingness to forego construction money to fund this research program, 
the F-SHRP committee recommended that the program be administered 
independently of existing research programs. The Transportation 
Research Board's F-SHRP committee has made no recommendation as to 
program administration, other than to suggest that it be administered 
independently of existing research programs. However, the American 
Association of State Highway and Transportation Official's F-SHRP Task 
Force has recommended that the National Research Council (NRC) 
administer the F-SHRP program. This would allow F-SHRP to function with 
sufficient autonomy and would offer protection from the shifting short-
term priorities or annual funding decisions that hamper the 
effectiveness of other transportation research programs. At the same 
time, the NRC is well-equipped to manage a large-scale contract 
research program using open solicitation and merit-based selection of 
research proposals. Its institutional structure is flexible enough to 
not only involve stakeholders, but also to engage them in the actual 
governance of the program. Through its Transportation Research Board, 
the NRC it is well positioned to coordinate F-SHRP with other highway 
research programs.

Advanced Research

    Advanced research (also referred to as exploratory, long-term, 
enabling or high-risk/high-payoff research) uses the results of basic 
or fundamental research, often carried out in support of non-highway 
fields, to provide better understanding of highway problems and spark 
more innovative solutions to those problems. The results of advanced 
research typically take several years to reach an implementable stage 
and usually require additional applied research and development to get 
to this stage.
    Examples of current advanced research being pursued at the Federal 
Highway Administration (FHWA) include: a feasibility study on the use 
of nanoscale sensors to measure performance characteristics of concrete 
and other construction materials; various materials research projects, 
for example, research into the chemical and physical processes that 
cause alkali-silicate reaction (which damages concrete); investigation 
of nondestructive testing techniques, such as magnetostrictive sensing 
to locate defects in steel structures and fiber-optic sensors to 
measure strains, temperature, moisture, and other variables associated 
with the performance of bridge structures; research using advanced 
materials characterization techniques, such as heavy ion beams and 
neutron scattering, to develop better control of construction materials 
performance through better understanding of microstructures and 
chemical processes that take place at the microscopic level; a 
feasibility study on the use of neural networks to develop a warning 
system for drowsy drivers; research on advanced methods for traffic 
modeling; and application of data visualization tools to understand 
complex data sets, for example concerning pollution from individual 
vehicles.
    These are just a few examples from a very small program at FHWA, 
which it has nurtured for a number of years. However, the complexity of 
the problems we are facing in the highway field and the sense that we 
may have exhausted most of the more obvious solutions suggest that a 
greater investment is needed in pursuing more fundamental approaches. 
In addition, advanced research in transportation-related social 
science, such as travel patterns, traveler decision-making, and driver 
risk-taking behavior, should also be pursued.
    Among several areas on which my committee has recommended FHWA's 
program to focus, advanced research in particular should become a 
stronger component of FHWA's program. FHWA is identified as the home 
for this type of research for several reasons. The long-term horizon 
for applicable benefits from advanced research means that the private 
sector has little incentive to pursue high risk, advanced research. 
State DOTs are generally consumed with addressing the myriad immediate 
issues proper to agencies that own and operate complex, extensive 
transportation systems; their research funds are largely focused on 
solving short-term problems associated with their day-to-day 
operations. Advanced research can be carried out at universities and in 
federal laboratories; in fact, FHWA does carry out its advanced 
research program in partnership with universities, NSF, and other 
federal agencies. However, FHWA is the only federal agency with a 
mission that involves national-level responsibility for highways; only 
FHWA is best positioned to initiate research into application of 
advanced technologies and scientific concepts for highway needs.

Stakeholder Involvement

    My next topic, stakeholder involvement, is another issue my 
committee has addressed in the context of FHWA's research and 
technology program. The committee believes that FHWA needs to be more 
responsive to and influenced by major stakeholders in highway 
innovation.
    There are many types of stakeholders for FHWA research programs. 
There are two primary categories of external stakeholders: (1) users 
(those who directly use the results of the research), which include 
state DOTs, local governments, and the many private sector firms 
involved with delivering the transportation system; and (2) scientific 
and technical experts who conduct and review the research and who may 
come from a wide variety of fields, such as engineering, economics, 
biology, and many more.
    Involvement of users and experts at the front end of the research 
process can help focus research on top priorities and take advantage of 
scientific and technological opportunities. During conduct of the 
research, experts can review progress for scientific quality and users 
can ensure that the research remains focused on critical needs. 
Involvement of ultimate users throughout the process also increases the 
probability of successful implementation of research results once the 
research is completed.
    Historically, FHWA programs have employed some degree of 
stakeholder involvement; however, this involvement has not always been 
consistent in quality or quantity across and within programs. When 
stakeholders have been involved, it is often in an informal manner, 
perhaps only involving technical level personnel, and often did not 
employ sufficiently transparent processes so that the wider community 
could be assured that its interests were represented. FHWA has recently 
embarked on a plan to improve stakeholder involvement, through the R&T 
Partnership Forum. The Forum has brought together dozens of highway 
stakeholders to identify research needs across a wide spectrum of 
issues. Just last week, my committee sponsored a symposium that was a 
kind of follow-up to the Partnership Forum. FHWA should continue 
efforts to improve stakeholder involvement by taking an inventory of 
its current stakeholder involvement processes. Then it could analyze 
existing methods along the following lines: identification and 
representation of the relevant stakeholders, involvement at critical 
stages of the research process, consistency across program areas, 
transparency of the process, and documentation of the processes and 
outcomes of stakeholder involvement. This analysis would reveal the 
specific areas where there are gaps in the stakeholder involvement 
process; materials provided by the RTCC could be used to suggest 
possible ways to fill these gaps.
    Another approach is the use of a Federal Advisory Committee. A 
successful example of stakeholder involvement has been the coordination 
of multimodal transportation research through the ITS Joint Program 
Office of the U.S. Department of Transportation. The Joint Program 
Office ensures that ITS research, standards, architecture, and 
deployment activities have input from all modal administrations. The 
Department has also achieved unparalleled stakeholder input from the 
public, private, and academic sectors through its relationship with the 
Intelligent Transportation Society of America (ITS America). For over 
twelve years, ITS America has served as a utilized Federal Advisory 
Committee to the U.S. Department of Transportation, providing input on 
the future direction of the federal ITS program. ITS America gathered 
technical, scientific, and programmatic advice from a vast array of 
stakeholders from states, counties, cities, metropolitan planning 
organizations, non-profit institutions, universities, and companies 
from the automotive, telecommunications, information technology, and 
transportation sectors. Through this partnership with ITS America, the 
Department has received valuable stakeholder input on a multitude of 
subjects, including the ITS architecture, ITS standards, future 
research needs, and deployment priorities. This successful public-
private partnership should be seen as a model for future stakeholder 
involvement in transportation research and program delivery.
    In recent months, the Department of Transportation has terminated 
ITS America's Federal Advisory Committee status. While active, the ITS 
America Advisory Committee had served as one of the few successful 
mechanisms for gathering robust and diverse stakeholder input on future 
surface transportation research. It is my understanding that another 
form of receiving advisory guidance and stakeholder advice is being 
considered as the ITS program management is re-organized within the 
Department of Transportation.

ITS

Improving ITS Evaluations
    The enactment TEA-21 expanded the focus of the Intelligent 
Transportation Systems (ITS) program from one of research and 
operational tests to one that includes deployment. Subtitle C 
(Intelligent Transportation Systems Act of 1998) under title V of TEA-
21 required the Secretary of Transportation (Secretary) to issue 
guidelines and requirements for the evaluation of operational tests and 
deployment projects carried out under the program. These evaluations 
help the U.S. Department of Transportation to assess the efficacy of 
the federal investment in ITS and help states and local governments 
understand the relative benefits and costs of deploying ITS systems.
    Generally speaking, there are three types of evaluations for ITS 
deployments:

        1. Operational Tests--Operational tests of the intelligent 
        vehicle and intelligent infrastructure technologies are 
        designed for the collection of data to permit objective 
        evaluation of the results of the tests, derivation of cost-
        benefit information that is useful to others contemplating 
        deployment of similar systems, and the development and 
        implementation of standards. Funding for these operational 
        tests is provided directly by the ITS Joint Program Office.

        2. Self-Evaluations--Participants in the ITS Deployment 
        Program regularly conduct locally executed and funded 
        evaluations under the auspices of the project partners. These 
        self-evaluations, also identified as local evaluations, 
        incorporate certain minimum evaluation and reporting 
        requirements. Cross-cutting assessments of these local 
        evaluations are conducted by the ITS Joint Program Office.

        3. National Evaluations--National evaluations are formal, in-
        depth, independently conducted evaluations of operational tests 
        of intelligent infrastructure systems and selected projects 
        carried out under the ITS Deployment Program. These evaluations 
        supplement and expand on the activities of self-evaluations. 
        National evaluations are conducted under the auspices of U.S. 
        DOT, and are closely monitored by a designated U.S. DOT 
        representative. Projects selected for national evaluations use 
        a pooled funding mechanism. During each year authorized by TEA-
        21, two percent of the amount authorized for the ITS Deployment 
        Program is placed into a deployment evaluation fund. National 
        evaluations for selected projects are funded by this account.

    Data and results gathered from operational tests, self-evaluations, 
and national evaluations is used by the U.S. Department of 
Transportation and by state and local transportation agencies to 
analyze deployment successes and lessons learned. Information gleaned 
from these evaluations is also shared with the public, via Internet-
accessible ITS costs and benefits databases (http://
www.benefitcost.its.dot.gov/). These databases have proven to be an 
invaluable tool for implementers of ITS systems, and for communities 
making the decision whether to invest in ITS.
    While the ITS evaluation program has been largely successful, there 
is room for improvement. One way to improve the evaluation process is 
to reform the mechanism for distributing ITS deployment funds. Since 
the enactment of TEA-21, federal resources for ITS deployments have 
been applied thinly to a myriad of minor projects. This is, in part, 
attributable to the annual ``earmarking'' of the ITS Deployment 
Program, to fund multiple projects, each limited in scope. In addition 
to degrading the national focus of the ITS Deployment Program, this 
phenomenon has produced redundant and repetitive project evaluations, 
yielding overlapping and limited benefits data.
    Currently, evaluations focus on small-scale projects or 
integrations, such as the deployment of a traveler information system 
or an arterial management system in a given metropolitan area. Such 
evaluations have a limited utility. A more focused deployment program, 
one that concentrates federal resources on deploying multiple ITS 
technologies in a single locality, could yield more much more useful 
benefits data. An evaluation of such a large-scale project would help 
researchers and transportation planners to understand the potential 
synergistic impact that fully-integrated, multi-modal, ITS deployment 
could have on an area's surface transportation system. This would be a 
more prudent and efficient use of limited evaluation resources.
Toward an Integrated Network of Transportation Information
    A roadmap for this large-scale deployment already exists. ITS 
America, as part of its Ten Year Program Plan for ITS, proposed 
focusing future federal funding for the ITS program on the creation of 
a nationwide ``Integrated Network of Transportation Information.'' The 
Network would collect, analyze, and disseminate system performance 
information from a variety of sources, including highways, transit 
systems, rail lines, trucking fleets, first responders, wireless 
phones, toll tags, in-vehicle telematics services, parking systems, 
border crossings and other sources. Integrating these disparate streams 
of data into a seamless network would produce a much more accurate 
picture of what is happening on the surface transportation system at 
any given time, anywhere in the Nation.
    Data drawn from the Network could be used to dynamically operate 
the surface transportation system at peak efficiency. Transportation 
planners could archive and analyze rich veins of historical system 
performance data to plan future infrastructure investments. Drivers, 
transit riders, and other travelers would have direct access to robust 
traffic data through web-based and wireless consumer services. 
Companies could likewise tap into this network of transportation data 
to better manage their logistics, yielding unprecedented economic 
efficiencies in goods movement.
    The proposed national system would synthesize both existing 
information sources as well as integrate new sources, as they become 
available. New sources would include numerous additional real-time data 
feeds (weather, traffic, etc.) and infrastructure elements (such as 
sensors installed in the pavement) as well as public safety systems, 
moving ``probe'' vehicles (under development by the automobile 
industry), or portable devices such as wireless phones or PDAs, etc. 
The national information system would collect, catalog, and store data 
regardless of source or format, and disseminate information to system 
operators and travelers alike utilizing a uniform reporting format. 
This effort would include acceleration of the deployment of the 
Commercial Vehicle Information Systems and Networks Model Deployment 
Initiative (CVISN), thus maximizing the effectiveness of the 
information provided to state truck inspectors. Once means of gathering 
the information are established, a pilot Web-based system should be 
created to provide access to the data on the regional and national 
levels.
    In the reauthorization of TEA-21, the focus of the federal ITS 
program should be the creation of this Integrated Network of 
Transportation Information. While deployment of such a network on a 
national scale might be infeasible over the short time horizon, it 
would be quite feasible to demonstrate such a network in one or two 
regions or metropolitan areas. I would strongly urge the Congress to 
consider, as part of the reauthorization of the federal ITS program, 
concentrating available research and deployment resources on the 
creation of this network, and on its deployment on a limited, regional 
basis.
    Focusing funding from the ITS Deployment Program on these regional 
deployments of integrated networks would accomplish the following:

        1. Ensure that the ITS Deployment Program is not degraded;

        2. Demonstrate the synergistic benefits of a fully integrated 
        system for the entire surface transportation system;

        3. Focus project evaluation resources on one or two large-
        scale projects;

        4. Leverage federal investment through cooperation with 
        private sector stakeholders; and

        5. Integrate the advances in intelligent vehicle and 
        intelligent infrastructure systems.

Intelligent Vehicle Initiative and Technology Transfer
    One of the more successful elements of the current ITS research 
program has been the Intelligent Vehicle Initiative. Authorized under 
TEA-21, the Intelligent Vehicle Initiative (IVI) is a U.S. Department 
of Transportation program that aims to prevent crashes by helping 
drivers avoid hazardous mistakes. IVI exists to accelerate the 
development and commercialization of vehicle-based driver assistance 
products that will warn drivers of dangerous situations, recommend 
actions, and even assume partial control of vehicles to avoid 
collisions. The IVI is a cooperative effort between the motor vehicle 
industry, academic institutions, and four agencies of USDOT: Federal 
Highway Administration, the Federal Motor Carrier Safety 
Administration, the National Highway Traffic Safety Administration and 
the Federal Transit Administration.
    The program's goal is to dramatically reduce the 5.2 million 
injuries and the excessive and unacceptable highway-related fatalities 
experienced each year by studying the use of intelligent vehicle 
technologies such as collision warning systems, lane-departure warning 
systems, and adaptive cruise control. The IVI program coordinates 
research and operational tests of these technologies on consumer 
automobiles, transit vehicles, heavy-platform vehicles, and special 
vehicles, such as snowplows. There are eight problem areas currently 
under study by the IVI program: rear-end collision avoidance; lane 
change and merge collision avoidance; road departure collision 
avoidance; intersection collision avoidance; vision enhancement; 
vehicle stability; driver condition warning; safety impact services. 
Some of these technologies are still undergoing operational tests.
    While the federal funding for IVI research has been limited, this 
small investment has been augmented by investment from partner 
companies in the automotive industry that contribute both funding and 
technical expertise to the program. Such an innovative and cooperative 
approach to funding transportation research, not only leveraged the 
federal investment, it forges partnerships with the very automotive 
companies that will ultimately adopt and deploy these potentially life-
saving technologies. Additionally, the IVI program's pre-competitive 
research on human factors and driver workload issues is a necessary 
precursor to private sector investment in intelligent vehicle 
technologies.
    A recently announced IVI operational test illustrates the benefits 
of this cooperative, public-private approach. Eighty Michigan drivers 
will take part in a test of vehicles equipped with both forward 
collision warning and adaptive cruise control systems. (It is estimated 
that forward collision warning and adaptive cruise control systems 
could help drivers avoid or reduce the number of rear-end crashes, 
which account for about twenty-nine percent of all police-reported 
crashes). The U.S. Department of Transportation (DOT), GM and Delphi 
Automotive are all contributing funding to the $35 million project, and 
the University of Michigan Transportation Research Institute is 
managing the field test and analyzing the data. GM led the integration 
of the system and the assembly of the test vehicles. GM and Delphi 
Delco Electronics provide the technical application in adaptive cruise 
control, forward collision warning and driver interface. DOT, which is 
providing funding through a cooperative agreement, has a responsibility 
to contribute technical information and provide other support.
    This cooperative approach to the IVI program has led to a measure 
of success in advancing deployment of these technologies. It is 
estimated that 10,000 light vehicles equipped with adaptive cruise 
control (a technology transfer from the IVI program) have been sold in 
the United States, with Daimler-Chrysler, Nissan, Ford, and Toyota each 
having introduced models equipped with this technology. Collision 
warning systems are an example of a successful technology transfer for 
commercial vehicles. Over 50,000 trucks have been sold in the United 
States, equipped with forward collision warning systems. Other life-
saving technologies that are on the market as a result of the IVI 
program include blind spot monitors for trucks, lane departure warning 
systems for cars, and night vision. Still more IVI technologies have 
been deployed in Europe and Japan, but not yet in the domestic market.
    Given the significant investment in intelligent vehicle research, 
some have asked why these technologies have not been transferred to the 
marketplace more quickly. There are two primary answers to this 
question: cost and liability concerns.
    Consumer acceptance of intelligent vehicle devices, in terms of the 
function, is generally not a problem. Consumer acceptance in terms of 
price is another matter. Japan, for example, has many more intelligent 
vehicle technologies available on the market because consumers there 
are willing to pay much more for safety systems. Therefore, cost to the 
consumer remains a major challenge to the adoption of potentially life-
saving technologies. While the marketplace may eventually remedy this 
problem on its own, waiting for the market to reach that equilibrium 
could forgo the opportunity to save lives that we could achieve with a 
more rapid adoption of intelligent vehicle technology.
    One option for advancing deployment is to subsidize this cost to 
consumers through some form of a tax incentive. A tax incentive could 
be provided to consumers who choose to purchase vehicles equipped with 
proven intelligent vehicle safety devices. There is precedent in 
providing tax incentives to consumers who purchase hybrid-electric 
vehicles. The same principle could work in this instance.
    There is also a widespread perception among automotive 
manufacturers that intelligent vehicle technologies may expose 
automakers to product liability litigation. This concern has tempered 
the zeal of automakers to manufacture and sell cars equipped with these 
potentially-life saving devices. It is worth noting that most 
intelligent vehicle technologies on the road today were first deployed 
in Europe and Japan, countries that are perceived to be less litigious 
than the United States. I can make no recommendation on the merits of 
products liability reform. I would only note that industry concern with 
this issue is particularly deep and pervasive with respect to 
intelligent vehicle technologies; as such, this perception represents a 
significant non-technical barrier to deployment.
    One option that would allow the Congress to address both cost and 
liability concerns would be to authorize a study to seek answers. The 
Congress should direct the Secretary for Transportation to conduct a 
study of non-technical barriers to the deployment of intelligent 
vehicle technologies, including liability concerns. This study, to be 
conducted in cooperation with private-sector stakeholders, should seek 
to identify reasons why intelligent vehicle devices are more quickly 
deployed in Europe and Japan. Any study of non-technical barriers these 
should not impede ongoing federal research and operational tests. 
Rather, cost and liability issues should be addressed in parallel with 
continuing research and development.

Performance Measurement

    The last topic I was asked to address has to do with the benefits 
we receive from our transportation investment and how we can measure 
the return on that investment. This is a natural question and one that 
has been difficult for all institutions that sponsor or engage in 
research.
    The difficulty of measuring research results stems from several 
aspects of the research endeavor. To begin with, any outcome you are 
interested in--safety, mobility, congestion, economic vitality, 
environmental protection, etc.--is going to be influenced by many 
factors including research. The research itself will typically be 
carried out over a long period of time, each research project building 
on previous research. The complexity of the causal chain between any 
particular research investment and the ultimate desired outcome makes 
it difficult to tease out in retrospect the exact contribution from 
each research project. The uncertainty of the outcomes of research 
projects and programs together with all the other social, economic, and 
political factors that will influence ultimate outcomes also makes it 
difficult to predict the benefits of research. In addition, sometimes 
``successful'' research tells us that a particular idea is not going to 
work. The benefit of any research oriented to fundamental knowledge is 
difficult to measure because of the intangible nature of knowledge.
    With these considerations in mind, there are some methods that are 
typically used to assess the value of research investments. A typical 
way of gauging the adequacy of overall investment in research is to 
convert this investment to a percentage of revenue or sales and compare 
this percentage to similar industries. In the case of the highway 
industry, research investment is about 0.5 percent of the total highway 
revenues, well below most mature industries. As a colleague, Martin 
Wachs, pointed out at last week's symposium, transportation and health 
care account for approximately equal portions of the Gross Domestic 
Product, yet federal investment in health care research and development 
is ten times larger than federal investment in transportation research 
and development.
    To evaluate the contribution of a wide range of research efforts to 
a significant outcome, one can compare the output of the relevant 
research efforts to indicators of the ultimate goals sought. For 
example, over a thirty-year period the highway fatality rate (in 
fatalities per 100 million vehicle-miles traveled) fell by about 70 
percent. During this period, from the late sixties to the late 
nineties, improvements such as safety belts, air bags, break-away sign 
poles, redesigned guardrail, roadside design standards, more visible 
pavement markings and highway signs, were implemented that were the 
results of federally-funded research. While it is difficult to trace 
numbers of lives saved to particular research investments, there is a 
logical connection that suggests that the research investment paid off 
very well.
    Another approach is to measure a sample of research projects or 
programs, comparing the cost of the program to some set of measurable 
outcomes. In a robust research program, usually a small number of the 
most successful projects more than pays for the whole program.
    The first SHRP program, funded at $150 million over five years, 
produced well over 100 research products. While no comprehensive 
evaluation has been made of all the products, two major segments of 
SHRP research have been very successfully implemented by state DOTs. 
The Superpave<Register> system of asphalt binders and mixes is 
currently used in over half the pavements constructed by the state 
DOTs. Superpave is expected to increase pavement life by about 50 
percent. While sufficient time has not gone by to see if this life 
extension has taken place, states feel they have enough data already to 
use Superpave so extensively. Snow and ice control technologies 
promoted by SHRP have led to agency savings in reduced personnel and 
material requirements ranging from $1,300 to $30,000 per truck route, 
depending on the severity of the storm. Communities and users have 
avoided billions of dollars in economic losses from having roads clear 
and open to travel more quickly; on a per truck-route basis, these 
saving ranged from $12,000 to $107,000.
    As valuable as it is to measure such benefits after the fact, it is 
also important to evaluate research programs as they are being carried 
out. This has been a major issue at the federal level due to the 
passage of the Government Performance and Results Act. While various 
agencies use different approaches, the two essential aspects of 
research program performance measurement are quality review and 
relevance review. Quality review, or peer review, is carried out by 
experts who can evaluate the scientific and technical quality of the 
research. Relevance review is carried out predominantly by users and is 
intended to keep the research focused on the intended goals. These 
types of review link back to the concept of stakeholder involvement, 
since they are also its main components.
    Evaluation of research, both during its conduct and after it has 
produced results, is easily overlooked. Researchers usually like to go 
forward, not look back. If more attention to measuring results is 
desired, it may need a specific focus. Time, funding, and personnel--
which need only be at modest levels--could be built into large research 
programs.

A National Strategic Plan for Transportation Research and Development

    In summary, there are many entities at the national level that 
conduct federally funded transportation research with little, if any, 
coordination and collaboration. The U.S. Departments of Transportation 
and its entities along with others, each conduct their own 
transportation research efforts, somewhat coordinated of the others' 
efforts. Additionally, state departments of transportation and 
universities also engage in publicly funded transportation research. 
Moreover, private industry routinely conducts transportation research--
often at their own expense. Such a patchwork and fragmented approach to 
funding transportation research limits our nation's ability to meet 
national goals such as mobility, safety, economic vitality, system 
preservation, and environmental protection. Experiences with various 
clearinghouse approaches are typically underfunded and problematic.
    To ensure that we meet national goals and to ensure that we are 
getting our money's worth from federal investments, we should take 
steps to maximize coordination and collaboration among each of these 
independent research efforts. Therefore, I recommend that the Congress 
consider the creation of a National Strategic Plan for Transportation 
Research and Development. Such a plan should delineate national 
research goals and should provide a roadmap for achieving these goals. 
The Strategic Plan should be created in cooperation with private and 
public sector stakeholders engaged in transportation research and 
should address strategies for facilitating coordination among 
independent research programs. While this plan would seek only to 
address domestic research, it should give consideration to future and 
ongoing international transportation research. Characteristics of an 
effective strategic plan for transportation research and development:

        <bullet> The plan should focus on the highest priority needs 
        identified at a national level. Other important research work 
        will be conducted in concert to the strategy.

        <bullet> The strategic plan should employ rational criteria 
        and methodologies in prioritizing and budgeting for R&T 
        programs.

        <bullet> Specific R&T activities should be tied explicitly to 
        the goals in the strategic plan and their relationship to these 
        goals should be clearly articulated. This connection to the 
        strategy should be apparent in the detailed plans or roadmaps 
        developed for specific research activities.

        <bullet> The strategic plan will not only identify what should 
        be done and why; it is will also provide clear guidance on what 
        will not be done.

        <bullet> The plan should involve a careful analysis of the 
        appropriate stakeholders to be involved and at what levels of 
        formulating the plan.

        <bullet> The plan should reflect substantive knowledge of 
        research activities outside of the department, including 
        internationally.

        <bullet> The plan should be linked to funding allocations. 
        Budget decisions are a tangible reflection of real priorities.

        <bullet> The plan should be a public document.

        <bullet> The plan should be concise.

        <bullet> The planning process should be dynamic and 
        continuous: a multi-year plan should be developed but it should 
        be assessed annually to ensure it's continued relevance.

        <bullet> The planning process may be most effectively carried 
        out with assistance from outside the department (for example, 
        from the NRC).

    A National Strategic Plan for Transportation Research and 
Development would be useful for more than simply outlining national 
goals and coordinating independent research efforts. The Secretary for 
Transportation could use the plan to more efficiently direct research 
funding within the U.S. Department of Transportation and assist the 
states in providing data and information, clearinghouse or R&D 
activities and technical guidance as they devise their individual R&D 
agendas. The Strategic Plan could also be used by the Congress to 
ensure that federally appropriated money for transportation R&D is used 
efficiently and furtherance of established national goals. I would 
strongly urge the Congress to consider the creation of such a strategic 
plan as vitally important to the future of transportation research.
    Again, I would like to thank you for this opportunity to address 
the future research needs for our surface transportation system. I look 
forward to working with the Committee as we move forward in ensuring 
that the reauthorization of TEA-21 sufficiently addresses these very 
pressing research needs. I would be happy to answer any questions you 
may have or to follow up with additional information at a later time.

Bibliography

Brach, Ann M. 2003. Stakeholder Involvement in Research and Technology 
        Programs: Summary of Paper Prepared for the Research and 
        Technology Coordinating Committee. March 27.
Committee for the Review of the National Transportation Science and 
        Technology Strategy. 2000. Letter Report to Rodney E. Slater, 
        Administrator, Federal Highway Administration. Transportation 
        Research Board, March 28. Available at: http://
        gulliver.trb.org/publications/reports/
        ntsts<INF>-</INF>mar<INF>-</INF>2000.pdf
Livingston, Richard A. 2003. Unpublished background paper on nanoscale 
        research at FHWA. March.
Livingston, Richard A., Milton Mills, and Morton S. Oskard. 2002. A 
        Decade of Achievement. Public Roads, November/December.
National Highway R&T Partnership. 2002. Highway Research and 
        Technology: The Need for Greater Investment. Washington, D.C., 
        April.
National Research Council. 1999. Evaluating Federal Research Programs: 
        Research and the Government Performance and Results Act. 
        Washington, D.C.
National Research Council. 2001. Implementing the Government 
        Performance and Results Act for Research: A Status Report. 
        Washington, D.C.
Research and Technology Coordinating Committee. 2002. Letter Report to 
        Mary E. Peters, Administrator, Federal Highway Administration. 
        Transportation Research Board, August 20. Available at: http://
        gulliver.trb.org/publications/reports/
        rtcc<INF>-</INF>aug<INF>-</INF>2002.pdf
Transportation Research Board. 2001. Special Report 260: Strategic 
        Highway Research: Saving Lives, Reducing Congestions, Improving 
        Quality of Life, National Research Council, Washington, D.C.
Transportation Research Board. 2001. Special Report 261: The Federal 
        Role in Highway Research, National Research Council, 
        Washington, D.C.
Wachs, Martin, text of ``Remarks: RTCC Symposium on Highway Research & 
        Technology--`Advancing Research and Technology: Opportunities, 
        Benefits and Challenges,' '' presented April 3, 2003.

    Chairman Ehlers. Ms. Siggerud.

STATEMENT OF MS. KATHERINE SIGGERUD, ACTING DIRECTOR, PHYSICAL 
         INFRASTRUCTURE TEAM, GENERAL ACCOUNTING OFFICE

    Ms. Siggerud. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to testify today on the Federal 
Highway Administration's Research and Technology Program. I am 
also honored to be part of such a distinguished panel today.
    Expectations, as you have pointed out, for the Federal 
Highway Research Program are high, and the Congress has devoted 
considerable resources to it. For example, approximately half 
of all of the resources allocated to the Department of 
Transportation in 2002. As the Congress undertakes 
reauthorization of TEA-21, it is important to consider whether 
the agency is conducting the high-quality research that is 
relevant and useful to its stakeholders.
    My testimony is based on a report GAO issued last year that 
included recommendations to federal highways aimed at improving 
its processes for setting research agendas and evaluating its 
research efforts. I will also provide information on the 
actions FHWA has taken since we issued our report. My statement 
will cover, first, the best practices we identified for 
developing research agendas and evaluating research outcomes, 
and second the extent to which FHWA's processes align with 
these practices.
    Several organizations that conduct or oversee scientific 
and engineering research have identified best practices for 
those federal agencies that have their own research programs. 
For example, the Committee on Science, Engineering, and Public 
Policy and the Office of Management and Budget establish 
criteria for federal research programs, focusing on such goals 
as quality, relevance, performance, and leadership. GAO's 
research demonstrated that federal agencies have adopted 
various practices to reach these goals.
    We identified two practices that are particularly relevant 
for FHWA. The first, developing research agendas and 
consultation with external stakeholders, is related to ensuring 
the relevance of the research. The second, using a systematic 
approach to evaluate ongoing and completed research through 
such techniques as peer review, is related to ensuring the 
quality of research.
    We reported last year that FHWA's processes for developing 
research agendas do not always fully align with the best 
practices we identified, including external stakeholder 
involvement. Stakeholder involvement is important for FHWA, 
because we expect its research to be used by others, such as 
state departments of transportation, and manage and conduct--
and construct transportation system. FHWA acknowledged at that 
time that its approach for developing research agendas lacks a 
consistent transparent and systematic process to ensure that 
external stakeholders are involved. FHWA responded to our 
recommendations and similar recommendations from the 
Transportation Research Board Committee that oversees FHWA. The 
agency appears to be taking steps we view as necessary to adopt 
the best practice of involving external stakeholders. FHWA 
plans to recommend certain action in the forthcoming plan such 
as inviting external stakeholders to assist FHWA with setting 
the research and technology program agendas and priorities. 
Because the plan has not been finalized, I can not yet comment 
on its potential effectiveness.
    We also reported last year that FHWA does not have a 
systematic process for evaluating research outcomes. Because of 
the long-term and uncertain nature of research and of its 
results, evaluating research can be challenging. However, the 
best practices we identified are meant to address this 
challenge. At the time of our report, FHWA primarily used a 
success story approach to evaluate and communicate its research 
outcomes. While this approach illustrates some benefits of the 
agency's research, it can not be used as a primary method, 
because these stories represent only a fraction of the 
program's research projects. As a result, we concluded that we 
couldn't be confident that FHWA is selecting research projects 
that have the highest potential value or that FHWA knows the 
extent to which these projects have achieved their objectives.
    We recommended that FHWA develop a systematic approach to 
evaluating its research program. I noted peer review as the 
best practice for doing so. FHWA agreed that the agency must do 
a better job of measuring the performance of its research and 
technology program. The agency has taken important steps such 
as completing a benchmarking study to identify practices at 
other federal research agencies. In addition, FHWA's new draft 
plan includes expert review of the agency's research and 
technology program in the form of merit review panels. These 
panels would conduct evaluations and reviews on a periodic 
basis at the program and agency level. However, FHWA is still 
in the process of actually developing and adopting this 
framework, therefore, I really can't comment at this time on 
the results of FHWA's efforts in this area.
    Mr. Chairman, this concludes my statement. I am happy to 
answer questions.
    [The prepared statement of Ms. Siggerud follows:]
                Prepared Statement of Katherine Siggerud

HIGHWAY RESEARCH

   DOT's Actions to Implement Best Management Practices for Setting 
                Research Agendas and Evaluating Outcomes

What GAO Found

    Leading organizations, federal agencies, and experts that conduct 
scientific and engineering research use best practices designed to 
ensure that research objectives are related to the areas of greatest 
interest to research users and that research is evaluated according to 
these objectives. Of the specific best practices recommended by 
experts--such as the Committee on Science, Engineering, and Public 
Policy and the National Science Foundation--GAO identified the 
following practices as particularly relevant for FHWA: (1) developing 
research agendas in consultation with external stakeholders to identify 
high-value research and (2) using a systematic approach to evaluate 
research through such techniques as peer review.
    FHWA's processes for developing its research agendas do not always 
consistently include stakeholder involvement. External stakeholder 
involvement is important for FHWA because its research is, to be used 
by others that manage and construct transportation systems. FHWA 
acknowledges that its approach for developing research agendas lacks a 
systematic process to ensure that external stakeholders are involved. 
In response to GAO's recommendation, FHWA has drafted plans that take 
the necessary steps toward developing a systematic process for 
involving external stakeholders. While the plans appear responsive to 
GAO's recommendation, as shown in the table below, GAO cannot evaluate 
their effectiveness until they are implemented.
    FHWA does not have a systematic process that incorporates 
techniques such as peer review for evaluating research outcomes. 
Instead, the agency primarily uses a ``success story'' approach to 
communicate about those research projects that have positive impacts. 
As a result, it is unclear the extent to which all research projects 
have achieved their objectives. FHWA acknowledges that it must do more 
to measure the performance of its research program, however, it is 
still in the process of developing a framework for this purpose. While 
FHWA's initial plans appear responsive to GAO's recommendation, GAO 
cannot evaluate their effectiveness until they are implemented.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Chairman and Members of the Committee:
    We appreciate the opportunity to testify today on the Federal 
Highway Administration's (FHWA) surface transportation research and 
technology program. Change, improvement, and innovation based on 
highway research have long been important to the highway system. While 
this research is a shared responsibility among FHWA, state departments 
of transportation, and private organizations, we focused on FHWA's 
important leadership role as the primary federal agency involved in 
highway research. Throughout the past decade, FHWA has received 
hundreds of millions of dollars for its surface transportation research 
and technology program, including nearly half of the Department of 
Transportation's (DOT) approximate $1 billion budget for research, 
development, and technology in fiscal year 2002. Given the important 
expectations of highway research and the significant level of resources 
dedicated to it, it is important for the Congress and the American 
people to know that the agency is conducting research that is relevant 
and useful to stakeholders and that is of high quality. In May 2002 we 
issued a report on these issues and made recommendations to FHWA, which 
the agency agreed with, aimed at improving its processes for setting 
research agendas and evaluating its research efforts.\1\ As it 
considers reauthorizing FHWA's research and technology program, 
Congress will be making decisions about the structure of the program. 
Accordingly, my testimony today will discuss (1) best practices for 
developing research agendas and evaluating research outcomes for 
federal research programs; (2) the extent to which FHWA's processes for 
developing research agendas align with the best practices for similar 
federal research programs; and (3) the extent to which FHWA's processes 
for evaluating research outcomes align with these best practices.
---------------------------------------------------------------------------
    \1\ Highway Research: Systematic Selection and Evaluation Processes 
Needed for Research Program (GAO-02-573, May 2002).
---------------------------------------------------------------------------
    My statement is based in part on our May 2002 report, which focused 
primarily on those activities funded by the surface transportation 
research and technology deployment funding categories identified in the 
Transportation Equity Act for the 21st Century. In developing that 
report, we held discussions with FHWA officials and reviewed relevant 
program documents, legislation, and publications on best practices in 
federal research from the Transportation Research Board, the Committee 
on Science, Engineering, and Public Policy and others. In preparing for 
this hearing, we also updated FHWA's activities in response to our 
findings and recommendations.

In summary:

        <bullet> Leading organizations that conduct scientific and 
        engineering research, other federal agencies with research 
        programs, and experts in research and technology have 
        identified and use best practices designed to ensure that 
        research objectives are related to the areas of greatest 
        interest and concern to research users and that research is 
        evaluated according to these objectives. Specific best 
        practices in these areas used in other federal research 
        programs or recommended by experts--such as the Committee on 
        Science, Engineering, and Public Policy,\2\ the Environmental 
        Protection Agency, the National Science Foundation, and the 
        Office of Management and Budget--include: (1) developing 
        research agendas in consultation with external stakeholders to 
        identify high value research and (2) using a systematic 
        approach to evaluate ongoing and completed research through 
        such techniques as peer review.
---------------------------------------------------------------------------
    \2\ Committee on Science, Engineering, and Public Policy, 
Evaluating Federal Research Programs: Research and the Government 
Performance and Results Act (Washington, DC: Feb. 1999). The Committee 
on Science, Engineering, and Public Policy is a joint committee of the 
National Academy of Sciences, the National Academy of Engineering, and 
the Institute of Medicine.

        <bullet> As we reported last year, FHWA's processes for 
        developing research agendas for its research and technology 
        program do not always consistently include stakeholder 
        involvement. External stakeholder involvement is important for 
        FHWA because its research is expected to be used by others, 
        such as state departments of transportation, which manage and 
        construct transportation systems. FHWA acknowledges that its 
        approach for developing research agendas lacks a consistent, 
        transparent, and systematic process to ensure that external 
        stakeholders are involved. Instead, the agency expects each 
        program office to determine how or whether to involve external 
        stakeholders in the agenda setting process. As a result, this 
        approach is used inconsistently. To improve its program and in 
        response to our recommendations, FHWA has drafted plans that 
        seem to take the necessary steps toward developing a systematic 
        process for involving external stakeholders in the agenda 
        setting process. FHWA's plans have not been finalized, and we 
---------------------------------------------------------------------------
        cannot comment on the potential effectiveness of these plans.

        <bullet> We reported last year that FHWA does not have a 
        systematic process that incorporates techniques such as peer 
        review for evaluating research outcomes. Instead, the agency 
        primarily uses a ``success story'' approach to evaluate and 
        communicate its research outcomes. While this approach 
        illustrates some benefits of the agency's research, it cannot 
        be used as the primary method to evaluate the outcomes of the 
        research against intended results because these stories 
        represent only a fraction of the program's completed research 
        projects. As a result, it is unclear whether the organization 
        is selecting research projects that have the highest potential 
        value, or the extent to which these projects have achieved 
        their objectives. We recommended that FHWA develop a systematic 
        approach to evaluating its research program, and noted peer 
        review as a best practice for doing so. In response, FHWA 
        agreed that the agency must do a better job to measure the 
        performance of its research and technology program. However, 
        currently it is still in the process of developing, defining, 
        and adopting a framework for measuring performance. Therefore, 
        we cannot yet comment on FHWA's efforts to evaluate research 
        outcomes.

Background

    FHWA is the DOT agency responsible for federal highway programs--
including distributing billions of dollars in federal highway funds to 
the states--and developing federal policy regarding the Nation's 
highways. The agency provides technical assistance to improve the 
quality of the transportation network, conducts transportation 
research, and disseminates research results throughout the country. 
FHWA's program offices conduct these activities through its Research 
and Technology Program, which includes ``research'' (conducting 
research activities), ``development'' (developing practical 
applications or prototypes of research findings), and ``technology'' 
(communicating research and development knowledge and products to 
users). FHWA maintains a highway research facility in McLean, Virginia. 
This facility, known as the Turner-Fairbank Highway Research Center, 
has over 24 indoor and outdoor laboratories and support facilities. 
Approximately 300 federal employees, on-site contract employees, and 
students are currently engaged in transportation research at the 
center.
    FHWA's research and technology program is based on the research and 
technology needs of each of its program offices such as the Offices of 
Infrastructure, Safety, or Policy. Each of the program offices is 
responsible for identifying research needs, formulating strategies to 
address transportation problems, and setting goals for research and 
technology activities that support the agency's strategic goals. (See 
Appendix I for examples of research that these offices undertake.) One 
program office that is located at FHWA's research facility provides 
support for administering the overall program and conducts some of the 
research. The agency's leadership team, consisting of the associate 
administrators of the program offices and other FHWA offices, provides 
periodic oversight of the overall program. In 2002 FHWA appointed the 
Director of its Office of Research, Development, and Technology as the 
focal point for achieving the agency's national performance objective 
of increasing the effectiveness of all FHWA program offices, as well as 
its partners and stakeholders, in determining research priorities and 
deploying technologies and innovation.
    In addition to the research activities within FHWA, the agency 
collaborates with other DOT agencies to conduct research and technology 
activities. For example, FHWA works with DOT's Research and Special 
Programs Administration to coordinate efforts to support key research 
identified in the department's strategic plan.\3\ Other nonfederal 
research and technology organizations also conduct research funded by 
FHWA related to highways and bridges. Among these are state research 
and technology programs that address technical questions associated 
with the planning, design, construction, rehabilitation, and 
maintenance of highways. In addition, the National Cooperative Highway 
Research Program conducts research on acute problems related to highway 
planning, design, construction, operation, and maintenance that are 
common to most states. Private organizations, including companies that 
design and construct highways and supply highway-related products, 
national associations of industry components, and engineering 
associations active in construction and highway transportation, also 
conduct or sponsor individual programs. Universities receive funding 
for research on surface transportation from FHWA, the states, and the 
private sector.
---------------------------------------------------------------------------
    \3\ As required by the Transportation Equity Act for the 21st 
Century, DOT annually develops the department wide ``Research, 
Development, and Technology Plan.'' This plan, drafted by the Research 
and Special Programs Administration and funded in part by FHWA, 
provides program-level detail on the directions that DOT's research 
will take. This plan is used by the individual operating 
administrations, such as FHWA and the Research and Special Programs 
Administration, as a resource document to develop their subsequent 
program proposals for inclusion in their administration budgets.
---------------------------------------------------------------------------

Research Community Promotes Use of Best Practices for Developing 
                    Research Agendas and Evaluating Research Outcomes

    Leading organizations that conduct scientific and engineering 
research, other federal agencies with research programs, and experts in 
research and technology have identified and use best practices for 
developing research agendas and evaluating research outcomes. Although 
the uncertain nature of research outcomes over time makes it difficult 
to set specific, measurable program goals and evaluate results, the 
best practices we identified are designed to ensure that the research 
objectives are related to the areas of greatest interest and concern to 
research users and that research is evaluated according to these 
objectives. These practices include (1) developing research agendas 
through the involvement of external stakeholders and (2) evaluation of 
research using techniques such as expert review of the quality of 
research outcomes.

Developing Research Agendas Through the Involvement of External 
                    Stakeholders

    External stakeholder involvement is particularly important for FHWA 
because its research is expected to improve the construction, safety 
and operation of transportation systems that are primarily managed by 
others, such as state departments of transportation. According to the 
Transportation Research Board's Research and Technology Coordinating 
Committee,\4\ research has to be closely connected to its stakeholders 
to help ensure relevance and program support, and stakeholders are more 
likely to promote the use of research results if they are involved in 
the research process from the start.\5\ The committee also identified 
merit review of research proposals by independent technical experts 
based on technical criteria as being necessary to help ensure the most 
effective use of federal research funds. In 1999, we reported that 
other federal science agencies--such as the Environmental Protection 
Agency and the National Science Foundation--used such reviews to 
varying degrees to assess the merits of competitive and noncompetitive 
research proposals.\6\ In April 2002, the Office of Management and 
Budget issued investment criteria for federal research and technology 
program budgets that urge these agencies to put into place processes to 
assure the relevance, quality and performance of their programs. For 
example, the guidance requires these programs to have agendas that are 
assessed prospectively and retrospectively through external review to 
ensure that funds are being expended on quality research efforts.
---------------------------------------------------------------------------
    \4\ The Research and Technology Coordinating Committee was convened 
in 1991 by the Transportation Research Board of the National Academies 
to provide a continuing, independent assessment of FHWA's research and 
technology program. FHWA provides funding for the committee.
    \5\ Transportation Research Board, The Federal Role in Highway 
Research and Technology (Washington, D.C.: National Academy Press, 
2001), p. 76. For surface transportation research, potential 
stakeholders include state and local highway agencies that own and 
operate the Nation's highways; highway users; the companies that 
furnish the products, services, and equipment needed to build, operate, 
and maintain the highway system; and the people and communities that 
benefit from and are affected by the system.
    \6\ Federal Research: Peer Review Practices at Federal Science 
Agencies Vary (GAO/RCED-99-99, Mar. 1999), p. 2.
---------------------------------------------------------------------------
    Evaluation of Research
    The Committee on Science, Engineering, and Public Policy reported 
in 1999 that federal agencies that support research in science and 
engineering have been challenged to find the most useful and effective 
ways to evaluate the performance and results of the research programs 
they support. Nevertheless, the committee found that research programs, 
no matter what their character and goals, can be evaluated meaningfully 
on a regular basis and in accordance with the Government Performance 
and Results Act. Similarly, in April 2002 the Office of Management and 
Budget issued investment criteria for federal research and technology 
program budgets that require these programs to define appropriate 
outcome measures and milestones that can be used to track progress 
toward goals and assess whether funding should be enhanced or 
redirected. In addition, program quality should be assessed 
periodically in relation to these criteria through retrospective expert 
review. The Committee on Science, Engineering, and Public Policy also 
emphasized that the evaluation methods must match the type of research 
and its objectives, and it concluded that expert or peer review is a 
particularly effective means to evaluate federally funded research.
    Peer review is a process that includes an independent assessment of 
the technical and scientific merit or quality of research by peers with 
essential subject area expertise and perspective equal to that of the 
researchers. Peer review does not require that the final impact of the 
research be known. In 1999, we reported that federal agencies, such as 
the Department of Agriculture, the National Institutes of Health, and 
the Department of Energy, use peer review to help them (1) determine 
whether to continue or renew research projects, (2) evaluate the 
results of research prior to publication of those results, and (3) 
evaluate the performance of programs and scientists.\7\ In its 1999 
report, the Committee on Science, Engineering, and Public Policy also 
stated that expert review is widely used to evaluate: (1) the quality 
of current research as compared with other work being conducted in the 
field, (2) the relevance of research to the agency's goals and mission, 
and (3) whether the research is at the ``cutting edge.''
---------------------------------------------------------------------------
    \7\ GAO/RCED-99-99.
---------------------------------------------------------------------------

External Stakeholders' Involvement in Developing FHWA's Research 
                    Agendas Has Been Limited

    Although FHWA engages external stakeholders in elements of its 
research and technology program, the agency currently does not follow 
the best practice of engaging external stakeholders on a consistent and 
transparent basis in setting its research agendas. The agency expects 
each program office to determine how or whether to involve external 
stakeholders in the agenda setting process. As we reported in May 2002, 
FHWA acknowledges that its approach to preparing research agendas is 
inconsistent and that the associate administrators of FHWA's program 
offices primarily use input from the agency's program offices, resource 
centers, and division offices.\8\ Although agency officials told us 
that resource center and division office staff provide the associate 
administrators with input based on their interactions with external 
stakeholders, to the extent that external stakeholder input into 
developing research agendas occurs, it is usually ad hoc and provided 
through technical committees and professional societies. For example, 
the agency's agenda for environmental research was developed with input 
from both internal sources (including DOT's and FHWA's strategic plans 
and staff) and external sources (including the Transportation Research 
Board's reports on environmental research needs and clean air, 
environmental justice leaders, planners, civil rights advocates, and 
legal experts).
---------------------------------------------------------------------------
    \8\ FHWA has four resource centers throughout the country, and 
division offices in each state, Puerto Rico and District of Columbia.
---------------------------------------------------------------------------
    In our May 2002 report we recommended that FHWA develop a 
systematic approach for obtaining input from external stakeholders in 
determining its research and technology program's agendas. FHWA 
concurred with our recommendation and has taken steps to develop such 
an approach. FHWA formed a planning group consisting of internal 
stakeholders as well as representatives from the Research and Special 
Programs Administration and the Pennsylvania Department of 
Transportation to determine how to implement our recommendation. This 
planning group prepared a report analyzing the approaches that four 
other federal agencies are taking to involve external stakeholders in 
setting their research and technology program agendas. Using the 
lessons learned from reviewing these other agencies' activities, FHWA 
has drafted a Corporate Master Plan for Research and Deployment of 
Technology & Innovation. Under the draft plan, the agency would be 
required to establish specific steps for including external 
stakeholders in the agenda setting process for all areas of research 
throughout the agency's research and technology program by fiscal year 
2004. In drafting this plan, FHWA officials obtained input from 
internal stakeholders as well as external stakeholders, including state 
departments of transportation, academia, consultants, and members of 
the Transportation Research Board. It appears that FHWA has committed 
to taking the necessary steps to adopt the best practice of developing 
a systematic process for involving external stakeholders in the agenda 
setting process. The draft plan invites external stakeholders to assist 
FHWA with such activities as providing focus and direction to the 
research and technology program and setting the program's agendas and 
priorities. However, because FHWA's plan has not been finalized, we 
cannot comment on its potential effectiveness in involving external 
stakeholders.

FHWA Lacks a Systematic Approach to Evaluating Research Outcomes

    As we reported last year, FHWA does not have an agency wide 
systematic process to evaluate whether its research projects are 
achieving intended results that uses such techniques as peer review. 
Although the agency's program offices may use methods such as obtaining 
feedback from customers and evaluating outputs or outcomes versus 
milestones, they all use success stories as the primary method to 
evaluate and communicate research outcomes. According to agency 
officials, success stories are examples of research results adopted or 
implemented by such stakeholders as state departments of 
transportation. These officials told us that success stories can 
document the financial returns on investment and non-monetary benefits 
of research and technology efforts. However, we raised concerns that 
success stories are selective and do not cover the breadth of FHWA's 
research and technology program.
    In 2001, the Transportation Research Board's Research and 
Technology Coordinating Committee concluded that peer or expert review 
is an appropriate way to evaluate FHWA's surface transportation 
research and technology program. Therefore, the committee recommended a 
variety of actions, including a systematic evaluation of outcomes by 
panels of external stakeholders and technical experts to help ensure 
the maximum return on investment in research. Agency officials told us 
that increased stakeholder involvement and peer review will require 
significant additional expenditures for the program. However, a 
Transportation Research Board official told us that the cost of 
obtaining expert assistance could be relatively low because the time 
needed to provide input would be minimal and could be provided by such 
inexpensive methods as electronic mail.
    In our May 2002 report, we recommended that FHWA develop a 
systematic process for evaluating significant ongoing and completed 
research that incorporates peer review or other best practices in use 
at federal agencies that conduct research.\9\ While FHWA has concurred 
that the agency must measure the performance of its research and 
technology program, it has not developed, defined or adopted a 
framework for measuring performance. FHWA's report on efforts of other 
federal agencies that conduct research, discussed above, analyzed the 
approaches that four other federal agencies are taking to evaluate 
their research and technology programs using these best practices. 
According to FHWA's assistant director for Research, Technology, and 
Innovation Deployment, the agency is using the results of this report 
to develop its own systematic approach for evaluating its research and 
technology program. However, this official noted that FHWA has been 
challenged to find the most useful and effective ways to evaluate the 
performance and results of the agency's research and technology 
program. According to FHWA's draft Corporate Master Plan for Research 
and Deployment of Technology & Innovation, FHWA is committed to 
developing a systematic method of evaluating its research and 
technology program that includes the use of a merit review panel. This 
panel would conduct evaluations and reviews in collaboration with 
representatives from FHWA staff, technical experts, peers, special 
interest groups, senior management, and contracting officers. According 
to the draft plan, these merit reviews would be conducted on a periodic 
basis for program-level and agency-level evaluations, while merit 
reviews at the project level would depend on the project's size and 
complexity. FHWA is still in the process of developing, defining, and 
adopting a framework for measuring performance. Therefore, we cannot 
yet comment on how well FHWA's efforts to evaluate research outcomes 
will follow established best practices.
---------------------------------------------------------------------------
    \9\ GAO-02-573.
---------------------------------------------------------------------------
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you or Members of the Committee 
may have.

Contacts and Acknowledgments

    For further information on this testimony, please contact Katherine 
Siggerud at (202) 512-2834 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a49535d5d5f484f5e517a5d5b55145d554c14">[email&#160;protected]</a> Deena Richart made key 
contributions to this testimony.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Ehlers. Thank you. Ms. Canby.

      STATEMENT OF MS. ANNE P. CANBY, PRESIDENT, SURFACE 
                 TRANSPORTATION POLICY PROJECT

    Ms. Canby. Good morning, Mr. Chairman. As you said, I am 
Anne Canby, President of the Surface Transportation Policy 
Project. I am very pleased to be here this morning with my 
distinguished panel.
    Let me focus on just a few of the points in my written 
testimony. One of the challenges I believe we face is to adjust 
our research efforts to help us deliver what the public wants, 
more trip choice, a balanced investment in our transportation 
system, greater responsiveness to community, public health, and 
environmental concerns. And the challenge in the research arena 
is to define an agenda that responds to these public needs.
    Shaping our transportation agenda can help position us 
better to respond to the needs of the public. Let me cite a few 
examples from my written testimony. The basic principles and 
policies, as set forth in ISTEA, intermodalism, economic 
efficiency, environmental quality and equity, as well as the 
planning factors set forth in the statewide and metropolitan 
planning sections of the law should guide and develop the 
prioritization of our research agenda as well as be used to set 
performance measures that would enable us to track the progress 
on achieving the goals of the law. To help you and the Congress 
follow this progress, having the Transportation Secretary 
report annually to you would enable us to all understand the 
progress or not that is being made.
    Let me focus on a few of the particular needs that we 
envision. There is a need to close the information and data 
deficit that now exists. This is a report prepared by the BTS 
that speaks to the deficit in the pedestrian and bicycle data 
alone, examining the needs of all users, all modes, and all 
types of trips, expanding our knowledge on key issues that 
matter to the public in the areas of social equity, community 
development, growth management, public health, and the 
environment. And third, looking at the key trends that, I 
think, will have huge impact on the transportation system as 
well.
    The aging of our population. By 2025, almost 25--20 percent 
of our population will be over 65 and the cohort 85 and over is 
the fastest growing segment of our population. As we all can 
witness everyday, our aviation and rail systems for intercity 
travel are threatened, and that is probably a kind word, and we 
need to better understand how these systems can work together. 
Household transportation costs now average about 20 percent of 
family budgets. Understanding the impact of that is also 
important.
    The data deficit can hurt not only the system and people, 
but can effect the Congress as well, as we all witnessed in the 
RABA situation that took almost a year to dig out of. And it 
was due, basically, to inadequate data or assumptions that were 
being made that created that problem. To overcome the data 
challenge that we face, some ideas: improving the data quality 
and data standards, as my colleagues suggested; investing in 
the Bureau of Transportation Statistics so that it really 
becomes an equivalent to the Bureau of Labor Statistics or the 
Bureau of Economic Analysis.
    Further, some thoughts on focusing the research agenda on 
the transportation system, all parts of it. Over 25 percent of 
all trips are less than one mile, and they tend not to even be 
captured in the transportation forecast models that we use, so 
we have very little understanding of these trips, or nowhere 
near as much as we need to.
    Clearly, the interdependence of the transportation modes 
was one of the major lessons we learned as a result of 9/11 
when Amtrak was truly a lifeline to the city of New York. The 
importance and functioning of an intermodal, integrated, multi-
modal system was made very clear in the aftermath of that 
event.
    Support for the Environmental Cooperative Research Program 
that you all created in TEA-21 now needs to be funded so that 
we may more effectively address the social equity, community 
development, growth, public health, and environment issues. 
Expanding the stakeholders, as my colleagues have mentioned, so 
that we really include the research experts from other fields. 
The complexity of the metropolitan areas, I think, requires 
that we examine the potential of creating a metropolitan 
planning and research program that would parallel to the state 
planning and research program that exists today.
    Finally, focusing on outcomes, we need to be able to 
determine and articulate if we are making progress or falling 
short. We spend an enormous amount of money, and more robust 
data and research are key to measuring our performance.
    Let me conclude by underscoring your importance in this 
work and that we are ready to--here to help you study the right 
issues, collect the right data, close the gaps, and commit our 
support to helping you do that.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Canby follows:]
                  Prepared Statement of Anne P. Canby
    Mr. Chairman, I am Anne Canby, President of the Surface 
Transportation Policy Project. I have served as a state transportation 
secretary in Delaware and New Jersey and currently I am serving on a 
volunteer basis as the Chair of the Technical Activities Council of the 
Transportation Research Board.
    The Surface Transportation Policy Project or STPP is a nationwide 
network of more than 600 hundred organizations working to promote 
transportation policies and options for everyone, conserve energy, 
protect the environmental and aesthetic quality of neighborhoods, 
promote access to those now under served, particularly seniors and 
persons with disabilities, and strengthen the economy.
    The STPP coalition has been a key driver for transportation policy 
reform since its inception in 1990, seeking the implementation of 
reforms that were made part of ISTEA and reaffirmed in TEA-21.
    Mr. Chairman and the Members of this subcommittee, I am pleased to 
share our views on ``Transportation Research and Development: Investing 
in the Future.''

Overview of Key Issues and Recommendations

    Mr. Chairman, one of the challenges before us is how we structure 
the federal research program to respond to what the public wants. 
Current research efforts focus too much on vehicles, rather the people 
who use the system, and on facilities that serve vehicles, rather than 
people and businesses in their communities.
    The real challenge before us is to set a research agenda that 
responds to the public and their diverse needs and interests. In survey 
after survey, we see a public that wants more choices, more balanced 
investments, and more responsiveness to community, public health and 
environmental concerns. Clearly, we must find ways to respond to these 
expectations if we hope to find the resources to maintain and expand 
our transportation systems. We believe that part of the answer to 
unlocking this public support is to do what the public wants. This 
means building the capacity to engage them on what they care about. The 
federal research agenda is a big part of this equation.
    We can move in this direction by adhering more closely to the basic 
principles and policies of ISTEA and TEA-21--intermodalism, economic 
efficiency, environmental quality and equity--and by looking to the 
law's planning factors set forth in Sections 134 and 135. It is our 
view that we should calibrate our research agenda to these basic goals 
and factors. Each of the major research elements, including the 
proposed F-SHRP agenda, should be measured against this standard. This 
could be accomplished by simply directing the Transportation Secretary 
to report annually to the Congress, describing how federal research 
investments address these goals and factors.
    This overarching context for our federal research program will help 
deliver timely and complete information to support the many decisions 
affecting the allocation of billions of transportation dollars now 
provided to the states and local areas.
    Within this context, we can respond more directly to the public by 
focusing our research agenda on efforts that--

        <bullet> Close the information and data deficit, allowing us 
        to manage our systems more efficiently because we have the 
        data,

        <bullet> Look out for the needs of all users and modes, 
        helping us move beyond simply vehicles and on to overall system 
        needs,

        <bullet> Expand our knowledge on questions that are squarely 
        before the public, such as equity, community development and 
        growth, public health and the environment, and

        <bullet> Tackle overlooked issues and trends, such as how 
        transportation costs affect families or how we can improve 
        access for seniors and persons with disabilities.

    Mr. Chairman, I want to speak first to the data deficit that now 
exists. This real limiting factor undermines our ability to make 
smarter transportation investments. This is a serious matter, but there 
are some ways we can make progress.

        <bullet> Make a stronger commitment to data quality and data 
        standards, recognizing that data deficiencies can distort 
        decisions and unduly influence policy debates throughout the 
        system,

        <bullet> Invest in the Bureau of Transportation Statistics to 
        make it a stronger and more independent source of 
        transportation data, modeling it after the Bureau of Labor 
        Statistics, and

        <bullet> Reform current practices to ensure that we are 
        getting the data we need when we need it. Some examples of 
        recent challenges include: data failures that led to the 
        ``RABA'' funding problem that tied up Congress for more than 
        one year; the lack of ``real time'' data on intercity travel to 
        tell decision-makers what is going on in the system and to help 
        them respond to changing conditions; better data on goods 
        movement and other issues to help address transportation 
        security concerns in a post 9/11 world; and better data on the 
        nexus between transportation and air quality, particularly now 
        as we move to implement the 8-hour ozone standard.

    Another pathway to serving the public is to recognize the need for 
more balance among the modes and balancing the use of modes--

        <bullet> Adjust the research agenda to focus data and research 
        on the broader transportation system, rather than individual 
        modes of travel, to help transportation decision-makers address 
        integration and interconnectivity needs, a shift that responds 
        directly to public notions about travel and trip-making (the 
        public does not worry about the funding silos),

        <bullet> Value the lessons of 9/11, including the realignment 
        of our intercity rail, aviation and highway travel networks 
        that is now occurring, by directing resources to gather new 
        information and data on intercity passenger travel and options 
        for adapting to changing travel patterns and preferences, and

        <bullet> Recognize that current data gaps continue to 
        undermine efforts to deliver more choice and balance within 
        regions and local areas, with our coalition calling particular 
        attention to inadequate data on pedestrians, bicyclists, older 
        Americans and children and on trips of one mile or less (which 
        now account for more than one out of every four trips as 
        contrasted to ``commute'' trips which are now fewer than one 
        out of every six trips).

    Mr. Chairman, getting the data right also means we can undertake 
the research, both applied and R&D, that will help us respond more 
directly to what the public is concerned about. I noted earlier some of 
the key issues before citizens in their communities--equity, community 
development and growth, public health and the environment.
    One of the questions before this committee is funding for the 
Surface Transportation Environmental Cooperative Research Program, 
which we see as an important plank in the effort to realign the federal 
research agenda with the public's concerns. This is a priority for 
STPP. We were disappointed that this TEA-21 initiative was not funded 
at any time during the six-year authorization cycle.
    In our recommendations on TEA-21 renewal, called ``Stay the 
Course,'' the STPP coalition calls for STECRP funding of at least $15 
million in the first year of the new bill, rising to $28 million by the 
end of the renewal period. We offer the idea that this be done as a 
take down on overall funding, as we now provide for the NCHRP.
    STECRP is a good example of how we can advance the goals of the 
law, while moving the federal research agenda in a direction that also 
satisfies key public concerns. And, we know we have a lot of work to do 
to assure the public that transportation decision-makers are attuned to 
their environmental and public health concerns.
    Let me elaborate further on this point. There is no question about 
the effects of poor air quality on human health, and the public knows 
this as well. What we lack is a funding stream that delivers the 
research and data to help us more fully understand how to make the 
right transportation investments for better air quality.
    Mr. Chairman, we also see this initiative as a pathway for tackling 
many environmental challenges. We lack the performance measures and 
tools to monitor how our transportation investments affect the 
environment. We know that land use plans and development patterns can 
reduce our reliance on automobile trips and improve environmental 
quality, but we need more research and information to help us do this 
more effectively. We know that protecting biodiversity and habitat is a 
challenge for transportation officials so additional research in this 
area will help better inform their decisions. There are environmental 
and social justice issues where additional research and study will help 
us respond to these needs. All of these questions resonate with voters, 
and enhanced efforts here will position decision-makers to engage the 
public on these issues.
    I should note the recent TRB report on STECRP, which did an 
excellent job of setting forth an agenda for this program, as required 
under TEA-21. It provides a framework for delivering the knowledge to 
support more informed decisions on these and other matters.

    Mr. Chairman, we also need to engage the public more directly and 
work to deepen our understanding of what is going on in communities and 
what needs to be done. Among some of the steps that would make a 
difference--

        <bullet> Rethink how our research processes involve 
        stakeholders, moving to broaden the perspective of 
        transportation experts by embracing the many new players and 
        organizations, such as the public health community, housing, 
        social equity, smart growth and business and user groups that 
        want to become more engaged in the debate on transportation 
        investment and outcomes, and

        <bullet> Support the incorporation of new technologies and 
        tools--computer-assisted planning and simulations, modeling 
        enhancements, GIS coding of project and financial data, 
        Internet-based reporting and other transparency techniques--
        that open up the decision-making processes, bringing the public 
        more fully into the debate on transportation investment 
        decisions.

    Another key area is how the federal research program can accelerate 
our efforts to measure the outcomes of transportation investments, to 
know if we are making progress or falling short. This area is very much 
on the minds of the public as taxpayers. After all, we are talking 
about more than $40 billion in annual spending.
    Improved data efforts and a more balanced research program that is 
focused on the Act's goals and planning requirements are an important 
step in moving toward more performance and improved methods for 
measuring outcomes. I applaud the Administration's emphasis on 
performance measurement and performance management, which helps to set 
the tone for our discussions on the research agenda.
    We would suggest that this committee look at placing more emphasis 
on local and metropolitan needs through the establishment of a 
Metropolitan Planning and Research program (MPR), as we now do for 
state transportation departments under the State Planning and Research 
program (SPR).
    I would note that most states are only responsible for a portion of 
the transportation system, usually state-owned roads and often-larger 
highways at that. This misses many parts of the transportation system 
and tends to narrow our inquiry on many issues. Resources to support 
further research at the regional and metropolitan level are crucial to 
our efforts to make further strides on many fronts, particularly 
performance measurement. It is at the regional and local level where 
most transportation assets are managed. Decision-making and investments 
occur at a scale where outcomes can be more readily measured.
    Another opportunity to further performance measurement is to build 
on the General Accounting Standards Board rule, known as GASB-34, which 
has set in motion a fundamental reform in how state and local 
governments account for their assets, including transportation 
facilities. These rules, for the first time, will place all states and 
other governmental units on a path to standardized reporting, 
specifically ``life cycle accounting,'' to ensure that agencies are 
adequately investing resources to maintain their transportation 
infrastructure. GASB-34 will increase the transparency of 
transportation funding decisions, holding agencies more accountable for 
system preservation and maintenance needs, reinforcing key principles 
and program features set forth in ISTEA and TEA-21. In addition, state 
and metropolitan plans, for example, are required to consider life 
cycle costing. FHWA and FTA should be looking to take full advantage of 
the new outputs from these rules. The research title should provide 
research funds and other resources to ensure that FHWA and FTA are 
ready to synchronize their work on performance measurement with the new 
information GASB-34 will provide.
    Another opportunity to improve performance accounting is to examine 
how the financial data tracking system managed by the Federal Highway 
Administration, known as the FMIS system, could be adjusted to help 
monitor performance and measure program outcomes. Currently, the FMIS 
system concentrates on tracking unobligated balances, with states 
inputting data on project type, obligations by program category, 
unobligated balances and more than 350 other parameters. This system, 
with some modest adjustments, could help us better measure outcomes and 
deliver better information to the public. We believe that the FMIS 
system could also be a new resource in helping us better understand 
project delivery issues, including better data on the status of 
environmental reviews.

Conclusion

    Mr. Chairman, I want to conclude my comments by underscoring the 
powerful influence that U.S. DOT-sponsored and other federally-assisted 
research exerts on choices and policies at the state and local level 
and even here in Washington on the substantive debate on surface 
transportation. The Federal Government is the dominant investor in 
transportation research. As such, it is all the more important that 
federal research efforts consider the right issues and develop the 
right data, to ensure balance.
    STPP believes that the Federal Government must exert greater 
leadership in the research area, starting with specific initiatives 
that address critical knowledge gaps, ensure better data quality and 
integrity, promote more balance and intermodalism, focus on system 
needs rather than simply modal users and their concerns, and emphasize 
the needs of users and customers of the system.
    I mentioned some of the many critical gaps that now exist in our 
current research efforts. Again, I want to underscore some of the data 
challenges we confront on intercity travel. Here the information gaps 
are so pronounced that one of STPP's partners, ``Reconnecting 
America,'' is leading an effort to examine these relationships among 
the modes to get a better picture of what is happening to our intercity 
travel systems, recognizing that all three major transportation bills--
surface transportation, aviation and intercity rail--are up for renewal 
this year. The key point here is that so much of our current research 
agenda is driven by modal concerns that we overlook obvious linkages 
and interconnections among the modes, such as the serious instability 
of our intercity travel networks.
    Mr. Chairman, I wanted to offer some final comments on our level of 
effort, which is to say our funding commitments to the research agenda. 
Clearly, we need to do more, because the stakes are high. Currently, we 
are investing about $500 million annually for these purposes, slightly 
more than one percent of federal spending on surface transportation 
under TEA-21. This commitment is roughly .3 percent of all government 
spending on surface transportation and about .03 percent of all public 
and private transportation expenditures. Placing this issue in the 
context of the public, each American family is now spending nearly 20 
percent of their household budget on transportation costs, more than 
double the share of the early 60s. Simply put, federal research 
investment help drive billions of dollars in expenditures and about one 
out of every five dollars each American family spends.
    All of this is to urge this committee to provide adequate resources 
for transportation research in the TEA-21 renewal, resources that are 
critically important to the Nation's transportation efforts and other 
broader economic and societal issues. Compared to other federal 
agencies and investments by the private sector, it is clear that we are 
under-investing in transportation research and data. We have the 
opportunity to remedy this imbalance during renewal of TEA-21.
    On behalf of STPP and its many coalition partners, thank you for 
this opportunity to appear before you today and we stand ready to 
support this committee's efforts as you move forward with legislation 
in this area.

    Chairman Ehlers. Thank you. Dr. Meyer.

STATEMENT OF DR. MICHAEL D. MEYER, PROFESSOR, GEORGIA INSTITUTE 
  OF TECHNOLOGY, SCHOOL OF CIVIL AND ENVIRONMENTAL ENGINEERING

    Dr. Meyer. Mr. Chairman, my name is Michael Meyer. I am a 
professor of Civil and Environmental Engineering at the Georgia 
Institute of Technology. And over the past 25 years, I have 
conducted research on many of the important economic, social, 
and demographic factors and trends that have affected our 
nation's transportation system. From 1983 to 1988, I was also 
Director of the Transportation Planning and Development Bureau 
for the Commonwealth of Massachusetts and saw firsthand how 
such factors influence the effectiveness of our transportation 
plans and programs in dealing with the tremendous mobility 
challenges facing a growing economy while meeting important 
environmental and social goals.
    My purpose today is to highlight the need for research that 
examines these types of factors because a systematic research 
effort in dealing with the consequences to transportation of 
social, demographic, and economic trends, as is being proposed 
by my colleagues for other targeted topics, does not currently 
exist. Such questions that have often not been addressed very 
seriously from the perspective of what impact they have on the 
performance of the transportation system and most importantly 
have not been examined from the perspective of how changes in 
the future will affect this performance. This is the strategic 
nature of our research program that I will be discussing today.
    Let me first focus on some of the major trends that affect 
transportation performance. My written testimony provides much 
more detail. I will just simply summarize. Given the 
significant relationship between economic activity and the 
transportation system performance, the changing economic 
context of transportation systems is an area where significant 
thought should be given to how changes in the economy in 
production processes and then logistics will affect our 
nation's transportation systems. Some of the important trends 
and factors include the evolution of metropolitan areas as 
economic units. Many years ago, when one talked about urban 
areas, we were talking about cities. Today, we talk about 
metropolitan areas. Metropolitan areas are really the basic 
unit of analysis now with regard to our nation's economy and 
the transportation system supportive of metropolitan areas is 
critical.
    Globalization, certainly I am not the first one to notice 
globalization as an important trend. But I had a unique 
experience the past two years in participating in the U.S. 
DOT's international scanning programs where I visited Europe 
and Latin American to see how the Europeans and Latin Americans 
are preparing for some of the future trade that they are 
expecting. If even half of what is being--is predicted comes 
true, our nation's ports and the transportation systems that 
serve them will be certainly very much strained to handle the 
expected trade. Areas in terms of increasing efficiencies in 
production and logistics and in information technology based 
economy and the implications of all of those to transportation 
are serious areas that I think fall into the economic category.
    Some of the demographic and social trends that I think are 
important that we need to look at more seriously are the 
increase in population growth. According to the U.S. Census, 
the U.S. population is expected to grow to about 338 million by 
the year 2025 and to reach over 400 million by 2050. With our 
existing transportation system demanding more resources to 
maintain what we already have put in place, the Nation will 
have to think carefully and significantly on how this growth is 
to be accommodated.
    The composition of the population, interestingly large 
portions of the expected growth in population will come from 
what we are considering today as minority groups. Population 
trends suggest that many of our urban and rural areas will have 
large bi- and multi-lingual ethnic groups more than they are--
than are found today. Many transportation planners in Atlanta, 
for example, have been surprised by the results of a 2000 
census, which showed significant increases in minority 
populations in the suburban counties of the region. The 
implication is to transportation of this important demographic 
trend range from how transportation services will be provided 
for those population groups to the methods of disseminating 
information on the availability of these services.
    Aging. Just as the 1950's and 1960's saw the beginning of 
the Baby Boom generation, the decades of 2000 and 2010 will see 
its retirement. I suspect that there will be no more important 
demographic trend over the next 30 to 40 years that will have 
greater influence on our society than the aging of America. 
This could have very important implications on how travel 
information is disseminated, the importance of non-work trips 
as they relate to daily travel, the provision of transportation 
services to the elderly population, and even how we design our 
transportation facilities. The aging in the suburban areas, the 
low-income population, and rural populations also are very 
important trends.
    The question then becomes: well, who should be responsible 
for such research? U.S. DOT, the National Research Council, 
primarily the Transportation Research Board, National Science 
Foundation state DOT's non-governmental organizations provide 
an important starting point. However, I think we need to ask 
ourselves what would this research really try to be 
accomplishing and what are the characteristics of such a 
program? I have defined six criteria that I think are important 
for a program that I have suggested. One, the research should 
be well founded in any body of science and knowledge that is 
appropriate for addressing these questions, thus the organizing 
entity should have the ability to convene researchers with a 
variety of backgrounds. Two, although not absolutely critical 
for success, the organizing entity should have some familiarity 
with transportation research and with the basic relationships 
between transportation system performance and the economic, 
demographic, and social factors that influence. Three, the 
program should provide a rigorous peer review process of 
research proposals and research results, and the organizing 
entity should be credible in the eyes of both the research 
community as well as the policy-makers. The organizing entity 
should have a position of impartiality. And finally, the 
organizing entity should have an established means of 
disseminating the results of the research. These criteria lead 
me to the recommendation that, in fact, a program, as I have 
suggested, be established within the Transportation Research 
Board given that I believe that they are the most appropriate 
entity and organization to do what is--what I have suggested.
    The final area, quickly, that I have been asked to comment 
on is the issue of transportation system performance. And in my 
written testimony, I have recommended that, in fact, the Bureau 
of Transportation Statistics look very carefully at the goals 
established in ISTEA and TEA-21 and to identify measures that 
are most appropriate for determining the effectiveness of the 
legislation.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Meyer follows:]

                 Prepared Statement of Michael D. Meyer

    Mr. Chairman, my name is Michael D. Meyer. I am currently a 
professor of civil engineering at the Georgia Institute of Technology, 
and have over the past 25 years conducted research on many of the 
important economic, demographic, and social trends that affect the 
performance of our nation's transportation system. From 1983 to 1988, I 
was Director of Transportation Planning and Development for the 
Commonwealth of Massachusetts, and saw firsthand how such factors 
influenced the effectiveness of our transportation plans and programs 
in dealing with the tremendous mobility challenges of a growing economy 
while meeting important environmental and social goals.
    I join with my colleagues today in supporting the need for 
programmatic research in transportation that will so greatly foster 
future growth and productivity in this critical sector of our economy. 
I have no doubt that the proposed strategic programs on highway and 
environmental research are critical for furthering the national goal of 
providing an efficient, effective and environmentally-sensitive 
transportation system. However, the term ``strategic'' implies to me a 
focus on the ``big picture,'' taking a step back from the important 
processes, procedures and tasks that are so important for developing 
the transportation system, and asking ourselves what are the critical 
factors that make our transportation system successful (or not)? What 
are the trends and societal pressures that the transportation system 
will be expected to meet, and that might not yet be included in our 
current thinking? How do we know if the transportation system is 
performing as desired, and importantly, how can such information be 
incorporated into national, state and local decision-making?
    My purpose today is to highlight the need for research that 
examines these types of questions, because a systematic research effort 
in dealing with such critical issues, as is being proposed by my 
colleagues for other targeted topics, does not currently exist. The 
types of issues that I will be discussing today are not offered to the 
Committee as some grand revelation. Researchers and scholars have been 
looking at some of these questions for some time. However, I am 
suggesting that such questions have often not been addressed very 
seriously from the perspective of what impact they have on the 
performance of the transportation system, and most importantly, have 
not been examined from the perspective of how changes in the future 
will affect this performance. This is the strategic nature of a 
research program that I will be discussing today.
    Let me first focus on the major trends that affect the performance 
of the Nation's transportation system. Every student of transportation 
is taught that transportation is a derived demand, that is, that people 
and goods don't make a trip for the pure pleasure of travel, but 
instead do so because of the activities that occur at the destination. 
These might include work, shopping, school, recreation, personal 
business, etc. Changes in where such activities occur, who will need to 
reach such destinations and for what purpose, and traveler knowledge 
about the ability of the transportation system to meet their needs will 
clearly have great influence on travel patterns, and thus demands on 
the transportation system. Also part of this construct is a need to 
understand how such trips occur, when they are made, and the means 
used. Many years of research have shown that the price, expected travel 
time, trip reliability, and the availability of different travel modes 
greatly influence the trip decisions of individuals and firms. These 
fundamental relationships thus give rise to the questions of what 
economic, demographic, and social factors could significantly influence 
the different characteristics of travel and thus of transportation 
system performance? And importantly what research could be undertaken 
to better understand this influence?
    Economic: To a first approximation, the change in our nation's 
gross domestic product (GDP) tracks closely with the level of 
transportation use, for both passenger and freight. State and 
metropolitan transportation planners are aware of this relationship, 
and it is thus not unusual for many planning efforts to start with an 
economic forecast of a state's or region's economic future. The 
relationship between economic activity and transportation system 
performance is thus one that is well accepted in the transportation 
profession. However, whereas population and demographic trends can be 
tracked and extrapolated to the future (today's young are tomorrow's 
elderly), predicting future economic conditions and characteristics is 
more problematic. Relating such predictions to transportation needs and 
desired transportation performance is more difficult still. And yet, 
given the significant relationship between economic activity and 
transportation system performance, this is an area where significant 
thought should be given to how changes in the economy, in production 
processes, and in logistics will affect our nation's transportation 
system.
    My experience in transportation planning and policy over the past 
25 years suggests to me that transportation officials are often 
``surprised'' by unexpected characteristics of the production process 
and, most importantly, by what is expected from the transportation 
system. For example, it took some years for many transportation 
officials to recognize the ``just-in-time'' production revolution in 
manufacturing. Such a production process is strongly dependent on a 
reliable delivery system, often with production parts originating in 
different parts of the world. Reliability and intermodal efficiency 
thus become critical characteristics of a transportation system that 
can support a production process based on just-in-time deliveries.
    The following are just some of the economic factors and trends that 
will have important impacts on future demand for transportation.

        <bullet> Metropolitan Areas as Economic Units: One of the most 
        significant population trends over the past 100 years in the 
        U.S., and indeed the world, has been the increasing proportion 
        of the Nation's population that lives in urban areas. Fifty 
        years ago, this meant cities. Today, this means metropolitan 
        areas. Metropolitan areas are now the economic ``machine'' that 
        produce the wealth of the Nation. Tied together by 
        telecommunication services and transportation facilities, 
        metropolitan economies have also become the major national 
        links to the global economy. How does transportation system 
        performance relate to the effective functioning of such 
        metropolitan areas? What is the degree of exchange or 
        interchange between metropolitan areas, and how does this 
        depend on efficient transportation? To what extent can 
        telecommunications substitute for what was traditionally a 
        physical movement afforded by the transportation system? These 
        are critical questions for economic success in the future.

        <bullet> Globalization: Certainly, many pundits have 
        identified globalization or the global market as one of the 
        defining characteristics of our age and that of the future. 
        Thus, my suggesting this characteristic of our economic future 
        should come as no surprise. Some recent estimates from the U.S. 
        Bureau of Transportation Statistics illustrate how important 
        trade is to the U.S.\1\
---------------------------------------------------------------------------
    \1\ U.S. Bureau of Transportation Statistics, U.S. International 
Trade and Freight Transportation Trends, Feb. 2003.

                The U.S. is the world's largest merchandise-trading 
                nation, accounting for 12 percent of the world's 
                merchandise exports and about 19 percent of the world's 
---------------------------------------------------------------------------
                merchandise imports in 2000.

                By 2001, U.S. international merchandise trade was more 
                than 20 times greater than in 1970 (while total 
                economic output was about 10 times greater).

                From 1990 to 2001, the value of U.S. international 
                merchandise trade more than doubled, from $891 billion 
                to over $2 trillion (in inflation-adjusted dollars). 
                This growth represented an average annual rate of eight 
                percent while the corresponding annual rate for the GDP 
                was three percent.

                The ratio of U.S. merchandise trade to the value of 
                GDP reached about 22 percent in 2001, whereas in 1990 
                it was 13 percent. However, a more relevant measure of 
                the importance of goods exports to the U.S. economy is 
                the percentage of merchandise exports to goods GDP. 
                This ratio was 43 percent in 2000, whereas in 1970 it 
                was 15 percent.

                In 2001, the U.S. transportation system carried $736 
                billion worth of merchandise exports and $1.2 trillion 
                of merchandise imports.

            I had the opportunity over the past two years of visiting 
        Europe and Latin America as part of the U.S. DOT's 
        international scanning program, with a focus on discovering how 
        the Europeans and Latin Americans have prepared for, and what 
        their expectations are, regarding future trade. The focus of 
        both scans was on the implications to our nation's 
        transportation system. If even half of what is predicted comes 
        true, our nation's ports and the transportation systems that 
        serve them will be severely strained to handle the expected 
        trade.

            In Latin America, for example, the extension of NAFTA in 
        some form to other parts of the region could have a significant 
        impact on not only our border states, but on all states that 
        have economic linkages to that market. Table 1, for example, 
        shows the states that export more than $400 million annually to 
        different parts of Latin America. As can be seen, all regions 
        of the country are participating in this important trade 
        relationship. The globalization of the market place, and its 
        implications to transportation, are thus critical factors in 
        future success of our nation's economy.

        <bullet> Increasing Efficiencies in Production: A market 
        economy thrives on efficiency. The extent to which costs can be 
        reduced, economies of scaled gained and uncertainty in the 
        production process removed, the economy will benefit. It is not 
        surprising therefore that our nation's goods movement 
        industries (i.e., rail, trucking air cargo, and waterborne) are 
        continually seeking ways of reducing costs. With the increasing 
        globalization of the economy, such efficiency becomes even more 
        important to compete effectively in the world market. Free 
        trade agreements, globalization of the production process, 
        diversification of employment sites, innovations in goods 
        movement that increase productivity but which shift flows 
        (e.g., containerization), and larger capacity/faster goods 
        movements all have important impacts on our nation's 
        transportation system. To provide the service necessary to 
        support these trends in goods movement, transportation 
        officials not only need to remove the bottlenecks that impede 
        efficient movement of goods, but also to provide enhanced 
        reliability of transportation system performance, from origin 
        to destination.

        <bullet> An Information Technology-Based Economy: Information 
        technologies pervade every aspect of modern life. They have 
        revolutionized the way we do business, how we educate our young 
        and retrain our workers, the manner in which we now amuse 
        ourselves in entertainment and recreation, and how we keep in 
        touch with world events and with each other. In logistics, 
        information technologies have permitted the just-in-time 
        production processes with their communications and global 
        positioning capabilities. In transportation, it is still not 
        clear whether information technologies will be a substitute for 
        travel, or because of the ease of communication cause more 
        desire and need for physical movement. For example, although 
        tele-shopping can substitute for a trip to a store, there is 
        some evidence to suggest that the ease of doing so has created 
        more package delivery trips, thus raising important questions 
        about how such freight movement should occur in the most 
        efficient manner.

            The impact of information technology on the economy, on 
        our daily activities, and on transportation is perhaps the most 
        important factor influencing future transportation system 
        performance. This is also a characteristic of our society that 
        is most difficult to predict. The timeline for advances in 
        information technologies is short; the knowledge of what is 
        being contemplated is often guarded; and the indirect impacts 
        on daily life often unexpected. The private transportation 
        sector is often in a position to respond quickly to changes in 
        technological capability given the relatively short timeframe 
        in its investment strategies (two to five years). However, the 
        public sector investment portfolio often occurs over a 20- to 
        25-year timeframe. It is critical for such investment horizons 
        that intermediate scans be conducted on the influence of 
        technology on societal behavior. This type of research might be 
        more speculative than others suggested in this testimony, but 
        my belief is that it might have greater impact on the types of 
        investment decisions that are made by transportation agencies.

    Demographic/Social: Every ten years, the transportation profession 
devotes considerable attention to the latest demographic data from the 
U.S. Census. And every ten years, the transportation profession seems 
surprised by some findings of this data that could, in fact, have been 
anticipated. For example, the 1990 Census showed a very substantial in-
migration of non-U.S.-born citizens and non-citizens into many of our 
nation's metropolitan areas. In fact, in some cities, this in-migration 
represented the largest portion of the population growth in the urban 
area. This phenomenon has had important consequences to many components 
of the urban social fabric--education, social services, welfare, and 
transportation. We simply did not anticipate such growth, and certainly 
had not included it in many of our transportation plans and analyses.
    Figure 1 shows a very simple relationship between several 
demographic and population characteristics and the resulting travel, in 
this case measured in vehicle miles traveled. As shown, the important 
factors that have affected the amount of personal travel relates to 
such things as growth in population and jobs, where this growth has 
occurred (during the last 30 years primarily in the suburbs), 
characteristics of the household, and importantly, changing 
characteristics of mobility such as the increasing frequency of 
travelers with drivers licenses and the relative decline in the 
availability of modes of travel in comparison to the automobile. I do 
not suggest that Figure 1 captures all of the demographic and 
population factors that influence travel, but it does illustrate how 
several key factors work together to place increasing demands on our 
nation's transportation system.
    Some of the demographic/social trends that are going to have 
significant consequences to our nation's transportation system include 
the following:

        <bullet> Population Growth: According to the U.S. Census, the 
        U.S. population is expected to grow to about 338 million by the 
        year 2025, and reach just over 400 million by 2050. This growth 
        will come from natural increases in current population as well 
        as immigration. The trends over the past 40 years suggests that 
        much of this population growth will occur in metropolitan 
        areas, thus adding to the transportation challenges that many 
        of our cities are currently facing. The implications to 
        transportation investment and to the impacts on the environment 
        of this growth are significant. With our existing 
        transportation system demanding more resources to maintain what 
        we have already put in place, the Nation will have to think 
        carefully and significantly on how this growth is accommodated.

        <bullet> Population Composition: Interestingly, large portions 
        of the expected growth in population will come from what are 
        considered today as minority groups. Population trends suggest 
        that many of our urban and rural areas will have large bi- or 
        multi-lingual ethnic groups, more than are found today. Figure 
        2, for example, shows the growth in minority population in the 
        10 metropolitan Atlanta counties from 1990 to 2000. Many 
        transportation planners in the Atlanta region have been 
        surprised by the tremendous increase in Hispanic, Asian, and 
        African-American population groups in the suburban counties. 
        The implications to transportation of this important 
        demographic trend have not been examined in any significant 
        way. They range from how alternative transportation services 
        will be provided for these population groups to the methods of 
        disseminating information on the availability of these 
        services.

            Immigration also presents special challenges to 
        transportation planners. Immigrants tend to locate in 
        metropolitan areas (by 90 percent), and within metropolitan 
        areas, in central cities over suburbs (55 percent to 45 
        percent). For example, the cities with the largest increases in 
        zero-vehicle households between 1980 and 1990 were Miami, San 
        Diego, and Phoenix, cities experiencing large increases in 
        Spanish-speaking immigrants. As immigrants become assimilated 
        into society, it is likely that they will represent a new wave 
        of automobile drivers. In the short-term, transportation 
        options that provide access to jobs will become a major issue.

        <bullet> Aging: Just as the 1950s and 1960s saw the beginning 
        of the Baby Boom generation, the decades of 2000 and 2010 will 
        see its retirement. The 2000 Census saw for the first time that 
        there are as many Americans over the age of 35 as there are 
        under. I suspect there will be no more important demographic 
        trend over the next 30 to 40 years that will have greater 
        influence on our society than the aging of America. Mobility 
        for the elderly, especially given that this group now more than 
        ever will be driving into their later years, creates a special 
        challenge to transportation planners. This could have important 
        implications on how travel information is disseminated, the 
        importance of non-work trips as they relate to daily travel, 
        and the provision of transportation services to the elderly 
        population.

        <bullet> The Aging of Suburbia: Some of the preliminary 
        results of the 2000 Census suggest that large numbers of 
        Americans, instead of retiring to the traditional warm weather 
        climates of the South and Southwest, are either staying where 
        they have lived for many years, or are moving to be closer to 
        family. And importantly, many of these homes are in the 
        suburbs. This will have important consequences for health care, 
        housing, and transportation in those cities that might not have 
        yet faced these issues at such a magnitude.

        <bullet> Low-income Population: Trends in income 
        characteristics over the past 30 years suggest that the 
        disparity between the higher and lower income quartiles of the 
        population is becoming greater over time. The economic 
        prosperity of our nation over this time period has not 
        benefited everyone. One of the disturbing aspects of this 
        phenomenon is the number of elderly who fit into the low income 
        group. Table 2, for example, shows the percent of the 
        population over 65 years of age in selected cities that are 
        below the poverty level. This issue has important implications 
        for transportation in terms of delivering critical services to 
        this part of our population, as well has supporting a quality 
        of life that all our citizens deserve.

        <bullet> Rural Population: Although much of the future 
        population growth will occur in metropolitan areas, a 
        substantial amount of our nation's population will still live 
        in rural areas. Much of this population will also be aging in 
        place, thus creating similar types of challenges as those 
        mentioned above for the aging of the suburbs. Telecommunication 
        technologies are providing, and will likely continue to 
        provide, important services in health care and educational 
        opportunities. However, mobility for an aging rural population 
        will likely be an increasing concern for state and rural 
        communities.

    Social trends are very much intertwined with the economic and 
demographic trends discussed above. Thus, the increasing members of 
minority populations, increasing urbanization, the aging of the 
population, and increasing disparity between income groups all affect 
the social interactions that occur in a community. The transportation 
profession has made great strides in understanding the social impacts 
of transportation system performance, and the distributional effects 
that such impacts have on different population groups. However, much 
has yet to be known. The strategic environmental research program being 
discussed today offers many important topics on social impacts that 
deserve increasing attention.
    There are two important social trends that I suspect over the long-
term will be very important to the way we live as a society. The first 
relates to the increasing disparity among income groups in the Nation, 
and what this says about the ``sense of community'' that has served as 
an important foundation for the development of this nation over two 
centuries. In an increasingly connected society, mobility becomes an 
important pre-requisite for success. Not only does mobility provide a 
means of reaching jobs and thus of assuring an opportunity for making a 
living, but it also provides accessibility to health care, education, 
recreation, shopping, in short, all of the aspect of daily life that 
provides the quality of life for our citizens. With limited 
transportation resources, transportation officials naturally invest in 
those parts of the transportation system that have the greatest levels 
of congestion or the highest accident rates. But I would argue that 
providing mobility options is different than reducing congestion. 
Congestion is a simply a symptom of deficient system performance, and 
certainly one that needs to be addressed. However, our focus should be 
on mobility. . .for all segments of society.
    The second social trend that will become more important, in my 
opinion, is public concern for environmental quality. Surveys have for 
years indicated that the public is concerned about the degradation of 
the environment and that steps should be taken to preserve the quality 
of our surrounding natural environment. A growing population and 
concomitant increases in development will have important consequences 
to our nation's natural resources. We are already seeing in many parts 
of the Nation, including in my own metropolitan area of Atlanta, 
concern about the over-consumption of such resources, resulting in 
depleted water supplies and poor air quality. I have just completed a 
research project that examined how environmental considerations can be 
included much earlier in our transportation planning and decision-
making processes so that not only will project development occur much 
more expeditiously, but better decisions will result. I believe that 
the social context of our environmental quality and the importance of 
including these concerns into transportation decisions is one of the 
factors that will strongly influence transportation policy at all 
levels of government in future decades. Research is needed now to pave 
the way.
    A strategic research effort to understand the effects of these 
economic, demographic, and social factors will provide important 
information to decisions on future investments in the transportation 
system. Such an effort would include many different disciplines, with 
strong participation from the social sciences. Social scientists have 
made important contributions to our understanding of how society 
functions, and how investments such as those directed to transportation 
can influence the evolution of development and civic form. However, the 
application of social science research to transportation has not been 
done in a systematic way as is found in other types of transportation 
research. Thus, I do not believe that our nation is gaining as much as 
it could from the benefits of such research if applied in a strategic 
and comprehensive way.
    For example, one of the most important contributions that could be 
made by social scientists is in evaluation research, that is, examining 
the impacts and influences of changes in transportation system 
performance on economic, demographic and social variables. This type of 
research depends on a rigorous experimental design that controls for 
external influences on the phenomenon under investigation so that the 
researcher is able to determine causality. With the massive amounts of 
investment in our nation's transportation system, over $140 billion 
from all levels of government, it is incomprehensible why we do not 
have a better understanding of the impacts of such investment. I was a 
member of a Transportation Research Board (TRB) panel that, at the 
request of Congress, examined the effectiveness of the Congestion 
Mitigation and Air Quality (CMAQ) program. One of the major findings of 
this effort was that very little effort was made to evaluate the impact 
of CMAQ investments on air quality or on transportation system 
performance. The panel recommended that a portion of the CMAQ funds be 
set aside to provide the wherewithal to conduct such investigations. 
Much of this type of research would depend on the application of social 
science methodology and research design.
    Research supported by the U.S. DOT, National Research Council 
(primarily the Transportation Research Board), National Science 
Foundation, state DOTs, non-governmental organizations, and 
philanthropic foundations provide an important starting point for the 
type of research I am proposing. However, much of the research 
supported by transportation agencies is focused on near-term 
applications and near immediate value added to an agency's operations. 
Very little interest has been shown by transportation agencies on the 
broader types of questions posed above. The closest that substantial 
amounts of research have been available for such research is in the 
area of human factors where there are important questions concerning 
the relationship between human characteristics and driver behavior.
    Important studies have been conducted by the TRB on the types of 
policy questions suggested above. However, these have usually been in 
response to Congressional requests included in legislation, and thus 
subject to the interest of members of Congress at a particular point in 
time. And until recently, the National Science Foundation (NSF) has 
provided little support for such research, with the rationale that it 
would rather focus its limited resources on issues for which a large 
governmental research base was not available. Importantly, the 
increasing attention of NSF to transportation has focused on the 
application of advanced technologies and improvements to network 
efficiency, not the type of policy questions that could have important 
repercussions on whether such technologies will be used.
    Thus, I conclude that important policy questions that are critical 
for the future success of our transportation system are not being 
examined in any systematic way. Social science research is critical to 
answering some of these questions, and the best way of focusing such 
capabilities is by targeting resources on these types of policy 
questions. What is the best means of doing this?
    Determining the most appropriate entity for guiding, managing or 
conducting this type of policy research depends very much on the 
desired characteristics of the approach to be adopted. There are many 
organizational models that could be used for undertaking this type of 
research. Given the policy nature of the questions being asked, a 
logical home might very well be in the U.S. Department of 
Transportation. Given the desired application of social science 
knowledge and methodology to these questions, the National Science 
Foundation with its many years of experience in social science research 
could provide a suitable home for such a program. My own criteria for 
selecting an organizational framework include the following:

        1. The research should be well-founded in any body of science 
        and knowledge that is appropriate for addressing these 
        questions. Thus, the organizing entity should have the ability 
        to convene researchers with a variety of backgrounds.

        2. Although not absolutely critical for success, the 
        organizing entity should have some familiarity with 
        transportation research and with the basic relationships 
        between transportation system performance and the economic, 
        demographic, and social factors that influence it.

        3. The program should provide a rigorous peer-reviewed process 
        of research proposals and research results.

        4. The organizing entity should be credible in the eyes of 
        both the research community as well as the policy-makers that 
        will use the research results.

        5. Similar to number 4 in establishing credibility, the 
        organizing entity should have a position of impartiality that 
        shelters it from pressures to come up with an answer that best 
        suits the conventional wisdom of the day.

        6. The organizing entity should have an established means for 
        disseminating the results of the research to the research 
        community, practitioners, and most importantly to policy-
        makers.

    These criteria lead me to the National Research Council, and more 
specifically the Transportation Research Board (TRB) as the most 
appropriate means of accomplishing the type of research described 
previously. The TRB has decades of experience in bringing together the 
types of researchers that would be necessary for this research. As 
noted previously, however, most of the research managed by the TRB is 
defined either by the sponsoring agencies (i.e., the state 
transportation agencies or transit agencies) or through Congressional 
requests. Thus, I believe a new research program under TRB auspices is 
needed, one that is modeled after the successful National Cooperative 
Highway Research (NCHRP) and Transit Cooperative Research (TCRP) 
Programs, but where the research topics are selected by a panel 
(perhaps a permanent subcommittee of TRB's Executive Committee) that 
focus on important policy questions. We need a more systematic program 
for conducting such policy research, and the TRB is the most 
appropriate entity for doing this.
    There is one area of policy research where I believe the federal 
transportation agencies can play an important role, and this is in 
measuring the performance of the transportation system with respect to 
the national goals outlined in both ISTEA and TEA-21. Both ISTEA in 
1991 and TEA-21 in 1998 represented an important turning point in 
federal transportation legislative history. In many ways, these 
important laws provided a point of departure for the substance and 
intent of the federally-aided transportation program that was to be put 
in place subsequent to the completion of the Interstate highway 
program. They defined national goals for transportation relating to 
mobility, safety and security, economic vitality, system preservation, 
and environmental protection. But nowhere that I have been able to find 
is there a reporting of how effective transportation investment is in 
achieving these goals.
    The Bureau of Transportation Statistics of the U.S. Department of 
Transportation has developed a long list of ``transportation 
indicators'' that are monitored annually to provide a national snapshot 
of how the transportation system is performing. When compared over 
time, national trends in this performance can be identified and 
hopefully related to needed changes in policy. However, although this 
list is commendable in its comprehensiveness, it is difficult to use in 
gauging whether Congressionally-defined national transportation goals 
are being met through the investments made by the 50 state departments 
of transportation (DOTs) and hundreds of metropolitan planning 
organizations (MPOs).
    Such an effort would be challenging. The first issue is defining 
the most appropriate measures relating to these national goals. The 
transportation engineering profession has done a good job of defining 
what would be meant by ``system preservation.'' However, I suspect that 
there would be strong debate on what constitutes the best way of 
measuring mobility, economic vitality, national security, and even 
environmental protection. Research is needed in both the social and 
natural sciences to identify the most appropriate way of determining 
the effect of transportation investments in these areas.
    A second issue relates to the spatial and temporal scale of 
application of performance measurement. For example, if one wants to 
understand at a national level the impact of significant changes in 
transportation investment on economic vitality, it is not likely that 
measurable differences will occur in a short period of time. It takes 
time to provide the infrastructure and services that result from new 
investment opportunities and thus, in many ways, the impacts of 
changing levels of transportation investment will likely occur many 
years after this investment is made available. As noted previously as 
well, very few transportation agencies conduct evaluation studies of 
the effects of transportation investment. Thus, at the level of 
individual projects or even state or regional programs, we simply do 
not know what impact this investment is having on non-traditional 
measures of performance (we are pretty good at measuring trip travel 
times and speeds). In both cases, historical analysis of previous 
transportation investment and what happened to key indicators of 
societal benefits can be used to discern what will likely happen in the 
future. Such an approach to policy analysis is strongly founded in the 
social sciences.
    A third issue relates to an institutional reluctance to define a 
set of performance measures that capture the many different aspects of 
transportation system performance and the relationship to its societal 
context. Many state DOTs and MPOs have expressed concern that such 
performance measurement could be used in a scheme to allocate federal 
transportation dollars. Others are concerned that performance measures 
might be used to rate the effectiveness of one agency versus another. 
Although some interesting research could be conducted by political 
scientists and organizational theorists on strategies to overcome this 
reluctance, I suspect that success in overcoming this barrier will 
relate more to policy guidance from the Federal Government than it will 
on the results of social science research.
    The Bureau of Transportation Statistics is uniquely positioned to 
support the policy research that can lead to a better measurement of 
national achievement of transportation goals. It already has begun to 
collect data on national indicators of performance. However, although 
this list is useful in understanding the many different dimensions of 
transportation system impacts on our society, it is simply too long for 
use in determining whether national goals as set forth in TEA-21 are 
being achieved. A more targeted set of measures, relating specifically 
to these goals, should be established and monitored over time.
    Mr. Chairman, I appreciate the opportunity to speak before the 
Committee. Our nation is blessed with substantial research capabilities 
that can be tapped to better position ourselves for the challenges and 
opportunities we will face in the future. Global economic competition 
will be a driving force in future years. Transportation system 
performance will very much be a part of our ability to compete 
effectively in this arena. Our economy and our quality of life depend 
on an efficient and effective transportation system. The theme of my 
testimony is that much of the transportation research conducted in this 
country is focused on very important issues that will improve our 
abilities in very targeted areas. But very little research in being 
conducted in a systematic and programmatic way on the bigger policy 
issues that could have monumental impacts on how the Nation deals with 
future challenges. We need to be ahead of the game on these issues; to 
anticipate what challenges they present to national, state and local 
decision-makers; and to pro-actively put in place policies and programs 
that will meet these challenges, rather than reacting to them once they 
have occurred.
    Thank you for your time and attention.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               Discussion

     Are We Spending Enough on Transportation Research? How Should 
                       the Funding Be Allocated?

    Chairman Ehlers. I thank the panel for their testimony. It 
has been extremely helpful, and I noticed in several cases you 
have reinforced each other's suggestions. We will now turn to 
questioning, but let me first observe in the last week, as I 
have, for the first time in my life, really examined carefully 
the whole structure of transportation research, I certainly 
have a number of concerns. And frankly, as an experienced 
research person, I would be very reluctant to try to head up a 
research organization that is this bifurcated and subject to 
outside direction, to put it politely, by the Congress and 
others. And I think it would be almost impossible to manage the 
way it is structured and directed. And so my goal is to try to 
really put together a program that makes sense from the 
research standpoint by defining, first of all, what we are 
trying to accomplish with the research, and secondly, how can 
we best accomplish that.
    And I am not sure that question was asked in TEA-21 or 
ISTEA, but at the same time, I recognize the difficulty of 
directing research. I was reminded by that this morning when 
one of my colleagues made a comment about Columbus, who of 
course, went on a great research trip to try to find a route to 
bring home some spices. And obviously, his entire project 
failed tremendously, because he didn't come back with any 
spices at all. So we have to keep in mind that research is a 
very uncertain quantity. And nevertheless, it can be managed 
and directed in a way that is very fruitful.
    I will begin the questioning, and I will yield myself five 
minutes.
    First of all, I am going to ask some simple yes and no 
questions, and then we will get into a little more depth than 
that. First question, and I will just go right down the line, 
and normally I don't ask yes or no questions, because I am not 
an attorney, thank goodness. But the first question is: do we 
currently invest enough funding in surface transportation 
research? Mr. Frankel?
    Mr. Frankel. I think the answer to that is there can always 
be more, sir, but I think the answer is yes. I think there is a 
good record of investment, and that investment in research is 
growing.
    Chairman Ehlers. Mr. Harm, do we invest enough?
    Mr. Harm. No, I think we can always expand. You mentioned 
even in your own opening comments about the 1/2 percent of one 
percent that we invest based on that, and all of the other 
industries are in the five to 10 percent, so I think we--there 
is room to expand.
    Chairman Ehlers. Dr. Walton.
    Dr. Walton. No, sir.
    Chairman Ehlers. Ms. Siggerud.
    Ms. Siggerud. Mr. Chairman, our work didn't specifically 
address that issue, but I can say that what we think is 
important in terms of any resources that are devoted, increased 
or not, is building an accountability in using those resources.
    Chairman Ehlers. Okay. Ms. Canby.
    Ms. Canby. Mr. Chairman, by any measure, I would say we are 
under-investing in research in transportation.
    Chairman Ehlers. Dr. Meyer.
    Dr. Meyer. No, we are close. No.
    Chairman Ehlers. Okay. The second question: the TEA-21 
reauthorization, if the total amount of funding does not grow 
or grows only slightly, should we still increase funding for 
research? In other words, should we give it a higher priority 
and within the context of essentially the same funding? And 
this only has to be answered by those of you who answered yes 
already. Obviously, if you said no before, I know what your 
answer is. Mr. Harm.
    Mr. Harm. I think it should be increased more so than just 
the--if TEA-21 or the next, what do you call it, TEA Next?
    Chairman Ehlers. TEAM LOU.
    Mr. Harm. TEAM LOU goes--the--I think we--it should still 
be considered even an increase--higher increase.
    Chairman Ehlers. Dr. Walton.
    Dr. Walton. It should be increased.
    Chairman Ehlers. Ms. Siggerud, any comment?
    Ms. Siggerud. Well, I am not sure I said yes, but----
    Chairman Ehlers. No, you didn't. Well, I am not sure what 
you said.
    Ms. Siggerud. I will try to be more clear this time. What 
we are looking for in terms of reauthorization is building in 
accountability and peer review and external stakeholder 
involvement to direct the program in a quality and relevant 
way.
    Chairman Ehlers. In other words, you want more for the same 
money. Ms. Canby.
    Ms. Canby. I would say we could find ways to do some 
reallocation.
    Chairman Ehlers. Dr. Meyer.
    Dr. Meyer. Mr. Chairman, in a previous life, I was Director 
of Transportation Planning and thus responsible for research 
and--in the one state at least. And I am convinced that the 
value of that research more than pays for itself in terms of 
greater efficiencies and products, so the answer is clearly yes 
in my opinion.
    Chairman Ehlers. Yeah, that has been my experience, too, 
particularly in applied--more applied research such as the 
Department engages in. The follow-up then is do you believe the 
current funding is balanced between the different areas of 
research, such as the research on pavement, in other words the 
hardware or research on operations, research on policies? You 
may have some other breakdowns you would want. What I am really 
interested is not whether or not you think it is balanced now, 
but how would you recommend altering the balance or allocation 
at this point? Mr. Frankel. Well, let us start from the other 
end this time, Dr. Meyer.
    Dr. Meyer. Well, given my statement, Mr. Chairman, I think 
the answer to that is fairly clear. Given that I argued for 
more emphasis on policy research, again, my sense is that a lot 
of the research that is being done is very tactical, operations 
oriented, and I think that is very important. To me, the policy 
research is, in many ways, the brains of what we are trying to 
do, anticipate the future, figure out where we--how we can 
position ourselves, so I would strongly recommend that more 
attention be given to the policy research side of things.
    Chairman Ehlers. Ms. Canby.
    Ms. Canby. Mr. Chairman, I would suggest that, following on 
Dr. Meyer's comments, that we do as he suggests and also focus 
more on integrating all of the transportation modes as one 
system rather than looking at them singly and independently. 
They are one system. That is how the public sees it.
    Chairman Ehlers. Ms. Siggerud, do you have any comment 
based on your research?
    Ms. Siggerud. Yes, I do. Our research essentially boiled 
down to really needing a strategic focus for the highway 
research program as a whole. I would strongly suggest that the 
strategic goals set out for the Federal Highway Administration, 
mobility and productivity, human natural environment, security 
and safety be looked at and make sure that those are being 
treated well in any kind of a new focus of the research 
program.
    Chairman Ehlers. Thank you. Dr. Walton.
    Dr. Walton. Mr. Chairman, as I indicated, I think that the 
notion of a strategic business plan for transportation R&D is 
vitally needed. And in fact, it is not only a top-down but a 
bottom-up approach and clearly, beyond a more rigorous approach 
than is currently available within the agency. And in so doing, 
there would be a natural reallocation based on the vision and 
the priorities.
    Chairman Ehlers. Mr. Harm.
    Mr. Harm. We are really good at doing the rocks and 
pavements and bridges, but I think we really need to start 
expanding in the multidisciplinary areas that other people have 
talked about, the human factors and everything else. So I think 
we need to probably go away a little bit, because we can't just 
build out of this. We have to have the innovation in some of 
the technology issues that we have to deal with, this 
congestion issue and everything else. So we can't build out of 
it, so we have to reallocate a little bit. But we still need to 
do some of the basic rocks and pavements and stuff, too.
    Chairman Ehlers. Yeah. Mr. Frankel.
    Mr. Frankel. Mr. Chairman, as you know, I think we have 
made progress in the Department under TEA-21, in particular, in 
developing a more strategic vision of transportation research, 
surface transportation research that is reflected in the 
development of a research plan, research strategic plan, on an 
annual basis and relating those to the Department's strategic 
goals. So I think there has been progress. I am sure there 
needs to be more progress, and we will talk about that, I am 
sure. And I know it is a real interest of yours in terms of 
coordination across modes.
    Having said that, obviously the institutional history of 
the Department is organized in modal administrations. Much of 
the research program develops from the ground up, if you will. 
And as you also indicated in your remarks, much of it is 
directed to applied--what I would called applied research. This 
is--I am a lawyer, and not a--don't have a research background, 
but nonetheless, I think would be defined in that way with more 
immediate impacts.
    In terms of the more--of this more strategic vision across 
modes, I think that much of this can, and we hope will, come 
from the Office of the Secretary. But frankly, it is difficult 
to get support for funding of research, including policy 
research, within the Office of the Secretary, as I am sure you 
are well aware. It is something generally, respectfully, 
frowned upon in the appropriating process in this institution. 
And oftentimes the research money that does come to the Office 
of the Secretary, our office, policy office is heavily or 
substantially earmarked. So that while the goals you describe 
and have been talked about here are, in my opinion, 
appropriate, ones that we should continue to work towards, I 
think we have to deal with some institutional arrangements that 
obstruct or constrain the achievement of those goals in really 
shaping a strategic vision and establishing the priorities and 
the allocations along the lines I think implicit certainly in 
your question.
    Chairman Ehlers. Thank you all. My time has expired. I 
recognize the gentleman for Colorado.
    Mr. Udall. Thank you, Mr. Chairman. I, too, want to thank 
the panel for your testimony. And I think we are narrowing down 
the options and the opportunities that we have. And I think the 
Chairman's questions were really getting us off in the right--
heading off in the right direction.
    Turning to Secretary Frankel, I understand you have got a 
tough job. You have got to do a lot of things with limited 
resources, and I know you are pleased with what you have 
accomplished, and always you want to do more. When can we 
expect the Administration to present a proposal in regards to 
reauthorization for surface transportation programs, at least 
an outline or a list of priorities for retention or alterations 
of existing programs?
    Mr. Frankel. Congressman, the Administration's bill is in, 
I think I can say this, in the last stages of the clearance and 
interagency review process, something that I am getting 
educated in. Unlike some of my friends, I have never gone 
through this on this side of the table, if you will. But I have 
every hope and expectation that that process will be completed 
very soon. I can--I think I can see the finish line, and I 
think we are within a matter of a couple weeks, frankly, being 
able to introduce the Administration's bill. I hope I won't get 
in trouble with the Director of OMB for saying that, but I 
think that is the case.
    Mr. Udall. In that spirit, what did you base your fiscal 
year 2004 request upon if you haven't yet developed your 
priorities for reauthorization?
    Mr. Frankel. Well, and I--it is--your question really 
includes, but I know goes beyond the research agenda and----
    Mr. Udall. Yes.
    Mr. Frankel [continuing]. Our process of developing this 
bill began in very early 2002. We have been at this for 14 or 
15 months. As a matter of fact, the Secretary testified, not to 
this committee, but testified to other Committees in the House. 
Early in 2002, we testified before Senate Committees at a 
similar time laying out the goals and principles for the 
reauthorization. And there has been a great deal of interaction 
between the budget process and the development of this bill so 
that I think it is fair to say that the President's budget for 
fiscal year 2004, at least as--with regard to our Department, 
incorporates principles, not only funding levels, which I am 
sure you are all aware of, but also principles and programs, 
which will be contained within the proposal. So it really is 
very much an indicator of what is going to be in the bill even 
though the bill itself has not formally been introduced.

                     Policy vs. Technical Research

    Mr. Udall. Thank you. I thought I would take my remaining 
time and focus on Dr. Meyer and Ms. Canby, who both have a 
connection to Massachusetts, I note, in the public sector. You 
all talked, I think, with some real heft about the need to 
focus a bit more on the policy side of the research equation 
versus the technical side. And I know--and as I was trying to 
say to Secretary Frankel, the pressure is to get the jobs done 
in the states that are already in front of us. And so I think 
research dollars tend to be directed at those technical fixes. 
How would you go about making more of an emphasis on the policy 
research side while not shortchanging the technical research 
side?
    Dr. Meyer. Are you referring to in terms of 
administratively how would one do that or the types of issues?
    Mr. Udall. It is a wide open question, yeah. I am trying to 
get us to where you all suggest we should head.
    Dr. Meyer. Well, I--there are many answers to that 
question, I think. I guess I have been around long enough to 
have been--I have gone through several cycles in terms of 
investment and non-investment and what the policy issues are 
and they are not. I can't tell you how many times I have been 
to conferences and meetings where the phrase, ``It is all 
institutional; it is not technical. If we can only figure out 
the institutional issues, we would be able to do things much 
quicker.'' That is policy research. That is institutional 
research. That is looking at public administration. That is 
looking at organizational theory, all of those types of aspects 
that could be brought to bear in terms of how to become more 
efficient in those types of things. I believe that the way one 
goes about doing this is as I have suggested, which is you set 
up a program not under the DOT, because I do believe, as was 
mentioned earlier, that there are certain pressures in the U.S. 
DOT that are probably going to be somewhat insurmountable in 
terms of focusing that particular research program. I think it 
does need to be a separate program. I think it does need to be 
a peer review program. I think it does need to be a program 
where social scientists and engineers and technologists and 
others can really come together to look at these issues and 
really anticipate what is going to happen.
    So my recommendation of how to do this without seriously 
affecting, if you will, the technical-oriented research program 
is really to set up--and I am not talking about a big program. 
I am talking about a fairly modest program. And policy 
research, a fairly minor amount of money can go an awful long 
ways in terms of really addressing these issues so that we are 
ahead of the game rather than behind the game when the issues 
come into the floor.
    Mr. Udall. Ms. Canby, we haven't left you much time, but--
--
    Ms. Canby. That is all right. I mean, we expect this with 
my friend here.
    Dr. Meyer. I beg your pardon.
    Ms. Canby. A couple of areas, Congressman. One, the 
environmental cooperative research program, I think, would add 
a perspective to the research field that we are missing today 
and the items that have been identified in a study published by 
TRB last fall. Yeah. The concept of a metropolitan planning and 
research program, as Dr. Meyer suggested. Metropolitan regions 
are really economic engines in this country today, and I don't 
know that we are focusing enough research attention on these 
entities and the complexities of those areas. And third, the 
need for the interdisciplinary research that possibly within 
the National Academy of Sciences family. Somebody recently told 
me just by way of illustration that they were attending a 
session, which is sponsored by TRB and the Institute of 
Medicine. And the comment was, ``You don't see that combination 
very often.'' I say indeed we don't and indeed we should across 
many more disciplines.
    Mr. Udall. Thank you. And I thank the Chairman for the 
time. I think we really need to work toward including the end 
users in these approaches, and I would hope that the social 
science community and others can look through the eyes of the 
commuters and all of the general public that is, in the end, 
being affected by these programs.
    Chairman Ehlers. The gentleman's time has expired. I am 
pleased to recognize the gentleman from Minnesota, Mr. 
Gutknecht.

                  Metered Ramps and Public Experience

    Mr. Gutknecht. Thank you, Mr. Chairman. And first of all, 
let me say to the panel, these are very busy times here in 
Washington, and I want to thank the staff for assembling such a 
distinguished group. And I apologize we don't have a better 
attendance, but there are an awful lot of things going on here 
in Washington, especially right now.
    I want to come back to a point, because we have had some 
debate back in my state capital in St. Paul about metered 
ramps. And there--I think the jury is still out. My own opinion 
is there are certainly times and places they make some sense, 
but there are times and places where I have said this makes no 
sense. And I wonder if any of you would like to comment on the 
success or lack thereof of metered ramps and the experiment 
that has been going on in the Twin Cities.
    Mr. Frankel. I will have to pass on that or talk to my 
colleagues a little, because I am not sure I am familiar with 
that, Congressman, so----
    Mr. Harm. I guess from my experience, it is in the eye of 
the beholder. I think if you look at your DOT people and I 
think the--they think a lot of--it does work in the big system. 
In the big system, it probably makes the whole thing work. But 
when, I think, you make reference to when you are sitting there 
and it looks like there is--the traffic is not congested and 
you are waiting there at the stop light not allowing yourself 
to get onto the ramp that your little world--it makes it look 
like it doesn't make sense. So I think it is all from a 
perspective of the user. In your case, if you are sitting there 
at the ramp, sometimes it looks like it doesn't--is 
ineffective. But in the big picture, probably from the DOT 
standpoint, there is some--in the system, it is probably more 
an efficient way of moving people through. So in Illinois it 
works when we use it, and we have not had major complaints.
    Mr. Frankel. If I might say----
    Mr. Gutknecht. Go ahead.
    Mr. Frankel [continuing]. Congressman, I am sorry, having 
been informed that you were referring to ramp metering 
experiments. I didn't realize that. I--and I apologize. I can't 
speak about the details of it. I--there are situations in which 
these demonstrations have been successful. But as just one of 
my colleagues was pointing out to me that one of the fruits, I 
think, of the research efforts we are doing in the ITS and 
other operational programs in the department is the ability to 
sit--do traffic simulations. And I think we can learn through 
the investment of research dollars the success in ramp metering 
in really making a difference in terms of management of our 
highway--management of limited capacity and improving 
congestion.
    Mr. Gutknecht. Anybody else want to comment? Yeah. Please.
    Dr. Walton. Congressman, I think the experience on ramp 
metering and other types of control measures that are used on 
access control facilities have been in practice now for over 15 
to 20 years in various kinds, and we have learned a great deal 
about their application, where they are best used. For the most 
part, you know, there is not one type of application that will 
work effectively in all situations and all cases, but where the 
right strategy is used for managing freeway flow, we found a 
significant improvement. And as we get more of our freeways and 
access control facilities integrated into an ITS system, if you 
will, for traffic management. We are realizing substantial 
increases, so consequently, in the specific case that you are 
referring to, I know there have been a variety of instances 
back and forth about whether that is the appropriate strategy 
or not. You are, quite frankly, adding a lot to the state of 
practice, if you will, through your experience. But it is still 
a work in progress. It works well in many cases, but again, it 
needs to be continually refined and updated.
    Mr. Gutknecht. Dr. Meyer.
    Dr. Meyer. Thank you, Congressman. I have had a fair amount 
of experience with ramp metering, both in my experience with 
the state DOT as well as through research efforts, and I think 
Dr. Walton is right: it really depends. And it is a--primarily 
a tradeoff. From my understanding of the Twin Cities' 
experiences, that the freeways themselves perhaps work a little 
bit better, but the people that we waiting a fairly substantial 
amount of time at the ramps themselves were not very happy. And 
this goes back to what I was saying before is that from a 
technical point of view, we know how to do ramp metering. There 
is no question about that. We know the technology. But it is 
the social behavior. It is the response. It is the public 
opinions of this and what are the tradeoffs and how do you 
evaluate that and how do you do the evaluation research in 
terms of these experiences elsewhere that really become very 
important. So an example in point, in Atlanta, we were looking 
at ramp metering. We did an analysis in one of our corridors, 
and we said, ``Gosh, the freeway works a lot better, but we 
have one ramp where people are expected to wait, on average, 35 
minutes to get on the freeway.'' And I said, ``You have got to 
be out of your mind.'' You know, people aren't going to do 
that, but the freeway works better. You don't understand. So we 
had this debate, and I think that is really what we are finding 
from the Twin Cities is that it works in some cases, but I 
really need to have a much bigger perspective.
    Mr. Gutknecht. Well, I wish I could say that many of our 
constituents in Minnesota were happy to be those guinea pigs. I 
am not sure they really were. I am going to come back to 
another point, though, because as a Member of the Budget 
Committee, I have some pretty strong feelings about earmarking. 
And I want to really get--it was touched on before. I guess 
earmarking is good if it is a project that you are involved 
with, and I see my time has already expired. I am sorry, Mr. 
Chairman. Maybe I can come back to that later, but I do hope 
you will at least share your opinions at some point on the 
whole issue of earmarking because--well, I won't get into my 
editorial.
    Thank you.
    Chairman Ehlers. The gentleman's time has expired, but we 
will grant extra time for that. It is a very important issue. 
Congressman from Washington, Mr. Baird.

           Transportation Research Information Service (TRIS)

    Mr. Baird. I thank the Chairman and Ranking Member, and I 
compliment Mr. Gutknecht, who often asks such thoughtful 
questions. And it caused me to wonder, is there a clearinghouse 
for information of the sort Mr. Gutknecht asked? For example, 
if I am a local community and I want to ask, ``Do I put a 
metered on-ramp?'' or ``What is the impact of HOV lanes?'' or 
``How effective are roundabouts?'' Is there a convenient place 
for state and local transportation planners to go to get some--
most probable estimates of the effectiveness of an 
intervention?
    Dr. Walton. Yes, and as a matter of fact, the 
Transportation Research Board has something called TRIS, which 
is Transportation Research Information Service. It is supported 
by the U.S. DOT and others. It is supposed to be the depository 
for research activities that are underway. And it is a 
challenge, because, quite frankly, it is not funded at the 
level that it needs to be, you know, and as any clearinghouse, 
you have--it is only as good as the information that is 
provided and how current it might be. There are other groups 
within the DOT in their websites, they provide a variety of 
links to other programs and other activities, so yes, today, 
you can navigate through the Web and find a lot of information 
about that sort of thing. But clearly, in a recent conference 
we had on transportation research at the academies last week, 
the clearinghouse function came up again as an area where we 
have--sorely need more investment, not only for the data that 
Ms. Canby talked about and others, but also for information, 
lessons learned, or that kind.

               Social Factors and Transportation Choices

    Mr. Baird. I appreciate that. I am particularly interested 
in human factors and human decision-making. And distinguish the 
two. If you think--the human factors you are thinking of what 
kind of factors cause accidents, etcetera. Decisions, I am 
speaking more of how far away from my workplace do I live? 
Because we have--and I serve on the Transportation Committee as 
well. And we have one of the secretaries show us a graph in 
which we saw a steady linear increase of demand for passenger 
capacity, a steady linear increase in demand for freight 
capacity, and a stable, almost flat level, capacity--potential 
for actual capacity increase. What kind of research do we have 
about how people make decisions that impact the transportation 
system? I know that--I believe earlier testimony from Ms. Canby 
or someone suggested that it is the second largest aspect of 
the family budget now. And when I look at people who say, 
``Well, I am, you know, 50 miles away from my work site, but 
look how cheap my house is,'' what do we know about that and 
how we can influence that? Dr. Meyer.
    Dr. Meyer. Congressman, we have been looking at that issue 
from a research point of view for several years, either in the 
context of land use models, which try to predict where land use 
is going to occur in the future, or land modeling in terms of 
trying to predict how people are going to----
    Mr. Baird. I saw the graph in the back of your testimony. I 
thought it was interesting.
    Dr. Meyer. Thank you. It is an interesting issue. And then 
some work, I think a lot more work is necessary. For example, I 
have been saying for the last several years, and I am looking 
for an opportunity to look at it, to examine it is that, based 
on my own experience, having two young kids and a family, that 
my household location and my tradeoff with transportation 
decisions has been directly related to the quality of schools. 
And I have moved three times in the last 10 years, and each 
time it is primarily because the kids went to the next level of 
school or we didn't like the local school and therefore I 
moved. And my commute got 10 miles longer.
    And so this whole issue of how one looks at the tradeoffs 
that households make in terms of not only the commute time and 
transportation, but also things like quality of schools or 
amenities or where jobs are locating in suburban areas 
certainly has been looked at. But I think a lot more effort 
really needs to be done, because that really, basically, is the 
driving force in terms of our transportation systems. In many 
ways, we are responding to millions and millions of individual 
decisions that are being made that I don't think we know that 
much about at this point in time, although we certainly got the 
foot in the door.
    Mr. Baird. I fully concur with that. It sounds like maybe 
we should take--I am actually serious about this. We should 
think about taking a portion of TEA-21 and investing it in 
quality schools and reduce the number of moves and commute 
miles.
    Dr. Meyer. I want the record to show that I did not 
recommend that, because I am not recommending it. My colleagues 
would never talk to me again if I said that.
    Mr. Baird. I am not recommending it, either, but it is the 
kind of question I am asking about where do we get the bang for 
our buck. We could spend umpteen million dollars on an 
``intelligent'' transportation system, but having people making 
decisions, through their own intelligence, that render those 
rather meaningless. What do we know about--have there been any 
efforts to sort of incentives people to move closer to their 
school or their work as ways of minimizing congestion, rather 
than putting down new concrete?
    Ms. Canby. Yes, Mr. Congressman. There--the--there is a 
program called the Location Efficient Mortgage that actually a 
member of my Board had championed. There is also a program that 
the Metropolitan Transportation Commission, the MPO for the San 
Francisco Bay area has put in place, again a housing incentive 
program where they have provided transportation funds to help 
people effect where they live, decisions. So there are 
beginning to be some issues in that regard. I think that this 
is a huge issue that needs a lot more examination. The whole 
issue of housing affordability, people forced to live further 
away, because they simply can't afford, on a nurse's salary or 
a teacher's salary or whatever, to live in the area where they 
happen to be working. And it puts a huge strain on families, 
and we need to understand it better.
    Mr. Baird. On families and on the transportation system----
    Ms. Canby. Indeed, both.
    Mr. Baird [continuing]. And we externalize that cost 
through gas tax or whatever. Could you make those studies 
available to me, Dr. Canby and Dr. Meyer, any--or others who 
are----
    Ms. Canby. Sure.
    Mr. Baird [continuing]. Have relevant information?
    Ms. Canby. Happy to do so.
    Mr. Baird. Thank you very much. Thank you, Mr. Chairman.
    Chairman Ehlers. The gentleman's time is expired. Pleased 
to recognize Dr. Burgess.

                 Meeting the Goals of ISTEA and TEA-21

    Dr. Burgess. Thank you, Mr. Chairman. And I guess my 
question will be along the same line as Mr. Baird's in that 
our--the question I get over and over again back in my district 
is, ``Are we getting our money's worth?'' And specifically, 
after 10 years of investment through ISTEA and TEA-21, we don't 
know whether our transportation system and our R&D investments 
are meeting the goals of ISTEA and TEA-21. Do you, as a panel, 
have a recommendation as to what Congress should do to remedy 
this? And I am ready to take notes.
    Mr. Frankel. If I might say, Congressman, that I think the 
nature of research, as you well know and as, indeed, comments 
have been made here by the Chairman and Members of this 
subcommittee indicate that it is difficult in this area, even 
in the case of the applied research, if you will, of the 
Department to assess the impacts, the rewards--the returns on 
investment, particularly in any short period of time. I think 
that one can say that there has been a substantial return on 
the investment in research that has been done by the Department 
of Transportation under TEA-21 and under ISTEA before it. One 
of the difficulties we have is we do face real issues, 
obviously, in particularly urbanized areas of congestion and 
mobility. And I know that my experience when I was in 
Connecticut, we invested a great deal of money in an ITS system 
for incident management in a very highly congested, one of the 
most congested stretches of highway in the state. And that grew 
out of research that was being done both by the Department--
funded by the Department as well as the private sector. And I 
could assess it as one responsible--that is it having a real 
difference, but unfortunately, the answer is that the situation 
would have been a lot worse for the users of the system if that 
investment had not been made. And going back to the research 
investment in incident management and ITS. That is not very 
satisfactory to users of the system or to your constituents 
just to say, ``Boy, it is lousy, but let me tell you, it would 
be a lot worse but for this investment.''
    I think much of that can be said. Certainly, the investment 
that has been made, for example, in safety and things related 
to safety, I think there had been and we will see increasing 
payoffs, I think, of--from that investment.
    Dr. Walton. Congressman, I think there have been enormous 
benefits associated with the program. In fact, there are lists 
of benefits that have been derived from the research and what 
the gains have been or what the economic return has done. And 
obviously, going back to the Frontiers of Science, the 
publication that created and help create the NSF, you recall 
that the more we know, the more we realize we don't know. And 
it continues to go on. And the whole area of the transportation 
research enterprise, if we stand back and take a look at it, we 
would probably not create the model that we have in place right 
now. We would probably start again with a clean sheet of paper. 
And as we were discussing earlier, the notion of a strategic 
business plan or a strategic linkage between top down and 
bottom up might yield some more of a coordinated, integrated 
approach to our research enterprise. But quite frankly, the 
way--the benefits have been enormous. And it is surprising 
that--how well we have done, given the way in which the 
enterprise is organized today.
    Dr. Meyer. Congressman, I completely agree with my 
colleague, Dr. Walton. And I think, too, from my own sense and 
the experience and the research results I have seen, there have 
been significant benefits. But one of the things that interests 
me, and it is in my written testimony, and I didn't get the 
opportunity or chance to say it orally, is that it is funny 
that you can't seem to find any evaluation of or written 
documentation relating what we are doing with our research 
dollars specifically to the goals that were established in 
ISTEA or in TEA-21, i.e., what are we doing in the areas of 
mobility, safety and security, economic vitality, system 
preservation, and environmental protection, which are goals 
that Congress established in terms of what this legislation was 
supposed to be doing. It is very difficult to show that 
linkage. And certainly what I would recommend in the context 
of, maybe, this strategic business plan that Dr. Walton is 
talking about, is to say, ``Look, Congress has established 
these as national goals in terms of what our transportation 
system should be. And we are putting money on the table to do 
this. The least you can do is show us how your research results 
or how your transportation system investments are relating to 
those specific goals.'' I should think that would be at least a 
minimum type of reporting that Congress would want to see.
    Ms. Canby. Congressman, in my statement, I suggest very 
much the same that Dr. Meyer is saying, that we should have 
some performance measures that are established against the 
principles of the law, so that it gives, not only you, but us a 
chance to see how well we are doing.
    Ms. Siggerud. Congressman, I wanted to point out that in 
our GAO report, we recommended involvement of a wide array of 
stakeholders in setting research agendas. And I think that that 
would be very responsive to the issues that you have raised 
about knowing more about the performance of the system. And by 
performance, I really think what you are focusing on there is 
what--how do the users experience the system as well as the 
performance of the concrete and that type of thing. Therefore, 
I would really urge that, as we move forward in this 
reauthorization that we try to institutionalize this concept of 
stakeholders. Involve not only traditional researchers but 
those that experience the system and those kinds of disciplines 
that interact with it on a regular basis. I would point to, for 
example, energy and land use, public health, those kinds of 
issues as well, and very important to be considered as well set 
our research agenda for the future.

                           Comments on F-SHRP

    Chairman Ehlers. The gentleman's time has expired. We have 
sufficient time for a second round of questions, so I will 
begin the second round. And it is, in a sense, a follow-up to 
the previous question, in certain ways.
    In your testimony, Dr. Walton, you describe the Future 
Strategic Highway Research Program, better known as F-SHRP, 
which is intended to fill critical short and medium-term 
research gaps. I assume--it is clear you support the proposal. 
I would like to just ask the other Members of the panel if they 
also are supportive of F-SHRP. We will start from Dr. Meyer 
this time.
    Dr. Meyer. Well, given that I was a part of the process of 
coming up with F-SHRP, I am strongly supportive of the program.
    Chairman Ehlers. Good.
    Dr. Meyer. As I said earlier, I don't doubt at all that it 
is very valuable and very important. It is targeted on certain 
issues that, I think, are critical. But again, I think we need 
to look at some other things, but I am very supportive of F-
SHRP.
    Chairman Ehlers. Ms. Canby.
    Ms. Canby. Yes, I would also say that we are supportive of 
F-SHRP. We--one of my predecessors participated in the 
development of it. There are some issues that Dr. Walton and I 
haven't had a chance yet to discuss in particular, but on 
balance, it is an area that should be pursued.
    Chairman Ehlers. Ms. Siggerud, based on your research, does 
it look like a good program?
    Ms. Siggerud. Congressman Ehlers, we have not looked either 
at the past F-SHRP or the future F-SHRP, so I can't comment at 
this time.
    Chairman Ehlers. Okay. Mr. Harm.
    Mr. Harm. I would agree that--I mean, the F-SHRP is one 
where it is focused. It does touch on probably a lot of the 
issues that our constituents want, be it rebuilding our--
renewal of our structure--infrastructure, the safety issues. It 
gets into the reliability of the users that we talked about 
earlier. So we would--I would be supportive of the F-SHRP 
program.
    Chairman Ehlers. Mr. Frankel.
    Mr. Frankel. Mr. Chairman, the Department is supportive of 
this program and its goals, which I think are complementary to 
many of the research efforts by the Department itself as well 
as various state agencies. The--much of it is--will come from, 
indirectly I suppose, from federal funds, that is from 
takedowns that pass through the states as a source of a 
substantial amount of the support for this program.
    Chairman Ehlers. It is my understanding, and you can 
correct me if I am wrong, but I believe in the draft copies of 
the Administration's reauthorization proposal, F-SHRP is not 
included. Can I take your statement to mean that it is going to 
be included or is it still under discussion?
    Mr. Frankel. Well, first of all, and just to be precise, 
what you have seen is the Department's proposals for the 
Administration's bill. There is no Administration bill as yet.
    Chairman Ehlers. Yeah.
    Mr. Frankel. And as I said, the money will, rather than be 
a specific appropriation, if I can put it that way, or 
direction of the F-SHRP program, the money would be funded by 
takedowns through state apportionments.
    Chairman Ehlers. All right. So we can assume it is going to 
be in the final bill?
    Mr. Frankel. Well, as I said, we are not recommending it 
specifically that there be a specific line item, if I can put 
it that way, for the program but rather the expectation--it is 
substantially federal money but drawn--passing, if I can put it 
that way, through the states, a draw-down from the states' 
apportionment of research funds.
    Chairman Ehlers. Well, this is probably not the place to 
argue, but I will simply observe this may add to yet more 
convolution in the research programs of the Department. And I 
think the key is to--in terms to getting at a method of 
determining precisely what research should be done and 
evaluating how well it is going, the less confusion the better, 
so we will work with you on that point.
    Mr. Frankel. Yeah. If I may say, Mr. Chairman, I think--I 
appreciate your concerns, but it is also true, and frankly, in 
terms of many of the interests that we have articulated, the 
panel has articulated and you have, Members of this 
subcommittee, that this program needs to have stakeholder 
engagement--partnerships. One of the key elements of research 
as it is true of, frankly, kind of a basic ethic of federal 
transportation under ISTEA and TEA-21 is a partnership with the 
Federal Government and the states. And that goes in the 
research area--that goes to the research area as well. And this 
program, which is a major initiative of AASHTO, which is an 
organization of state transportation organizations as well as 
TRB, much of the funding comes from the states. And I would say 
there needs to be buy-in in terms of the objectives of the F-
SHRP program than any other research program. There needs to be 
buy-in on the part of state agencies, for example. They are, as 
you well know, the ones who own, operate, manage, maintain the 
transportation systems, certainly the highways and bridges and 
tunnels of this country. And the role of the Federal Government 
is primarily to fund and support them in that regard. And so in 
that case, I think it is not inappropriate for the funding to 
flow in this way, in a partnership way.
    Chairman Ehlers. Well, we obviously will have further 
discussions on that, but I would point out that in general, the 
research functions in almost every area are primarily a federal 
responsibility, because we have the broad overview. Obviously, 
in Florida and some other southern states, they are not very 
interested in the freeze/thaw cycle and what it does to 
highways. That is an immense interest in Michigan where I 
reside, because that is a major factor that causes our 
deterioration. My concern is just looking it as a researcher 
and how one manages this and in terms of stating over all 
objectives and trying to make sure the job gets done right. If 
the system is too bifurcated in the Federal Government, which 
provides a good share of the funding, if I can't ensure its 
objectives are met, then I think we have a major problem.
    Well, my time has expired. Mr. Baird, do you have further 
questions?

           Human Factors, Decision-making, and the Bureau of 
                       Transportation Statistics

    Mr. Baird. I do. Thank you, Mr. Chairman, and I thank the 
panel for their illuminating comments earlier.
    I want to follow on that theme a little bit about human 
decisions and human factors. It often seems to me that our 
transportation planning, by its nature, is skewed in two ways. 
One, we tend, I think, and I am not involved directly in it, 
but it seems like too often we neglect the end-use consumers. 
And the two types of consumers I most have in mind are the 
individual passengers driving their kids to school, shopping, 
whatever, and the business users, the people that are trying to 
get just-in-time delivery and just-in-time through-put. To what 
extent are they involved in the research endeavors that then 
lead to the transportation planning? And how can we do a better 
job of that?
    Dr. Walton. I will start that, Congressman. Excuse me. I 
think there is a notion of stakeholder involvement. This past 
couple of years at--through the Transportation Research Board 
with Federal Highway participating and incorporating, there was 
a national partnership forum that was created, looked at five 
thrust areas to try and assist in not only helping Federal 
Highway with their research agenda and proposals and 
development, but also the notion of F-SHRP and other research 
activities bringing stakeholders together, which covered the 
policy area through the hard--the more hard side, if you will, 
of pavements and aggregates and the like, bridge structures, 
and so forth. The extent was to explore how the stakeholder 
forums could be established and how they could be effectively 
integrated into the transportation planning process. We have 
learned a great deal from that exercise.
    For the most part, the people who participated were those 
that were already engaged in some fashion in the enterprise or 
in the transportation community. However, there was a broad 
cross-section that included local governments, representatives, 
small business, and consultants of various kinds, so there was 
the beginning of that. And clearly, we have learned so much 
about community values and community input, but that is an 
ongoing, serious activity that we have yet to find the most 
effective mechanism for integrating that.
    So I would say that there is an effort underway. This 
meeting that I mentioned last week at the TRB or the national 
academies was in an effort to try and begin the next stage, if 
you will, of that partnership with a variety of stakeholders 
and the emphasis on non-traditional stakeholders, if you will, 
the likes of whom you were mentioning.
    Mr. Baird. Mr. Chairman, I just think it might be a good 
idea, as we draft our input into the TEA-3 or whatever we end 
up calling it, that we really emphasize this point about end 
use stakeholders and human decision-making processes having a 
critical role in this. Because the second part where I think 
there is a disconnect is I think there is also almost 
inevitably a time lag. It seems often what happens is a 
community comes to us and says, ``Oh, my gosh. We have got 
tremendous congestion at 134th and I-5, therefore, we better 
build a ramp.'' And inevitably, you are going to be lagging 8 
to 10 years behind the congestion, because you haven't planned: 
how is our transportation system and our school system and our 
manufacturing base and etcetera sending people--the tail is 
wagging the dog here, and it is wagging about 10 years late, 
and we are never going to make--we are not really going to have 
the kind of communities we want.
    Ms. Canby.
    Ms. Canby. May I just add to what Dr. Walton said? While 
there has been a great effort to reach out, I think at the 
national level it is more difficult, because the non-
traditional stakeholders are not always as well equipped to 
come to the national level to address issues. And secondly, it 
is very difficult to really get a handle, based on my 
experience, of what the end user, as you referred to them, very 
important, our customers, are experiencing every single day, 
even in a small state like mine of Delaware. It was very hard. 
We pushed and we got it, but hard to get a handle on what is 
really concerning people. I mean--so that is one of the reasons 
why I suggest thinking about creating a metropolitan planning 
and research program, because that will get closer to the 
people and their issues. And the further away you get, the 
harder it is to really address them and to close, as you 
suggest, the time lag between the problem and the solution.
    Mr. Baird. Mr. Frankel.
    Mr. Frankel. I might say, as well, Congressman, that there 
obviously is an important role here for statistics for the role 
of entities like the Bureau of Transportation Statistics. I 
don't mean that this is merely dry data, because we are 
dealing, as you said, with human factors, the kind of decisions 
we all make. As Dr. Meyer has indicated, we all have gone 
through those sorts of decisions. That is, indeed, what makes 
transportation so interesting, because it does influence all of 
those things. But we--the surveying process, as well as, you 
know, opening up the process, as Secretary Canby has said, and 
making sure that people have an opportunity to talk about it so 
that the planning process is more a bottom-up and not a top-
down, which has been an issue, I might say, in the 
transportation field for a very long time. But to be able to 
draw it more broadly through the use of surveying and similar 
statistical information gathered, the census itself, the Census 
Bureau gathers information, which is drawn on by the Bureau of 
Transportation Statistics. All of these agencies have to do a 
better job, I might say. And one of the things we hope to be 
recommending in the Administration's bill is a greater focus by 
BTS on doing, frankly, fewer things better and more focused on 
the real policy-making and decision-making process in 
transportation.
    Mr. Baird. Yeah, I think that is helpful. If BTS is 
focusing predominately on X amount of road miles, X amount of 
fuel consumed, X amount of lag time, etcetera, we may be 
missing some much more critical elements on the lines of what 
Dr. Meyer was saying. I would be more interested in how many 
people move how often to where in order to get their kids in a 
better school. What is the average distance people live away 
from their workplace? What is the real cost in terms of the 
cost of housing with the externalized function of 
transportation? Those states, I think, might be more useful to 
us.
    Thank you.
    Chairman Ehlers. Ms. Siggerud, do you have a comment to 
add?
    Ms. Siggerud. Yes, just one more comment to add. You asked 
about stakeholder involvement, Congressman Baird. And I just 
want to point out that our--in our review of the Federal 
Research--Highway Research Program last year, we found that it 
occurred but at a fairly--really at a research program level 
rather than a systematic level. In response to our report, and 
the report as well from Dr. Walton's committee, FHWA has an 
initial plan agreed to a more systematic approach and has also 
talked about involving a wider array of stakeholders as they 
implement that approach. And I think it is a useful area of 
continued oversight for the Subcommittee.
    Chairman Ehlers. I thank you. And I just--on that issue, I 
was amused when we bought our first house some years ago. And I 
evaluated locations and compared cost. And I was very impressed 
that the public intuitively understands economics, because the 
economic balance that I observed between commuting and how 
pricy of housing was remarkably consistent with what one would 
expect.
    I would like to follow-up on a comment you made, Mr. 
Frankel, a moment ago and the panel made earlier. There was 
general agreement, I take it from the testimony I heard, that 
the Bureau of Transportation Statistics is not living up to its 
mandate, its purpose, its goals. And Mr. Frankel, you indicated 
a desire to improve that. I am interested in what the rest of 
the panel would say about what is--anything should the Congress 
do to try to aid in that goal of strengthening the BTS and make 
sure that it lives up to its mandate for comprehensive, high-
quality, independent, multi-modal information. Dr. Walton, I 
see you smiling.
    Dr. Walton. We--Mr. Chairman, we certainly agree with that, 
and I would strongly support that as well. I like what 
Secretary Frankel was saying about what the Administration 
proposes for BTS. And I have not read that section of the bill 
on BTS, but I think we are all vitally interested in what the--
what BTS's future is like. Clearly, I think that it perhaps has 
not met the goals that were intended for it, perhaps, and there 
may be a variety of reasons for that. But without the data and 
the information that that--the vision within BTS that that was 
supposed to accomplish, we are at a severe disadvantage. The 
intent, of course, when that came into being, as you well, is 
that would provide the source of reliable data and information 
that would provide us the opportunity to do policy related 
research, to do quantitative research and be all predicated on 
high-quality information. That, unfortunately, has not emerged 
yet. And part of it may be funding. Part of may be the level of 
support for the enterprise. And part of it may be their--again 
the notion of a business plan for that in keeping with the 
Administration's objectives.
    Chairman Ehlers. Anyone else? Ms. Canby.
    Ms. Canby. Let me just add to what Dr. Walton has said. 
BTS, it seems to me, to be successful, needs to be supported 
financially. I believe its appropriation has been flat through 
the entire authorization period, and maybe it makes sense to 
look at the allocation of resources within the Department so 
that BTS can get the support that it needs to do the job it has 
to do.
    Chairman Ehlers. Dr. Meyer.
    Dr. Meyer. Thank you, Mr. Chairman. I agree with what Dr. 
Walton and Ms. Canby say. I would note that there was a study 
that was done. I think it was subsequent to TEA-21 where 
Congress ask the Committee on National Statistics as well as 
the Transportation Research Board to look at BTS. I was a 
member of that panel. And there were all sorts of 
recommendations that came out of that, and a report was 
written. And I honestly don't know what, if anything, has 
happened from that. So I would recommend that certainly someone 
finds out how the recommendations have or have not been 
implemented as certainly a first step for dealing with that.

                 Earmarking in Research Appropriations

    Chairman Ehlers. And that is one of our concerns, and that 
is one issue we will be pursuing. Thank you. Anyone else on 
that? Just a few more questions, and then we will wrap it up. 
The one is one that Congressman Gutknecht referred to a little 
earlier, the earmarking issue. And I think that has been one of 
the problems that we have had in terms of managing the 
research. Just looking at the list, I asked the staff to 
prepare a list. This is not comprehensive, but I will skim 
through part of it. Infrastructure research, 74 percent 
earmarked. Infrastructure technology deployment, 92 percent 
earmarked. The total for infrastructure R&D, 81 percent 
earmarked. Environmental technology deployment, 100 percent 
earmarked. Operations technology deployment, 75 percent 
earmarked. Highway safety tech deployment, 100 percent 
earmarked. Now I recognize some of the--with deployment, the 
earmarking isn't quite as critical as on the research effort, 
but nevertheless you get--oh, I forgot ITS deployment, also 100 
percent earmarked. The point is simply out of--if you look at 
all of the 386 million spent in fiscal year 2002 on FHWA 
research and deployment programs, 50 percent was earmarked.
    Mr. Frankel, given that nearly 50 percent of the money is 
earmarked, how does that affect your ability and Department of 
Transportation's ability to develop and follow a strategic plan 
and fund the highest value research? I would appreciate any 
comments or guidance you might have.
    Mr. Frankel. Well, I am going to try to be very careful 
about answering that question, Mr. Chairman, because----
    Chairman Ehlers. I--you will know that I was careful 
asking. All right. Let me add, I think there is a legitimate 
place for earmarking in some cases. This is a combination of 
authorization earmarks and appropriations earmarks. At its 
worst, it is pork. At its best, it is valuable direction from 
Congress, so I recognize there is a place for it, but it 
depends on the manner in which it is done frequently. Proceed.
    Mr. Frankel. I guess I would say in the words I think I 
have heard attributed to appropriators, and I know some of the 
earmarking is done by authorizers as well, but it is a question 
of who establishes priorities. Suffice it to say that certainly 
I think in the deployment programs or pilot programs, so 
called, and if you think about them, particularly the 
deployment programs, one I am particularly familiar with, 
obviously, is ITS. And as you said, the deployment program is 
100 percent earmarked. If you think about deployment programs 
or pilot programs as being extensions of research, the 
application on an experimental and demonstration basis, if you 
will, of research, then the Department is really not--in my 
opinion, not sufficiently engaged in the establishment of the 
priorities. The priorities increasingly, and it is a growing 
phenomenon as it is--you have given a photograph, but I think a 
movie over a period of time would show this growing even in the 
research budget. And it just means that the--whatever we may 
say in terms of strategies and so forth and trying to carry out 
the goals and purposes and missions contained in TEA-21, for 
example, that Congress is really substituting its judgment in 
many, many cases for how deployment money should be utilized 
and increasingly, I must say, research money. I leave to others 
whether that is appropriate from a public policy point of view.
    It certainly is very constraining, because we would be--you 
know, we are asked questions by you and others--perfectly 
appropriately--are we meeting strategic goals, carrying out 
this mission, carrying out that mission, when in fact, the 
ability to invest the funds, in many, many cases, is 
constrained.
    Chairman Ehlers. I thank you for a very adept and proper 
answer, but also a good answer. Dr. Meyer.
    Dr. Meyer. Thank you, Mr. Chairman. I have two responses to 
your question. It is perhaps somewhat contradictory, but I am a 
firm believer in the peer review process in terms of the value 
of research. I mean, there is absolutely question in my mind 
that when you start earmarking research either for certain 
groups or certain individuals or certain companies or 
organizations, I think you are really stepping into the area of 
questioning the value of that research. So the peer review 
process, to me, has got to be a basic point of departure in 
terms of the type of research that we should be doing.
    The only difference in that position, I guess, would be, to 
some extent, in the area of policy research, because I am also 
a firm believer that policy research should be relevant to 
policy-makers. And they should be--it should be dealing with 
the types of issues that you are dealing with and you are 
likely are going to deal with in the future. So if the 
earmarking is saying, ``We have a real problem in the area of 
aging and transportation. And we would like a study being done 
by the Transportation Research Board of that area,'' I don't 
have so much difficulty with that, simply because I think it 
needs to be relevant to your purposes. But to then go and say, 
``And by the way, University X should get it,'' I have real 
problems with that. I--a peer review really is the basic 
foundation for a valuable research program for the country.
    Chairman Ehlers. Thank you for those comments, because that 
echoes my thought on it. I mentioned the freeze/thaw cycle 
earlier. It might be appropriate to earmark money for research 
on the freeze/thaw cycle, but if I also designate that it has 
to be done at the University of Michigan, then you get into--I 
think you negate the peer review process.
    Ms. Canby.
    Ms. Canby. Very briefly, Mr. Chairman. I think you hit the 
balance very nicely in your comments. It strikes me that in the 
absence of an overall strategic vision is where we begin to get 
into trouble.
    Chairman Ehlers. Yeah.
    Ms. Canby. And having that at least creates a framework 
around which people can identify the needs. And I think what 
Dr. Meyer said about the policy thing is very legitimate.
    Chairman Ehlers. Well, I would respond by simply saying I 
think it is extremely important to have a good overall 
strategic vision. The difficulty you encounter is, in the 
political process, is the membership of Congress changes 
regularly, Committee Chairmen change regularly, but all the--on 
the other hand, the Administration faces the same problems that 
we do in the Congress. Someone is appointed, and after two 
years, they know their job, and after two more, they are gone, 
very frequently less time than that. And so it is very 
difficult to do that in the governmental process. But I am 
determined to do the best job we can on this subcommittee, and 
we will be happy to work with any and all of you on that 
effort.

                          The Status of STECRP

    The last question, Mr. Frankel. TEA-21 authorized the 
Surface Transportation Environment Cooperative Research 
Program. After years of delay, DOT contracted with TRB to 
develop the Strategic Plan. The plan was published last fall, 
and once again, DOT has not requested any funding for STECRP. 
This is terrible, all these acronyms, STECRP in the fiscal year 
2004 budget. Now the question is what is the problem. We 
authorized it five years ago, and nothing has happened. The 
basic problem is, as I just said, we authorized it five years 
ago, and nothing has happened, and the Congress does not look 
kindly on that.
    Mr. Frankel. I appreciate that, Mr. Chairman. And actually, 
I would like to reserve the right to give you a more detailed 
response to that. But let me say, in general, as I understand 
it, this program has been implemented through TRB, but there 
have been difficulties in getting adequate and appropriate 
funding. But we will respond to you in writing with a more 
detailed and thoughtful answer.

                        Material for the Record

Question from Chairman Ehlers: What has the Department done to 
establish the Surface Transportation Environmental Cooperative Research 
Program, authorized in TEA-21?

Answer: The Federal Highway Administration (FHWA) began the 
implementation of a Surface Transportation Environmental Cooperative 
Research Program called for in section 5107 of TEA-21 by engaging the 
National Research Council to establish an Advisory Board in November 
1999. The Advisory Board was asked to recommend a comprehensive agenda 
to address environmental and energy conservation research, technology 
development and technology transfer activities related to surface 
transportation. The Board's recommendation of an agenda for the 
cooperative research program was presented to FHWA in the Spring of 
2002.
    The Board recommended six critical areas of research for research 
in transportation and the environment: human health, ecology and 
natural systems, environmental and social justice, emerging 
technologies, land use, and planning and performance measures. While 
each of these areas is the subject of current research, the Advisory 
Board believes much more focused and coordinated research in needed in 
each area. To accomplish this, the Board further recommended that a new 
research program be formed to focus resources on critical issues that 
cannot be resolved effectively by parties whose interests are at stake. 
The recommended comprehensive research program would be a 
collaborative, cooperative research program that could be publicly and 
privately funded. The Board noted that full implementation should occur 
over several years after a careful start-up phase.
    The Department of Transportation used the Board's recommendations 
in developing its surface transportation reauthorization proposals. The 
Administration's 2004 Budget request presented a comprehensive research 
budget that allows for flexibility. This flexibility is necessary as we 
develop more specific strategies for implementing the comprehensive, 
collaborative, and cooperative research program recommended by the 
Board.

    Chairman Ehlers. We will welcome that response. And with 
that, we will conclude the questions. And I certainly want to 
thank you for being here. You have been an outstanding panel, 
extremely helpful to us in our process of coming to a 
conclusion of what to try to incorporate in the bill. And of 
course, we will have to work with the Transportation 
Infrastructure Committee as well, because they are also going 
to have their concerns and their priorities. But we certainly 
hope they will listen to us on the research aspects, because 
that is our field of expertise.
    Thank you very, very much for being here.
    Mr. Frankel. Thank you, Mr. Chairman.
    Dr. Meyer. Thank you.
    Chairman Ehlers. The hearing is adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


    Biographies, Financial Disclosures, and Answers to Post-Hearing 
                               Questions


<SKIP PAGES = 000>

                     Biography for Emil H. Frankel
    Emil Frankel was appointed Assistant Secretary for Transportation 
Policy of the United States Department of Transportation in March of 
2002. From 1991 to 1995, he served as Commissioner of the Connecticut 
Department of Transportation. He was Chairman of the Standing Committee 
on the Environment of the American Association of State Highway and 
Transportation Officials (AASHTO) and Vice Chairman of the I-95 
Corridor Coalition. He has served as a speaker, panelist, and moderator 
on a wide range of transportation topics including Intelligent 
Transportation Systems (ITS) technologies, intercity rail services, 
transportation planning and management, and transportation and air 
quality. He is a graduate of Wesleyan University, where he served as a 
Trustee from 1981 to 1997. From 1995 to 2001, Mr. Frankel was a 
Management Fellow of the Yale School of Management and a Senior Fellow 
of the Yale School of Forestry and Environmental Studies, where he was 
engaged in teaching, research and writing on issues of transportation 
policy, transportation and the environment, and public management. In 
2000 he was an Adjunct Professor at the University of Connecticut, 
where he taught transportation policy.
    Mr. Frankel was a Fulbright Scholar at Manchester University in the 
United Kingdom and received his law degree from Harvard Law School.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions

Responses by Emil H. Frankel, Assistant Secretary for Transportation 
        Policy, U.S. Department of Transportation

Questions submitted by Democratic Members

Q1. Why did the Department decide not to renew the contract with ITS 
America to serve as advisory committee for the ITS program? What plans 
does the Department have to obtain stakeholder input to the research 
and deployment plan for this program?

A1. ITS America has played an important role in the many successes in 
the formation and maturation of the ITS Program. As the program 
transitions to a new phase, it was time to transition to a new 
mechanism for receiving stakeholder input. The Department will get 
external advice regarding ITS initiatives from a new Federal Advisory 
Committee that is being established and will be managed by the ITS 
Joint Program Office. This tested method of consultation serves the 
Department well in other program areas, and the new ITS Advisory 
Committee will give the Department direct stakeholder input to the 
research and deployment plan for the ITS Program. The new DOT advisory 
committee will be organized and chartered under the Federal Advisory 
Committee Act (FACA). Organizations with resources and expertise to 
offer meaningful advice will be invited to serve. We expect the new DOT 
advisory committee to convene its first meeting this fall.
    This step does not mark an end to our relationship with ITS 
America, rather there will be appropriate evolution. The Department 
expects to have a close and important ongoing relationship with ITS 
America. We value the contribution that ITS America has made to the 
Department over the past 10 years. The Department will continue to work 
closely with ITS America, as it does with other transportation 
organizations. In the future we expect to focus on and provide funding 
for very specific tasks for which ITS America is uniquely suited.

Q2. Mr. Frankel, at the beginning of your testimony you said 
developing a new device or new way of operating is only a part of the 
task of developing a new technology. You believe the hardest challenge 
is finding a way to encourage those changes to be adopted by users and 
operators of the systems. You also indicated the Department needs to 
find ways to move technologies into the transportation system faster 
and encourage its stakeholders to accept new approaches to doing 
business. This is a very important point. However, in the rest of your 
testimony you did not describe specific actions the Department will 
take to address the problem you identify. Please describe the actions 
the Department plans to take to address these technology transfer 
issues. Also, please provide us some past examples where Transportation 
technologies have been developed, but not adopted by the user 
community?

A2. As I indicated in my testimony, the implementation of technology is 
a critical component of effectively developing a new technology. The 
Department makes a concerted effort to find ways to move these 
technologies into the transportation system faster and encourage its 
stakeholders to accept new approaches to doing business. The FHWA 
Corporate Master Plan for Research and Deployment of Technology and 
Innovation, for example, explicitly recognizes our major responsibility 
in developing, deploying, and implementing transportation innovations, 
and describes how it shares roles with its stakeholders and partners in 
the public and private sectors, academia, and the international 
community. Other DOT agencies have similar strategic planning 
documents. These plans outline the activities that encompass the 
technology transfer function needed for new technologies.
    Professional capacity building activities have a prominent place 
throughout the Department's research program. Depending on the subject 
matter, the activities include workshops, certification courses, and 
other type of training that are offered to transportation professionals 
in State Departments of Transportation, local governments, transit 
properties and other stakeholders and partners. As one example, the DOT 
ITS Joint Program Office has developed over 25 different courses 
related to ITS and have taught these courses to thousands of students 
from Federal, state and local government as well as the private sector. 
They also offer technical assistance to state and local officials in 
the development, design, deployment and operation of intelligent 
transportation systems.
    Another activity that serves this function are field tests of new 
concepts and technologies and so-called ``showcase projects'' that are 
intended to demonstrate the real-world effectiveness of new 
technologies and new operating approaches. NHTSA is a key partner with 
the ITS Joint Program Office in the use of field operational tests as a 
means of evaluating vehicle-based safety-enhancing systems. Vehicle 
manufacturers have repeatedly supported these tests as a means of 
encouraging development of effective safety-enhancing systems. Also, 
FTA has been working with the transit industry to develop a Research 
and Technology Five-Year Business Plan that identifies research and 
technology priorities. A significant part of this program is a Joint 
Partnership Program (JPP) for Deployment. This program helps to 
implement transit research through the selection of needs-driven 
innovations. Consortium members provide a minimum of 50 percent of the 
costs, serving as an incentive for deployment and allowing for 
retention of patent and intellectual property rights. Program 
participation is based on a competitive selection process, including 
industry participation in research topic selection.
    Another important activity supporting the use of technology and 
innovation is the development and dissemination of reference materials 
such as specifications, design guides, manuals, CD-ROMs, material for 
training courses, websites, and software.
    Finally, communications outreach is a part of this technology 
transfer process. The Department participates in professional meetings, 
conventions, and the like in order to highlight the advances that are 
being made available to the transportation community. These 
information-sharing activities promote awareness of particular new 
technologies or innovative practices within the transportation 
community.

Q3. Mr. Frankel, in your testimony, you focus on the outputs of DOT's 
transportation research program--the amount of funds spent, the number 
of projects funded, or the number of reports issued. There is no 
mention of the outcome of these activities. How have the technologies 
or practices evaluated in transportation research projects reduced 
congestion, improved decision-making, improved traffic safety, and 
improved the environment? Please provide some examples of outcome 
assessment of DOT's projects and an assessment of DOT's research and 
development program based upon an outcome analysis.

A3. The research program sponsored by the Department supports the 
achievement of all the Department's Strategic Goals--safety, mobility, 
global connectivity, improvements to the environment, and national 
security. The projects undertaken have provided substantial benefits 
and have yielded substantive advances and innovations that have 
contributed to improvements in all aspects of the transportation 
system, including longer lasting pavements for highways and airports, 
structurally sound bridges, advanced highway traffic systems, 
improvements to the air navigation system, and improvements in the 
operational efficiency of transit operations. These improvements save 
lives, time, and money.
    The specific benefits for the Department's projects have been well 
documented in numerous reports, studies and budget submissions. One 
example of a systematic collection of benefit-cost information is in 
the Department's Intelligent Transportation Systems program. Since 
December of 1994, the ITS Joint Program Office has been actively 
collecting information regarding the impact of ITS projects on the 
operation of the surface transportation network. Data collected under 
this effort are available in the ITS Benefits Database which is made 
available through the DOT ITS website. There is also a one page desk 
reference available on the same website that summarizes data in the 
Benefits Database. The ITS JPO also collects information on ITS costs, 
and maintains this information in the ITS Unit Costs Database. The 
database is a central site for estimates of ITS costs data that can be 
used for policy analyses and benefit/cost analyses.
    An example of formal reviews of the impact is an analysis by FHWA 
that the use of incident management programs has typically reduced 
delay associated with congestion caused by traffic incidents by 10 to 
45 percent in the places they have been implemented. Another example is 
the finding that the use of highway pavement preservation techniques 
reduce the amount of water infiltrating the pavement structure, slow 
the rate of deterioration, or correct surface deficiencies such as 
roughness, leading to a five- to ten-year increase in the life of a 
structurally sound pavement.
    Research conducted by FHWA has led to the almost universal use of 
epoxy-coated reinforcing steel for corrosion protection of concrete 
bridges. The deployment of this material has resulted in longer-lasting 
bridges that have saved hundreds of millions of dollars.
    Each year, State and local governments spend more than $100 million 
on noise walls and other noise mitigation methods. As a result of FHWA 
investment of just $3.9 million over nine years in research to improve 
noise models, it is estimated that State and local governments will be 
able to save more than $19 million annually in noise mitigation 
construction costs.
    Similar results exist for the research of each of the operating 
administrations as their programs support the missions of each agency.

Question submitted by Chairman Ehlers

Q1. What has the Department done to establish the Surface 
Transportation Environmental Cooperative Research Program, authorized 
in TEA-21?

Answer 1. The Federal Highway Administration (FHWA) began the 
implementation of a Surface Transportation Environmental Cooperative 
Research Program called for in section 5107 of TEA-21 by engaging the 
National Research Council to establish an Advisory Board in November 
1999. The Advisory Board was asked to recommend a comprehensive agenda 
to address environmental and energy conservation research, technology 
development and technology transfer activities related to surface 
transportation. The Board's recommendation of an agenda for the 
cooperative research program was presented to FHWA in the Spring of 
2002.
    The Board recommended six critical areas of research for research 
in transportation and the environment: human health, ecology and 
natural systems, environmental and social justice, emerging 
technologies, land use, and planning and performance measures. While 
each of these areas is the subject of current research, the Advisory 
Board believes much more focused and coordinated research in needed in 
each area. To accomplish this, the Board further recommended that a new 
research program be formed to focus resources on critical issues that 
cannot be resolved effectively by parties whose interests are at stake. 
The recommended comprehensive research program would be a 
collaborative, cooperative research program that could be publicly and 
privately funded. The Board noted that full implementation should occur 
over several years after a careful start-up phase.
    The Department of Transportation used the Board's recommendations 
in developing its surface transportation reauthorization proposals. The 
Administration's 2004 Budget request presented a comprehensive research 
budget that allows for flexibility. This flexibility is necessary as we 
develop more specific strategies for implementing the comprehensive, 
collaborative, and cooperative research program recommended by the 
Board.
                       Biography for Eric E. Harm

Deputy Director, Division of Highways, Illinois Department of 
        Transportation

    1979--BS, Civil Engineering, University of Illinois, Urbana

    1980--MS, Civil Engineering, University of California, Berkeley

    1980--Began employment with the Illinois Department of 
Transportation (IDOT)

    1985-1998--Engineer of Physical Research, IDOT

    1998-2002--Engineer of Materials and Physical Research, IDOT

    Dec. 2002--Promoted to Deputy Director of Highways, Project 
Implementation

    As Deputy Director of Highways, responsible for:

        <bullet> Direction and coordination of the Division of 
        Highways' central bureau construction, materials testing, 
        physical research activities and the coordination of local 
        agency federal and local motor fuel tax programs.

        <bullet> Oversee development of technical policies, 
        procedures, and standards for program implementation 
        activities.

        <bullet> Ensure liaison among industry organizations to 
        provide forums for discussion of mutual concerns.

    Registered Professional Engineer--Illinois

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                   Answers to Post-Hearing Questions
Responses by Eric E. Harm, P.E., Deputy Director, Division of Highways, 
        Illinois Department of Transportation

Questions submitted by Democratic Members

Q1. You indicated during the hearing that funds for transportation 
research should be increased. How large an increase would be 
appropriate (e.g., 5 percent, 10 percent)? Should some of the increase 
come through a re-direction of funding for other transportation needs? 
If so, from which areas should the funding be re-directed?

A1. Depending on how one looks at increased funding, the percentage 
increase could be as high as 100 percent. Transportation research has 
been historically under funded. Only one-half of one percent of highway 
spending is allocated for research. This is less than practically any 
other industry. For example, the medical device industry and 
electronics industry spends 12 percent and 7 percent respectively on 
research.
    From the standpoint of practicality in terms of available research 
capacity to perform transportation-related research, some of the areas 
that need increases in research emphasis include: environmental, 
regional planning, economic impacts, financing transportation projects, 
road/highway intermodal impacts, controlled growth, and contact 
sensitive design processes and procedures. A 20-25 percent increase is 
reasonable and more importantly is deliverable.
    Ideally, the increase should come from increased funding and not 
taken away from existing funded transportation needs. Research should 
be looked at as an investment in addressing transportation needs and 
finding economical solutions and should be a part of all transportation 
modal programs. As such, if funds have to be redirected, it should be 
accomplished within each ongoing program. For example, transit research 
funding should come from within the funded transit programs, not 
highways or airport-funded programs.

Q2. Please describe the characteristics of the employees of the state 
DOT and of the metropolitan planning organizations throughout your 
state. How many employees are in these organizations? What are their 
educational backgrounds? Does the Department hire primarily people with 
advanced degrees (Masters and Ph.D.s) or primarily people with Bachelor 
and Associate degrees? How has the set of needed skills changed over 
the past decade or so, if at all? If you could design a curriculum to 
train future employees of the state DOT or the metropolitan planning 
organizations, what skills would you consider to be of greatest value?

A2. Illinois has 14 Metropolitan Planning Organizations that vary 
greatly in their levels of expertise and need. From our smallest areas 
with a staff of two to the Chicago MPO with a staff approaching 50 
employees, skill levels are diverse. As a general rule, even our 
smallest MPOs have staff with advanced degrees. Nearly all management 
staff at mid-size and large MPOs have advanced degrees with entry 
personnel having a minimum of a Bachelor's degree. Many, if not most, 
MPO employees' degrees are in urban planning or a related field.
    The skill needs have certainly changed over the years. MPO staffs 
still need basic planning and technical demand modeling, traffic 
analysis and cost-benefit analysis, but much of the role of the MPO has 
become working with the public and local officials. Planners would be 
well served with a curriculum that includes public speaking, public 
administration, government financing, project management and marketing. 
Not to underestimate the need for technical skills, but a more diverse 
set of skills would assist MPOs in explaining how transportation 
decisions are made and reducing the image of a technical black box from 
which answers magically appear.

Q3. What measures has the Illinois DOT used to evaluate the extent to 
which the Gateway Traveler Information System is used by commercial 
transportation operators and individual citizens? How has the 
implementation of this system reduced congestion and how have you 
measured changes in congestion that resulted from the implementation of 
this system?

A3. The Gateway Traveler Information System (Gateway) has been 
conceived, designed, deployed, and operated as a means to share real-
time traffic and transit information amongst the many transportation 
operators serving the three state, sixteen county Gary-Chicago-
Milwaukee (GCM) Corridor. Gateway also provides this high quality, 
current information to users of the system including individual 
travelers and commercial transportation operators.
    The premise is that better, multi-jurisdictional, and multi-modal 
real-time information will support more effective operations, more 
coordination across systems, and improved decision-making by 
transportation users. While Gateway is deployed it should be recognized 
that there are many more data sources and users still to be connected 
to the system to meet its ultimate design goals. Gateway currently 
receives data from seven major sources.
    One product of the Gateway is the www.gcmtravel.com website that 
provides the real-time information to private sector information 
service providers (ISPs), commercial transportation operators, and the 
general public. Another product is the capacity for commercial 
information services (such as ISPs and mass/broadcast media) to 
directly connect to the Gateway system and, by so doing, to have access 
to the Gateway real-time information.
    The new Gateway website and system was launched in November 2002. 
The Gateway expands the long-standing model of traffic information in 
the Chicago area whereby the Illinois DOT has collected, verified, 
processed, and distributed real-time traffic information to private 
sector partners for their redistribution to the broadest possible user 
base through mass-media broadcast (television and radio) and 
specialized commercial information services. This has proven to be a 
very effective and efficient partnership to get the information to the 
end user quickly for more than forty years.
    One measure of the success and impact of the Gateway system is the 
number of commercial information services that use and rely on the 
Gateway for their real-time traffic information, and the regular (every 
ten minutes) updates that commuters receive on traffic conditions 
through nearly every media in the
    Chicago area and throughout the GCM Corridor. There are currently 
eight principal commercial users registered to receive data from the 
Gateway either through the Internet interface or through a direct 
connection to the Gateway system. Recently new commercial information 
services have used the Gateway website to provide traffic data directly 
to users through cellular phones and personal digital assistants 
(PDA's). Several additional requests for connection to the Gateway 
system are being considered. Many other users have Internet links to 
the Gateway website. These applications, along with emerging in-vehicle 
technologies will rely on the Gateway as the single, integrated source 
of real-time traffic information in the GCM Corridor.
    Another measure of the success of the Gateway system is obtained by 
comparison with its peers (i.e., other traveler information systems). 
In 2002, after a comparison of the Gateway website with 215 comparable 
traveler information systems, USDOT gave the Gateway its ``Best 
Traveler Information Website'' award based on the content and ease of 
use. In 2003 the Intelligent Transportation Society of America (ITS 
America) gave the www.gcmtravel.com website its ``Best of ITS'' award 
in the consumer product category over three other finalists in that 
category.
    A more direct measure of the value of the Gateway website is the 
number of hits (users). In the most recent four month period (March 
2003 through June 2003), the www.gcmtravel.com website has averaged 
over 3.3 million ``hits'' per month for a total of over 13.3 million 
hits during this period. (Go to http://www.gcmtravel.org/stats/
index.html for Gateway usage statistics). Use of the Gateway website 
increased dramatically when the coverage was expanded to include real-
time traffic information on the Illinois Tollway system to supplement 
the information on Chicago, Milwaukee, and Gary expressways.
    Studies of similar systems have indicated that over 80 percent of 
travelers receiving specific route information changed their travel 
behavior (from San Francisco/Bay Area TravInfo data). Such behavior by 
users indicates that they are experiencing less congestion on the 
alternative routes they selected due, in part, to the availability of 
real-time traffic information.
    Another indicator of Gateway system performance is the large number 
of informal comments received from users including their evaluation of 
the services and their suggestions for improvements. The utility of the 
website is confirmed by the numerous inquiries received on the rare 
occasions when the system is unavailable due to communication or other 
lapses in service or reduced functions due to routine maintenance.
    As the Gateway system completes its final acceptance testing, 
Illinois DOT anticipates using more formal methods such as user 
surveys, focus groups, and statistical analysis of archived data to 
evaluate the performance of the Gateway and its impact on congestion, 
traveler behavior, and system operations.

                    Biography for C. Michael Walton

    Dr. C. Michael Walton is Professor of Civil Engineering and holds 
the Ernest H. Cockrell Centennial Chair in Engineering at the 
University of Texas at Austin (UT). In addition, he holds a joint 
academic appointment in the Lyndon B. Johnson School of Public Affairs.
    Dr. Walton, a native of Hampton, Virginia, earned a B.S. degree in 
civil engineering from the Virginia Military Institute in 1963. 
Following four years of military service as a Captain in the U.S. Army 
Corps of Engineers, he returned to academia to earn a Master's degree 
and a Ph.D. degree in 1969 and 1971 respectively from North Carolina 
State University, both in civil engineering. During this period he 
served in the Office of the Secretary, U.S. Department of 
Transportation in Washington and with the North Carolina State Highway 
Commission. In 1971 he joined the UT Austin faculty, pursuing a career 
in transport policy and engineering analysis that now spans more than 
30 years.
    Dr. Walton is a member of the National Academy of Engineering. He 
is a past-chair of the Transportation Research Board (TRB) Executive 
Committee and the western region vice chairman of the American Road and 
Transportation Builders Association (ARTBA). He is a founding member of 
the Intelligent Transportation Society (ITS) of America and currently 
serves as chair on the Board of Directors. He is a Fellow of the 
American Society of Civil Engineers and the Institute of Transportation 
Engineers. He also holds many other positions within the transportation 
profession's technical societies and industrial boards such as serving 
as secretary and member on the Board of Directors of the International 
Road Federation (IRF) and president of the Board of the International 
Road Educational Foundation. He has served on or chaired a number of 
national study panels, including those mandated by Congress and others 
by the National Research Council (NRC). He is chair of TRB's Committee 
for the Congressional Study for a Future Strategic Highway Research 
Program and the Research and Technology Coordinating Committee (FHWA). 
Other professional or technical society memberships include American 
Society for Engineering Education, Institute for Operations Research 
and the Management Sciences, National Society of Professional 
Engineers, Society of American Military Engineers, Society of 
Automotive Engineers, and the Urban Land Institute.
    Dr. Walton is the recent recipient of the 2000 George S. Bartlett 
Award in recognition for outstanding contributions to highway progress. 
He was selected by a Board of Award comprised of the President and 
Executive Director of each of the three sponsoring organizations--
American Association of State Highway and Transportation Officials 
(AASHTO), TRB and ARTBA. The Bartlett Award is unusual in that it is 
the only award jointly sponsored by the three organizations and is 
considered to be among the highest honors in the highway transportation 
profession. The American Society of Civil Engineers noted the technical 
contributions of Dr. Walton by honoring him with several awards 
including the 1999 Francis C. Turner Lecture for contributions to 
transportation research, education and practice, the 1992 James Laurie 
Prize for contributions to the advancement of transportation 
engineering; the 1987 Harland Bartholomew Award for contributions to 
the enhancement of the civil engineer's role in urban planning and 
development; and the 1987 Frank M. Masters Transportation Engineering 
Award, for innovations in transport facility planning. The 
Transportation Research Board presented Dr. Walton with the 1998 W.N. 
Carey, Jr. Distinguished Service Award in recognition of outstanding 
leadership in support of transportation research. In 1995, he was named 
TRB's Distinguished Lecturer in recognition of the research 
contributions over his entire career. The American Road and 
Transportation Builders Association presented Dr. Walton with the 1994 
S.S. Steinberg Award recognizing his outstanding contributions to 
transportation education. He received the 1995 Distinguished 
Engineering Alumnus Award from the College of Engineering at North 
Carolina State University. The College of Engineering at The University 
of Texas at Austin awarded Dr. Walton the 1996 Joe J. King Award, their 
highest professional award, in recognition of his outstanding 
leadership to the engineering profession. The Institute of 
Transportation Engineers has awarded him the 1996 Wilbur S. Smith 
Distinguished Transportation Educator Award in recognition of 
outstanding contributions to the transportation profession by relating 
academic studies to the actual practice of transportation.
    Dr. Walton has contributed to more than 200 publications in the 
areas of ITS, freight transport, and transportation engineering, 
planning, policy and economics, and he has delivered several hundred 
technical presentations. He has served as senior editor or contributing 
author for a variety of technical reference books and manuals and as a 
member of the editorial board for several international journals.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions

Responses by C. Michael Walton, Ernest H. Cockrell Centennial Chair, 
        University of Texas-Austin, Department of Civil Engineering

Questions submitted by Democratic Members

Q1. You indicated at the hearing that funds for transportation 
research should be increased. How large an increase would be 
appropriate (e.g., 5 percent, 10 percent)? Should some of the increase 
come through a re-direction of funding for other transportation needs? 
If so, from which areas should the funding be re-directed?

A1. The Transportation & Infrastructure Committee has proposed 
authorizing $375 billion over six years for surface transportation. 
This would represent a substantial increase in transportation funding 
over the $218 billion authorized for surface transportation programs in 
TEA-21. Growth of transportation research funding should reflect the 
growth of the overall program, demonstrating the Congress's continued 
support for research priorities. In this scenario, the increase in 
funding need not come from the redirection of funding from other 
transportation needs; rather, any increase in funding should simply be 
directly proportional to the increase in the authorized funding levels 
for highways, transit, highway safety, and other programs.
    In the event that overall program funding does not grow 
substantially, a healthy increase in research funding of at least 25 
percent to 33 percent is still warranted to address national 
transportation needs, such as increasing highway fatalities, increasing 
congestion, and the imperative to minimize environmental impacts and 
maximize the economic benefits of transportation. Since the benefits of 
national level research would support all facets of the surface 
transportation program, the increase in research funding could be 
supported through redirecting funds proportionally from the major 
surface transportation program areas.

Q2. Vehicle miles traveled have increased at a rate much greater than 
the increase in licensed drivers. So, each driver is making more trips 
and driving more miles contributing to the increased congestion on our 
roadways. Yet, you do not mention any research in the F-SHRP program to 
examine the causes of this increased travel demand. Also, your 
description of the F-SHRP program places all emphasis on highways. The 
highway system is embedded in a larger transportation system involving 
secondary roads, airports, long-distance passenger and freight rail, 
and transit yet the program you describe appears to ignore the rest of 
the transportation system. What happened to intermodal considerations 
in the research agenda?

A2. In TEA-21, Congress specified a strategic ``highway'' research 
program, so the original F-SHRP committee developed the proposed 
program around highways. Nevertheless, the Committee recognized the 
important point in this question--that the highway system is part of a 
much larger system, involving other transportation modes as well as the 
economy, communities, and the environment. The Capacity area of F-SHRP 
explicitly casts the problem of highway capacity in this larger 
context. In this portion of F-SHRP, there is research oriented toward 
travel demand and the relationship of highways to local and regional 
economies (which includes the role of freight transportation). The 
major products envisioned by the Capacity research--a decision 
screening process and a ``workstation'' that includes analysis and 
design tools--include consideration of non-highway and non-construction 
alternatives to building new highway capacity to meet increasing 
demand. In addition, the Renewal portion of F-SHRP will consider both 
the impacts of highway renewal on rail and transit and the role of 
transit in absorbing demand during (and potentially after) renewal 
projects. While F-SHRP was not intended to be an ``intermodal'' 
research program, we believe that we have integrated other modes where 
appropriate. The scale and complexity of F-SHRP makes it difficult to 
represent the program comprehensively in a short testimony. Your staff 
has recently been provided with the current version of the detailed 
research plans for the program and the F-SHRP Oversight Committee is 
actively working on developing more accessible summaries of the plans 
(which total more than 700 pages).

Q3. How does the make-up of the stakeholder group organized to develop 
the F-SHRP agenda differ from the stakeholder group that advises and 
directs the research agenda of the Highway Cooperative Research Program 
administered through the Transportation Research Board? If the 
Transportation Research Board's research agenda receives input from the 
stakeholder community and the stakeholder community feels these areas 
of research are a priority, why hasn't the Highway Cooperative Research 
Program provided funding in these areas? How do we reconcile the 
recommendation of the F-SHRP committee to have this program 
administered separately from existing programs with the recommendation 
that the Transportation Research Board administer the program? Why 
would TRB administer this program better/differently than it 
administers the cooperative research programs?

A3. The National Cooperative Highway Research Program (NCHRP) is the 
research program of the Association of State Highway and Transportation 
Officials (AASHTO) and is administered by TRB at the request of AASHTO. 
The stakeholder group that programs and guides NCHRP is an AASHTO 
committee composed entirely of executives and research managers from 
the state departments of transportation. NCHRP conducts research on 
questions that face a large number of state DOTs and which can be 
solved through individual projects in a relatively short (1-2 years) 
timeframe. F-SHRP, on the other hand, has been guided by a number of 
stakeholder groups (committees and panels) comprising not only 
representatives of State DOTs, but also local governments, federal 
agencies, the private sector, universities, and various interest 
groups. In addition to the formal committees and panels, stakeholder 
input has been sought from other organizations through workshops, focus 
groups, mailings, and an interactive web site. The resulting research 
areas reflect not only the priorities of the state DOTs, but priorities 
that are shared by a wider spectrum of stakeholders. The research in F-
SHRP is larger in scale and scope than that of NCHRP and requires a 
higher degree of coordination among the projects themselves. Although 
some shorter-term results are expected, the overall goals of F-SHRP 
require a focused effort of 6 or more years, in contrast to the shorter 
timeframe of NCHRP. F-SHRP also required more than twice the annual 
NCHRP budget, so NCHRP could never fund work at this scale. In fact, 
TRB's successful administration of NCHRP, along with the successful 
administration of the first SHRP through a special unit of the National 
Research Council (NRC)--which was basically a sister unit to TRB--has 
strongly influenced the desire of stakeholders to have F-SHRP 
administered through NRC/TRB.

Q4. Dr. Walton, under the research category of ``reliable travel 
times'' you list several items that have been the focus of ITS research 
and safety research for a number of years now--decreasing response 
times to traffic incidents and preventing non-recurring incidents. How 
is the research envisioned under the F-SHRP program different from the 
ongoing work in this area in the safety and ITS programs?

A4. The Reliability and Safety areas of F-SHRP are closely related to 
programs conducted through the ITS Joint Program Office (JPO); however, 
the F-SHRP research in each case has a distinct objective and distinct 
research tasks and methods, which are described below:

        <bullet> In the Reliability area, F-SHRP plans to develop 
        implementable strategies for addressing a wide range of causes 
        of congestion or, more specifically, travel time unreliability. 
        F-SHRP includes both research to gain more fundamental 
        knowledge about travel time reliability and development of new 
        technologies, areas that FHWA does not often fund. The 
        Reliability research plan also stresses the fuller context in 
        which particular technologies and methods must be implemented, 
        including institutional issues, human behavior, data needs, 
        performance measurement, analytical methods, and design and 
        traffic management procedures. Even where F-SHRP projects have 
        a strong applied focus and could conceivable be funded as FHWA 
        projects, F-SHRP offers the opportunity to significantly 
        increase and concentrate research resources on high pay-off 
        topics. The research plan has been discussed with FHWA staff to 
        avoid possible overlap; as a result, several originally 
        proposed projects were eliminated and an entire topic (related 
        to weather) was re-designed. In addition, F-SHRP has a strong 
        emphasis on implementation, which because of limited funding 
        FHWA is unable to focus on as much.

        <bullet> In the Safety area, the main body of the research is 
        aimed at gaining fundamental knowledge about driver risk-taking 
        behavior in order to develop fundamentally improved safety 
        countermeasures. The ITS Intelligent Vehicle Initiative (IVI) 
        program is currently conducting a ``naturalistic driving'' 
        study, which is testing the feasibility of using advanced 
        technologies to study driver behavior. This study is intended 
        to be a pilot for a larger-scale study that will ultimately 
        support the implementation of safety-related ITS technologies 
        (such as collision avoidance technologies). While the larger-
        scale IVI study and the F-SHRP study may use similar data 
        gathering technologies and methods (in fact, the current 
        naturalistic driving study is effectively a pilot study for F-
        SHRP also), the two studies have different goals, will collect 
        different data, and will perform different analyses. The IVI 
        study is expected to focus more on driver behavior in general 
        and is interested in data and analyses that support the 
        implementation of ITS technologies. The F-SHRP study is 
        interested in behaviors associated with particular crash types 
        but is interested in analyses that could lead to a variety of 
        potential countermeasures, whether ``high-tech'' or ``low-
        tech,'' involving vehicle, infrastructure, driver, or 
        enforcement. In addition, part of the F-SHRP study involves 
        instrumenting intersections, rather than vehicles, something 
        which is not part of the IVI study. F-SHRP will also be 
        developing methodologies for the use of advanced technologies 
        in safety research, including methods for data gathering, 
        access, storage, analysis, and management. These methods do not 
        currently exist. A segment of the F-SHRP safety program will 
        also involve rigorously scientific evaluation of selected 
        existing safety countermeasures. If both programs are funded, 
        they will work together wherever appropriate (the NHTSA 
        managers of the relevant ITS projects are involved with the F-
        SHRP planning effort). For example, if they use a common data 
        format, they could share relevant data, which would effectively 
        increase the sample size and statistical power of each study, 
        while allowing each to perform independent analyses and 
        contribute to the development of different countermeasures.

Q5. How did ITS America evaluate the utility of the cost and benefit 
database that is maintained for categories of ITS products? Did you 
survey State and local governments to determine how often they used the 
database to guide their decisions and to determine if they felt the 
information was presented in a form that was useful to them? Is the 
information complete enough and comparable enough to enable State and 
local governments to be confident that the cost and benefit information 
will reflect their experience with these systems?

A5. ITS America has not undertaken a formal evaluation of the ITS 
costs/benefits database maintained by the U.S. Department of 
Transportation. The organization's assessment of the utility of the 
database to ITS stakeholders is based on informal feedback from ITS 
America members. We have found that the cost and benefit data are used 
extensively by operations-level ITS practitioners and transportation 
planners within state and local departments of transportation, as well 
as metropolitan planning organizations. These stakeholders have used 
the available data as input to modeling activities which have direct 
impact on decisions on whether to deploy ITS, and how much if it to 
deploy. One example of this is IDAS (ITS Deployment Analysis System), a 
sketch-planning tool for transportation planners to use in assessing 
the incremental costs and benefits of adding ITS to a regional 
transportation network.
    However, ITS America has also received negative feedback from its 
membership on the utility of data from the ITS benefits and costs 
databases. Both databases represent compilations of small-scale studies 
of the deployment of a single ITS technology (such as a traveler 
information system or an advanced traffic management system) within a 
limited geographical area. These studies fail to capture the safety, 
security, or congestion mitigation benefits to be derived from the 
integration of multiple ITS technologies within a metropolitan area, 
and the sharing of resultant information with transportation planners, 
system operators, and the traveling public.
    During the late 1990s, the U.S. Department of Transportation 
sponsored ITS Model Deployment Initiatives, designed to demonstrate the 
benefits of limited integration a select number of cities. These 
studies, while yielding useful data, only demonstrated the integration 
of two or three ITS technologies deployed on select corridors within a 
metropolitan area. However, to date, there has been no study that has 
attempted to measure the benefits to be derived from fully deploying 
and integrating multiple ITS technologies within a given metropolitan 
area. Such studies could better demonstrate the impact of full (rather 
than limited) deployment of ITS technologies on the traffic congestion 
experience within a given metropolitan area. Data derived from the 
study of a fully integrated network of transportation information would 
have far more utility to transportation planners than is presently 
available in the ITS costs and benefits databases.

Q5a. LDid you survey State and local governments to determine how often 
they used the database to guide their decisions and to determine if 
they felt the information was presented in a form that was useful to 
them?

A5a. ITS America does not conduct formal surveys with state and local 
governments. However, USDOT does use a formal survey tool to gather the 
data that supports the deployment tracking database. This database 
provides extensive and detailed information about the extent of ITS 
deployment currently present in all 50 states, focusing on the Nation's 
78 largest metropolitan areas, 30 of its medium cities, and 20 tourist 
cities. The high levels of responsiveness to this detailed survey seems 
to indicate that the localities surveyed find some intrinsic value to 
providing the information and being able to analyze it once all the 
results are compiled.

Q5b. Is the information complete enough and comparable enough to 
enable State and local governments to be confident that the cost and 
benefit information will reflect their experience with these systems?

A5b. The information in the ITS costs and benefits databases can 
provide states and localities with some of the necessary information to 
make their decisions whether to invest in ITS. However, the utility of 
this data has been limited by the relatively few number of studies 
available and the failure to include evaluations of integrated data 
from a metropolitan-area wide deployment of ITS.
    Databases of this nature take a long time to populate, especially 
given the time frames needed for evaluation and operational testing 
activities. As more projects are evaluated, we obtain more and better 
data for a wider variety of technologies and systems. Populating the 
database is also dependent on the extent to which project managers 
document the results of ITS deployment. The U.S. Department of 
Transportation has attempted to address this issue is by offering, 
through one of its contractors, a training course in ITS Evaluation 
Techniques. The Department of Transportation also surveys ITS 
practitioners with respect to cost/benefit data needs and attempts to 
fill these data gaps through its operational testing and National 
Evaluation programs.
    However, even after taking these measures, the ITS costs and 
benefits databases will continue to be inadequate to meet the needs of 
State and local governments considering deploying ITS. Absent is data 
on the costs and benefits of fully deploying and integrating multiple 
ITS technologies within a given metropolitan area. A comprehensive 
study of a fully integrated network of transportation information 
within a given metropolitan area would provide transportation planners 
with a more complete and accurate assessment the potential benefits of 
ITS.

                    Biography for Katherine Siggerud

    Katherine (Kate) Siggerud is an Acting Director of the Physical 
Infrastructure Team for the U.S. General Accounting Office (GAO). For 
the past several years, she has directed GAO's reviews of surface 
transportation issues including the investment requirements for 
transportation infrastructure, the effectiveness of transportation 
research programs, and the interaction between transportation and the 
environment. Ms. Siggerud received her Bachelor of Arts degree from 
Macalester College and a Master of Public Policy degree from the 
Humphrey Institute of Public Affairs at the University of Minnesota.

                      Biography for Anne P. Canby

    Ms. Canby is President of the Surface Transportation Policy 
Project. She was formerly a Principal of Canby Associates and served as 
a Senior Consultant with Cambridge Systematics, providing consulting 
services to advance transportation choices. She served as Delaware's 
transportation secretary from 1993 to 2001. She is recognized 
nationally as a progressive leader in the transportation field for 
transforming a traditional highway agency into a multimodal mobility 
provider and as an advocate for integrating land-use and transportation 
planning. Under her leadership, the Department shifted emphasis from 
highway expansion to providing choice, preserving and managing the 
existing transportation system; improving transit service was a 
priority; the Department invested in integrated technology initiatives 
as part of its overall business plan in support of system management 
and internal operations; training and diversity programs were 
instituted to strengthen professional skills of Department staff; 
strong public outreach programs were initiated. A key area of emphasis 
was on shaping transportation projects to enhance communities. Ms. 
Canby has been recognized in the leading state newspaper as the most 
creative and competent cabinet member of the Carper Administration.
    Prior to serving in this post, Ms. Canby lead a consulting practice 
focusing on institutional and management issues with particular 
emphasis on implementation of ISTEA.
    She has served as Treasurer of the Massachusetts Bay Transportation 
Authority, Commissioner of the New Jersey Department of Transportation 
and Deputy Assistant Secretary of the U. S. Department of 
Transportation. Ms. Canby has served on the executive committee or 
board of numerous transportation organizations, including the 
Transportation Research Board, AASHTO, NASTO. She is a member of the 
Urban Land Institute, ITE's National Operations Steering Committee, and 
the Women's Transportation Seminar.
    She has been recognized for her leadership by the American Public 
Transportation Association, the Association of Metropolitan Planning 
Organizations, and the DE Chapter of the American Planning Association.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Anne P. Canby, President, Surface Transportation Policy 
        Project

Questions submitted by Democratic Members

Q1. LA recent article in the Washington Post indicated that children 
now spend a significant part of each day riding in a vehicle as parents 
transport their siblings and run household errands. This has 
implications for children's health and suggests that non-work commuting 
trips have been increasing. Are these types of trips and these 
``users'' of the transportation system being considered within 
transportation research programs, statistics gathered by the Bureau of 
Transportation Statistics and in transportation system designs?

A1. The Bureau of Transportation Statistics is only beginning to really 
think of children as active users within the transportation system. The 
inclusion of young children (aged 0-5) in the 2001 National Household 
Travel Survey has filled a big gap in terms of our knowledge about 
children's travel patterns (this is the source of the data quoted in 
the Washington Post article). However, the focus of research to date in 
the transportation engineering field has been on child restraint 
systems for children as passive riders in vehicles. In-vehicle systems 
for child restraint have saved many lives--this is a success story that 
cannot be praised too much.
    We are very concerned that the other side of childhood--the active 
side--is still being under-studied and under-valued. The U.S. 
Department of Transportation's bi-annual Conditions and Performance 
report of 2002 only addresses childhood travel in two paragraphs 
(discussing the school trip), in a report several hundred pages long. 
Transportation engineers need a rock-solid base of knowledge to work 
from when they begin a project that needs to be designed to create a 
high-performing pedestrian system for children using the transportation 
system under their own steam.
    In terms of traffic safety, safe pedestrian facilities are even 
more important for children than adults. Young children do not have the 
ability to safely judge speed of oncoming traffic; pedestrian crossings 
and sidewalks must be designed with this in mind. Although traffic 
engineers have made great strides in regard to pedestrian safety 
methodology across the world, there remains a professional disregard 
for pedestrians and therefore for children in the U.S. transportation 
design world. Primary importance is still laid on level of service for 
motorized traffic, with little concern for level of service for 
pedestrians, especially child pedestrians. Active children are by 
definition walking or bicycling, as they cannot drive. These children 
cannot be protected by seat belts or other restraint systems. Even 
bicycle helmets have a limited value, as they only protect one vital 
part of the child's body.
    Public health advocates have given us another reason lately to be 
concerned about safe activity for children. The CDC has found that 
children are now overweight at three times the rate they were in 1980. 
Moving around as part of daily chores--for example walking, rather than 
riding for even a part of children's current 62 minutes per day in the 
back seat--could make a huge difference in the physical activity level 
of children.
    Air quality inside cars is another area of concern. In-car air 
quality has been shown to be 2-3 times worse than ambient air quality, 
and the amount of time and number of trips that young children make in 
cars has been increasing. Research in this area is badly needed, 
especially in light of the links that are being found between air 
pollution and childhood onset of asthma.
    Transportation models still focus almost exclusively on peak-hour 
work trips, as these are the most predictable trips within the system. 
However, their decreasing share of the total--work trips in 2001 made 
up just 15 percent of all trips--indicates that models must change 
substantially to anticipate vehicular transportation throughout the day 
and different trip purposes and lengths. Models should also include 
multiple modes of travel in order to allow transportation planners to 
weigh pedestrian and other mode trips equally with vehicles.

Q2. How well is our transportation system serving the individuals in 
our society who cannot drive--the elderly, the disabled, the poor, and 
children? Are there adequate studies to examine the transportation 
needs of these individuals and to guide the development of programs to 
address their needs?

A2. Nearly six percent (5.9 percent) of Americans are 75 years or older 
according to the latest decennial Census data. Additionally, 6.5 
percent of Americans have a disability that makes it difficult to go 
outside their homes. Almost 23 percent of Americans are 15 years or 
younger. And fully one out of ten American households (representing 
about ten percent of Americans) do not own a vehicle. Clearly there is 
double-counting among these statistics, but a conservative estimate 
indicates that about one-third of Americans cannot drive because they 
are too young, too old, or too infirm.
    In the wake of the recent tragedy in Santa Monica, California, a 
national debate has reemerged over older drivers. Richard Weller's 
unintentional but horrific crash is heartbreaking for all involved, 
both the victims, and Mr. Weller himself. Nearly all of the debate 
surrounding the issue focuses on licensing requirements and safety 
standards. While these are undoubtedly critical questions, they fail to 
address one of the most significant problems underlying the entire 
issue. Older Americans are reluctant to give up driving simply because 
they have no other choice.
    Though children are restricted from driving, unlike older adults, 
they often enjoy the convenience of a chauffeur--their parents. 
According to the 2001 National Household Travel Survey (NHTS), more 
than seventy percent of all trips made by children six to 15 years of 
age are made in a private vehicle, with someone else at the wheel. This 
is up nearly 11 percent from the 63.4 percent of trips made by children 
in a private vehicle in 1977, and puts a tremendous burden on already 
overwhelmed parents.
    The available data does not permit us to determine how many 
Americans cannot afford to drive. But there is data on the burden that 
transportation costs place on the poor. The Bureau of Transportation 
Statistics (BTS) examined this issue in a recently released Issue 
Brief. In that study the BTS found that the working poor who commute by 
private vehicle spend fully 21 percent of their income to get to and 
from work. In contrast, those making $45,000 or more per year spent 
only 2.6 percent of their income on commuting by private vehicle, and 
the national average was just 4.9 percent. Data from the Bureau of 
Labor Statistics (BLS) also offers some insight into the high cost of 
transportation. According to the most recent Consumer Expenditures 
Survey from the BLS, the poorest fifth of families--making an average 
of $7,911 per year, after taxes--spent 38 percent of their take home 
pay on owning and operating private vehicles.
    We've engineered and planned ourselves into almost total dependency 
on one form of transportation, and now we're paying the price, in the 
form of social isolation, higher obesity rates (even among children), 
financial strain, and tragic accidents like the one that took ten lives 
in Santa Monica. Without the ability to drive, most Americans, and 
especially the elderly, young, poor, and disabled are left stranded at 
home and isolated from their friends and communities, unable to reach 
shops, doctors offices, or jobs without assistance from others.
    Unfortunately, it is difficult to gauge the magnitude of the 
problem. While there is plenty of data and research on driving, there 
is much less on alternative modes such as public transportation, 
bicycling, and walking. And information on travel behavior by 
demographic groups is scarce. The most reliable source of this data is 
the National Household Travel Survey (previously called the Nationwide 
Personal Transportation Survey). But this survey is conducted 
infrequently--once every five years--and data is not available at the 
micro-level, except for a handful of larger metropolitan areas.
    With one-third of Americans unable to drive, it is critical that we 
gain a better understanding of the travel behavior by this large 
segment of the population. Transportation planners must have more 
information on how, when, and where all members of society travel so 
that they can ensure mobility and access for all Americans.

Q3. Based upon your previous experience with the state of Delaware, 
please describe the characteristics of the employees of the state DOT 
and of the metropolitan planning organizations throughout your state. 
How many employees are in these organizations? What are their 
educational backgrounds? Does the Department hire primarily people with 
advanced degrees (Masters and Ph.D.s) or primarily people with Bachelor 
and Associate degrees? How has the set of needed skills changed over 
the past decade or so, if at all? If you could design a curriculum to 
train future employees of the state DOT or the metropolitan planning 
organizations, what skills would you consider to be of greatest value?

A3. Delaware's transportation agency has responsibility for almost the 
entire road network in the state, ranging from subdivision cul-de-sacs 
to the Interstate system. The DOT also operates all of the transit 
service in the state and owns several rail branch lines. There are two 
metropolitan planning organizations in Delaware with a combined staff 
of approximately 8-12. They are primarily planners and administrative 
staff.
    The number of employees in the state DOT is approximately 2,000. 
The employee mix is composed of a range of job classifications. The 
bulk of the employees are highway maintenance workers and bus drivers. 
In addition, the Department is staffed with transportation planners, 
civil engineers and engineering technicians who are responsible for 
system planning, project development and design, construction, and 
maintenance. There are also traffic engineers and technicians who focus 
on traffic operations. Toll collectors and mechanics are part of the 
workforce as well. The administrative support staff has finance, human 
resource, information technology, contract, budget and accounting 
personnel. I believe that some of the professional staff have advanced 
degrees, i.e., a B.S. in civil engineering with a Master's in planning, 
public administration or engineering. It is my assumption that most of 
the Department's professional staff have a Bachelor or associate 
degree. The salary levels offered by the state make it difficult to 
recruit candidates with advanced degrees. The more likely course is 
that some employees pursue advanced degrees with the Department's 
support during the course of their career.
    As the agency moved, under my leadership, from a full time focus on 
road construction to greater emphasis on system operations, integrating 
technology into all aspects of our operations, greater emphasis on 
accommodating non-highway modes, much more public outreach, 
environmental stewardship, planning and financial management, the 
skills that we needed changed dramatically. Our move into technology 
highlighted the need for electrical and systems engineers; the 
upgrading of our planning activities required that trained planners 
rather than engineers be hired. Our emphasis in building pedestrian 
facilities highlighted the need for our planners and engineers to have 
a greater understanding of and appreciation for the pedestrian 
environment. It is relatively easy to design a sidewalk, but designing 
one that people find comfortable, safe and inviting to use requires 
different thinking than when designing just to move vehicles. In 
addition, the demand placed on the project design staff broadened 
beyond their normal technical training to include the need for project 
and budget management and public communications skills, greater 
creativity and flexibility in working with the engineering guidelines, 
and learning how to design transit and pedestrian facilities.
    From my experience, the current engineering curriculum does not 
provide engineers with a broad enough perspective of the full range of 
disciplines they need in order to succeed in today's multimodal 
environment and collaborative decision-making process. Beyond 
individual training, the importance of having a mix of professional and 
technical skills working as a team is very important in developing the 
best transportation product and being able to make reasonable trade-
offs between costs, public concerns, modal choice and technical 
engineering issues. In Delaware, we initiated a team approach for a 
select number of projects and found that not only was the product 
better, but that the staff recognized that bringing multiple skills 
together to develop the product was very rewarding.
    Further, as we move into a world that requires the integration of 
all transportation modes into a seamless system, the demands for 
transportation system thinking capabilities will grow. State 
transportation agencies have to move away from the long standing 
dominance of the engineering mindset and broaden their cultures to 
include a broader systems perspective that incorporates multiple modes 
and disciplines in a balanced integrated organization. Two major 
challenges in accomplishing this are the fact that almost all the state 
DOTs are responsible for only one portion of one mode, state highways, 
and that engineers dominate the decision-making process within their 
agencies often to the exclusion of other professional disciplines.
    To conclude, there are two directions that training and curriculum 
should address, first broadening the curriculum for the engineering 
staffs in DOTs to include areas that I mentioned above and learning to 
work in multi-disciplinary teams. The latter should be emphasized at 
both the undergraduate and graduate levels.

                     Biography for Michael D. Meyer

    Dr. Michael D. Meyer is a Professor of Civil and Environmental 
Engineering, and former Chair of the School of Civil and Environmental 
Engineering at the Georgia Institute of Technology. From 1983 to 1988, 
Dr. Meyer was Director of Transportation Planning and Development for 
Massachusetts where he was responsible for statewide planning, project 
development, traffic engineering, and transportation research. Prior to 
this, he was a professor in the Department of Civil Engineering at 
M.I.T.
    Dr. Meyer has written over 140 technical articles and .has authored 
or co-authored numerous texts on transportation planning and policy, 
including a college textbook for McGraw Hill entitled Urban 
Transportation Planning: A Decision Oriented Approach. He was the 
author of Transportation Congestion and Mobility: A Toolbox for 
Transportation Officials, a book sponsored by the Institute of 
Transportation Engineers and the Federal Highway Administration that 
focuses on transportation actions that can be implemented to enhance 
mobility. He is an active member of numerous professional 
organizations, and has chaired professional committees relating to 
transportation planning, public transportation, environmental impact 
analysis, transportation policy, transportation education, and 
intermodal transportation.
    Dr. Meyer has worked closely with Federal, State, regional, and 
local transportation agencies in defining mobility strategies and 
policies targeted at improved transportation system performance. He is 
a noted speaker on many transportation issues and has been actively 
involved in many states and metropolitan areas in defining future 
transportation directions. He has consulted with numerous 
international, national, regional and local agencies in developing 
transportation plans and strategies that have been successfully 
implemented.
    Dr. Meyer is the recipient of numerous awards including the 2000 
Theodore M. Matson Memorial Award in recognition of outstanding 
contributions in the field of transportation engineering; the 1995 Pyke 
Johnson Award of the Transportation Research Board for best paper in 
planning and administration delivered at the TRB Annual Meeting; and 
the 1988 Harland Bartholomew Award of the American Society of Civil 
Engineers for contribution to the enhancement of the role of the civil 
engineer in urban planning and development. He was recently appointed 
to the Executive Committee of the Transportation Research Board.
    Dr. Meyer has a B.S. degree in Civil Engineering from the 
University of Wisconsin, an M.S. degree in Civil Engineering from 
Northwestern University and a Ph.D. degree in Civil Engineering from 
M.I.T. He is a registered professional engineer in the State of 
Georgia.
                   Answers to Post-Hearing Questions

Responses by Michael D. Meyer, Professor, Georgia Institute of 
        Technology, School of Civil and Environmental Engineering

Questions submitted by Democratic Members

Q1. You indicated during the hearing that funds for transportation 
research should be increased. How large an increase would be 
appropriate (e.g. 5 percent, 10 percent)? Should some of the increase 
come through a re-direction of funding for other transportation needs? 
If so, from which areas should the funding be re-directed?

A1. My experience as a state DOT Director of Planning and Research has 
been that research often more than pays for itself through the greater 
efficiency or lower costs that result from the research products. By 
most measures, the transportation industry and profession are not 
investing enough in research, especially when compared to international 
practice.
    The common practice in the public sector in the U.S. is to 
establish research funding programs through a ``takedown'' of federally 
allocated transportation dollars. Currently, the percentage takedown is 
0.5 percent dedicated to research. I would recommend that this 
percentage be increased to 0.75 percent, realizing, of course, that 
many states would most likely oppose such a proposal. The increase is 
less than that recommended by the industry-led Research and Technology 
Forum, but their proposed doubling of research funding did not identify 
the federal-aid transportation program as the source of dollars. Some 
portion of this additional increase should be directed to national 
research programs that are not managed or directed by the state DOTS. 
In other words, this increase should not simply be used to augment the 
NCHRP program.
    The issue of redirecting of funds is a difficult one. I have no 
doubt that existing research programs, by and large, are producing 
important results, even though some programs are targeted on fairly 
narrow topics. To redirect from these programs might by unproductive. 
The research program I am suggesting is a modest initiative, a 
suggested $5 million, which could be easily attached to other proposed 
programs (e.g., F-SHRP or the Strategic Environmental Research 
Program). Importantly, however, Congress would have to be very specific 
on how these dollars were to be spent so that the intent of the program 
is met.

Q2. You stated in your testimony that we need to better understand our 
transportation system from a holistic view and understand the social 
and economic demands upon the system. We heard similar suggestions when 
authorized TEA-21 six year ago. Why do you think the transportation 
profession has been unresponsive to these types of analyses? You 
recommended the Transportation Research Board should oversee this type 
of research agenda. However, the proposal for F-SHRP does not include 
any of societal issues you feel need to be addressed. Given the 
composition of the Transportation Research Board, is there broad 
interest in supporting this type of research and then implementing the 
findings of the research?

A2. The ``unresponsiveness'' of the transportation profession to a 
holistic view of transportation system analysis is not so much an issue 
of desire as it is of funding. Most of the funding for transportation 
research comes from implementing agencies, that is, state DOTs, transit 
agencies, FHWA, and FTA. The National Science Foundation has recently 
begun to fund transportation-related research, but this has not focused 
on the bigger picture issues. There is little question that the product 
of our nation's transportation research effort reflects the constraints 
placed upon it by funding sources.
    With respect to F-SHRP, once again the defining boundaries of the 
research program were defined by agencies that desire short-term 
satisfaction, in this case, state DOTS (through AASHTO). The research 
is targeted in four areas--safety, reliability, capacity and 
operations. I was a member of one of the committees helping to define 
the types of projects in the program. Several of us attempted to 
broaden the perspective of the research program to no avail. Thus, 
however, does not imply that TRB is unable to guide a research 
initiative as I propose, because it all depends on how one establishes 
the program. TRB has an excellent record of managing research within 
the boundaries established by sponsors. TRB would be able to bring 
together the necessary disciplines (especially social sciences) to 
assure quality products.
    As a member of the Executive Committee of TRB, I know many other 
Executive Committee members share my interest and excitement about a 
more holistic perspective on transportation research. With the well-
established peer review process of TRB, I believe it remains the 
logical choice to administer this research effort.

Q3. You indicated in your testimony that the transportation profession 
has tended to neglect demographic and social trends and thus our 
highway planning is not as efficient as it could be. Why do you think 
transportation planners do not consider this type of information in 
their work? What recommendations would you make to encourage 
transportation professionals to consider these factors?

A3. I did not mean to imply in my testimony that transportation 
planners neglect demographic and social trends. Indeed, basic to any 
transportation planning effort is an initial activity to predict future 
demographic, economic and community characteristics in order to 
forecast resulting travel demands. However, in most cases, these 
efforts are fairly straight forward analysis efforts with little 
attempt to understand broader implications and consequences. A current 
example is the finding from the 2000 Census that as the population 
ages, more of the elderly population is remaining in the same 
household, instead if moving to retirement communities in the south and 
southwest. This so-called ``aging in place'' phenomenon has huge 
implications not only for transportation, but also for health, housing 
and recreational activities. The phenomenon could have been anticipated 
long before the 2000 Census by the transportation community.
    In order for the transportation community to consider important 
trends in the context of its work, these trends must first be made 
known. This, of course, leads to the need for a research effort. 
Another important characteristic of getting the transportation 
profession to consider these factors is the dissemination of the 
results of the research. It is not helpful to conduct analyses on 
social, demographic, and technological trends if the results are not 
disseminated widely to the profession. This is another reason why TRB 
is an appropriate home for this research program. It has developed over 
many years very effective mechanisms to distribute the results of 
research to the profession.

Q4. You indicated in your testimony that you have just completed a 
research project that addressed how environmental considerations can be 
included much earlier in transportation planning and decision-making. 
You believe that this will allow projects to develop faster and will 
also result in better decisions. Could you explain how this would be 
done? Now that your research is completed, how could the findings be 
incorporated into standard practice?

A4. Our research project, entitled ``Incorporating Environmental 
Considerations Into Transportation Systems Planning,'' was funded by 
NCHRP. We examined planning and project development for transportation 
projects to identify where environmental factors could be considered 
earlier in the decision making process. The intent was to develop 
better projects in a faster time frame. In every case study we 
examined, such as Florida, we determined that it is very possible to do 
so. One of the ways of doing this is to define an acceptable ``purpose 
and needs'' statement in the planning process that satisfies such a 
requirement during environmental analysis. The current attention given 
to context sensitive design is another example that illustrates the 
importance of collaborative planning and design early in project 
development. Developing a state inventory of environmentally sensitive 
areas is a critical foundation for doing any of this. It is surprising 
in today's age of database management and geographic information 
systems that many state DOTS have not done this. For example, I 
attended a conference last year on historic (Section 106) properties 
and the key finding was that state DOTs need to have an inventory of 
Section 106 properties. Incredible!
    Our research project is recommending that environmental factors be 
considered early in the planning process (I would almost recommend that 
this be part of federal regulation, but NCHRP projects are not supposed 
to recommend policy changes). Such a change, along with concomitant 
tools, could easily be incorporated into standard practice.

Q5. In response to Congressional request, the Transportation Research 
Board examined the effectiveness of the Congestion, Mitigation and Air 
Quality (CMAQ program. Couldn't all of the research programs, 
demonstration programs, and transportation projects benefit from the 
implementation of a more rigorous evaluation of their effectiveness? 
Has TRB designed a system to evaluate the effectiveness of the two 
cooperative research programs it administers? If so, please describe it 
briefly.

A5. I am a firm believer in the value of rigorous evaluation of the 
effectiveness of research programs and transportation projects. As a 
member of the TRB committee that evaluated the CMAQ program, I argued 
that some portion of the funds allocated to CMAQ should be devoted to 
project evaluation. It would most likely have to be an evaluation of a 
sample of project types given the large number of projects that are 
implemented each year. One of the reasons such evaluations are not done 
(in the absence of a mandate) is that they cost money. Sponsors would 
much rather use these funds for project implementation, rather than 
evaluation.
    The TRB cooperative research programs have experienced varied 
levels of evaluation. The key characteristic of both the NCHRP and TCRP 
programs is that both are sponsor driven. The state DOTs guide the 
NCHRP program; transit agencies guide the TCRP program. The NCHRP 
program recently underwent a review by a panel of state DOT 
representatives which found that, in general, the program was 
reflecting the needs of the state DOTS. I am not aware of any similar 
evaluation of the TCRP program.


                              Appendix 2:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      Statement of the American Society of Civil Engineers (ASCE)

    Transportation Research and Development: Investing in the Future

Mr. Chairman and Members of the Subcommittee:

    The American Society of Civil Engineers (ASCE) is pleased to 
provide this statement on the ``Transportation Research and 
Development: Investing in the Future'' for the record as the 
Subcommittee on Environment, Technology and Standards examines the 
reauthorization of the Nation's surface transportation research and 
development programs.
    ASCE, founded in 1852, is the country's oldest national civil 
engineering organization representing more than 130,000 civil engineers 
in private practice, government, industry and academia who are 
dedicated to the advancement of the science and profession of civil 
engineering. ASCE is a 501 (c) (3) non-profit educational and 
professional society.
    ASCE believes the reauthorization of the Nation's surface 
transportation programs should focus on three goals:\1\
---------------------------------------------------------------------------
    \1\ To read ASCE's ``Reauthorizing the Nation's Surface 
Transportation Program: A Blueprint for Success,'' visit www.asce.org/
govrel/tea3

---------------------------------------------------------------------------
        <bullet> Expanding infrastructure investment

        <bullet> Enhancing infrastructure delivery

        <bullet> Maximizing infrastructure effectiveness

    Under the banner of ``Maximizing Infrastructure Effectiveness,'' 
ASCE supports a number of initiatives including a robust and multi-
faceted research and technology program. Research funding is critical 
to achieving national transportation goals in safety, quality of life, 
economic health, environmental impacts, sustainability and security.

A. Role of Federal Government in Civil Engineering R&D

    The American Society of Civil Engineers (ASCE) supports a focused 
federal civil engineering R&D program consistent with national goals. 
Programs should promote new U.S. capabilities, improve efficiencies and 
advance the practice of civil engineering to improve the quality of 
life.\2\
---------------------------------------------------------------------------
    \2\ American Society of Civil Engineers, Policy Statement 444, 
``The Role of the Federal Government in Civil Engineering Research and 
Development,'' 2002.
---------------------------------------------------------------------------
    ASCE encourages coordinated and integrated basic and applied civil 
engineering research that leverages federal R&D funds through 
government-university-industry partnerships. Programs fostering basic 
research should focus on maintaining a steady flow of talent and 
technology to U.S. industry and agencies. Programs focusing on higher 
risk research with the potential for high payoff should meet national 
needs and improve the quality of life by:

        <bullet> Enhancing public health and safety;

        <bullet> Enhancing environmental quality;

        <bullet> Supporting the goals of sustainable development;

        <bullet> Improving public works infrastructure;

        <bullet> Improving global competitiveness in U.S. civil 
        engineering products and processes; and

        <bullet> Enhancing national security.

B. Research & Development Programs & TEA-21 Reauthorization

    The Highway Trust Fund has been an essential source of funding for 
surface transportation research and technology (R&T) for decades. 
Research results have led to many benefits including: materials that 
improve the performance and durability of pavements and structures; 
design methods that reduce scour (and consequent threat of collapse) of 
bridges; intelligent transportation systems technologies that improve 
safety and reduce travel delay; methods and materials that radically 
improve our ability to keep roads safely open in severe winter weather; 
innovative management approaches that save time and money; analytical 
and design approaches that reduce environmental impacts that support 
sustainable development and improve the aesthetic and cultural aspects 
of transportation facilities.
    These benefits are provided through several major transportation 
research programs. In the highway area these programs include the 
Federal Highway Administration (FHWA) program, the National Cooperative 
Highway Research Program (NCHRP), and state department of 
transportation programs largely funded through State Planning and 
Research (SPR) funds. In the transit area the main programs are that of 
the Federal Transit Administration (FTA) and the Transit Cooperative 
Research Program (TCRP). The University Transportation Centers (UTC) 
program supports various transportation modes.
    In the Transportation Equity Act for the 21st Century (TEA-21), 
funding for the highway research programs was shifted away from FHWA 
and toward states and universities. In addition, a significant increase 
in congressional earmarking (a practice already common in the FTA 
program) occurred in FHWA's program. As a result, some products and 
services previously provided by FHWA had to be absorbed by the state 
programs or discontinued. On the transit side, TEA-21 provided a 
significant increase in transit program funding but did not provide 
sufficient research funding in TCRP.
    ASCE supports the following general principles in the 
reauthorization of research and technology programs in the 
Transportation Equity Act for the 21st Century:\3\
---------------------------------------------------------------------------
    \3\ American Society of Civil Engineers, Policy Statement 497, 
``Surface Transportation Research Funding,'' 2002.

        <bullet> Improvements resulting from research and technology 
        are critical to achieving national transportation goals in 
        safety, quality of life, economic health, environmental 
---------------------------------------------------------------------------
        impacts, sustainability and security.

        <bullet> Adequate funding should be dedicated to R&T 
        activities.

        <bullet> Research programs should be conducted according to 
        the highest scientific and engineering standards, from 
        priority-setting to award of contracts and grants to review and 
        evaluation of research results for implementation.

        <bullet> Research programs should be carried out with 
        appropriate involvement from stakeholders in the public, 
        private and academic sectors.

        <bullet> Technology transfer activities are critical to 
        successful implementation of research results and should be 
        supported with R&T funds.

        <bullet> Public-private partnerships should be fostered by 
        identifying appropriate roles for each partner and providing 
        incentives for private investment.

    Within the context of the general principles set out above, ASCE 
supports the following actions regarding specific surface 
transportation R&T programs:

        <bullet> The research and technology portion of the SPR 
        program should be maintained to help support state-specific 
        activities while continuing to encourage the states to pool 
        these resources to address matters of more general concern.

        <bullet> University research should continue to be supported 
        through the UTC program, using mechanisms that ensure both 
        competitive availability of funds and support for emerging 
        programs.

        <bullet> FHWA's program should be strengthened by giving it 
        sufficient funding and flexibility to implement the 
        recommendations of TRB Special Report 261, The Federal Role in 
        Highway Research and Technology to focus on fundamental, long-
        term research; to perform research on emerging national issues 
        and on areas not addressed by others; to engage stakeholders 
        more consistently in their program; and to employ open 
        competition, merit review, and systematic evaluation of 
        outcomes.

        <bullet> A future Strategic Highway Research Program (F-SHRP), 
        as recommended in TRB Special Report 260, Strategic Highway 
        Research, should be authorized to accelerate solutions in four 
        critical problem areas: rapid infrastructure renewal, highway 
        safety, travel time reliability, and design for new capacity 
        that meets environmental and community requirements.

        <bullet> FTA's research program should be given sufficient 
        funding and flexibility to work with its stakeholders to 
        develop and pursue national transit research priorities.

        <bullet> TCRP funding should be increased to reflect the 
        growth in the transit program over the last authorization 
        period.

C. Intelligent Transportation Systems

    Intelligent Transportation Systems are a cost-effective means of 
addressing rising demand by increasing the efficient utilization of our 
transportation systems. The technology revolution in transportation 
will require a wide range of independent yet coordinated actions by 
public and private sector interests, which must be sustained by a major 
federal commitment. The Federal Government should provide the 
leadership and commitment to direct the complete deployment of ITS for 
consumers of passenger and freight transportation across the Nation.
    The technology revolution in transportation will require a wide 
range of independent yet coordinated actions by public and private 
sector interests, which must be sustained by a major federal 
commitment.
    A vast domestic market and a technology based industry are 
directing domestic transportation into the information age to better 
serve consumers. The deployment of ITS will enhance the overall 
transportation system through:

        <bullet> Increased safety

        <bullet> Improved mobility

        <bullet> Reduced congestion

        <bullet> Facilitated interstate commerce

        <bullet> Generated new employment opportunities

        <bullet> Improved international competitiveness

        <bullet> Improved environmental protection

        <bullet> Conserved energy

        <bullet> Facilitated intermodalism

    ITS are being deployed to enhance:

        <bullet> Travel and transportation

        <bullet> Travel demand management

        <bullet> Public transportation options

        <bullet> Electronic payment

        <bullet> Freight management

        <bullet> Commercial vehicle operations

        <bullet> Emergency management

        <bullet> Incident management

        <bullet> Advanced vehicle control and safety

    The American Society of Civil Engineers (ASCE) supports Intelligent 
Transportation Systems (ITS) as a cost effective means of addressing 
the rising demand by increasing the efficiency of our transportation 
systems.\4\ The Federal Government should provide the leadership and 
commitment to direct the complete deployment of ITS for consumers of 
passenger and freight transportation across the Nation.
---------------------------------------------------------------------------
    \4\ American Society of Civil Engineers, Policy Statement 454, 
``Intelligent Transportation Systems,'' 2002.
---------------------------------------------------------------------------
    ASCE strongly endorses federal leadership in research and 
development and the timely deployment of Intelligent Transportation 
Systems (ITS) nationwide to increase the efficient utilization of our 
transportation systems and enhance safety through the application of 
technology advancements.

D. Conclusion

    As Congress grapples with the reauthorization of the Nation's 
surface transportation program ASCE supports funding for a robust and 
multi-faceted research and technology program. This funding is critical 
to achieving national transportation goals in safety, quality of life, 
economic health, environmental impacts, sustainability and security.
    The lack of adequate investment in America's infrastructure has 
left us with a vast backlog of deteriorated facilities that no longer 
meet our nation's increasing demands. To remedy America's current and 
looming problem, ASCE estimated in 2001 a $ 1.3 trillion investment in 
all categories of infrastructure over the next five years and called 
for a renewed partnership among citizens, local, State and Federal 
Governments, and the private sector.

    Washington Office: 1015 15th Street, N.W., Suite 600, Washington, 
D.C. 20005-2605; (202) 789-2200; Fax: (202) 289-6797; Web: http://
www.asce.org
 Statement of the American Road and Transportation Builders Association
    Chairman Ehlers, Congressman Udall and Members of the Subcommittee, 
the American Road and Transportation Builders Association (ARTBA) 
appreciates the opportunity to submit its views on the importance of 
transportation research and development and reauthorization of the 
transportation research, development and education programs.
    Founded in 1902, ARTBA represents the interests of the U.S. 
transportation construction industry before Congress, the White House, 
federal agencies, news media and general public. Over the past century, 
its core mission has remained focused on aggressively advocating 
federal capital investments to meet the public and business community's 
demand for safe and efficient transportation. The transportation 
construction industry ARTBA represents generates more than $200 billion 
annually to the Nation's Gross Domestic Product and sustains more than 
2.5 million American jobs. ARTBA's more than 5,000 members come from 
all sectors of the transportation construction industry. Thus, its 
policy recommendations provide a consensus view.
    Two years ago, ARTBA's members prepared a comprehensive report 
detailing the transportation construction industry's recommendations 
for reauthorization of the federal highway and mass transit programs. 
The report, titled ``A Blueprint for Year 2003 Reauthorization of the 
Federal Surface Transportation Programs,'' focused not only in the 
appropriate funding levels for these programs during the next six 
years, but also made specific recommendations for program improvements 
in a number of areas including research and development.
    During the past year, ARTBA has testified before committees of the 
both the House of Representatives and the Senate in support of funding 
the federal highway and mass transit programs at the level required 
during the next six years to meet the Nation's transportation 
investment requirements. Based on the findings of the U.S. Department 
of Transportation's 2002 Report to Congress on the Conditions and 
Performance of the Nation's Highways, Bridges and Transit, a federal 
highway program averaging $50 billion per year will be needed during 
the next six years just to maintain current physical and travel 
conditions on the Nation's highways. The federal mass transit program 
would need to average about $12 billion per year just to maintain 
conditions. We strongly support the recent proposal by the bipartisan 
leadership of the Transportation and Infrastructure Committee to 
provide needs-based funding levels for these programs as part of TEA-21 
reauthorization and to increase federal investment in highways, highway 
safety and transit from $50 billion in FY 2004 to $75 billion in FY 
2009.
    In conjunction with this proposed increase in overall program 
funding, ARTBA would support a doubling of federal investment in 
transportation research, development and education.
    Specifically, ARTBA supports the proposed Pavement Research and 
Technology Program advocated jointly by the American Concrete Pavement 
Association (ACPA), the National Asphalt Pavement Association (NAPA) 
and the National Stone, Sand and Gravel Association (NSSGA), who are 
all ARTBA members.
    This program would directly address what we see as a major 
shortcoming of the current highway research effort--the lack of 
effective communication between the research community and the private 
sector--to ensure that priority is given to research that can quickly 
provide tangible results on the construction site.
    The ACPA-NAPA-NSSGA proposal would address this by bringing the 
academic, government and private sector stakeholders together to help 
set at least a portion of the highway research agenda and then ensure 
dissemination of the results into the field.
    We urge the Science Committee to support inclusion of this proposal 
in the TEA-21 reauthorization legislation.
    ARTBA is also working closely with the American Association of 
State Highway and Transportation Officials, the Council of University 
Transportation Centers, the American Public Transportation Association, 
the Intelligent Transportation Society of America and others to ensure 
that all members of Congress understand the importance of federal 
funding for transportation-related research and education and the long-
term benefits they provide the U.S. economy.
    ARTBA's specific recommendations for transportation research and 
development follow:

{time}  Invest in Research. Development and Technology Transfer to 
Improve U.S. Road and Bridge Durability & System Performance

    Research and implementation of developing technologies is crucial 
to the much-needed continuous improvement of transportation and is 
vital to the United States socioeconomic system.
    The United States surface transportation system must continue to 
develop for the country to maintain its economic and political 
leadership role of the free world countries. The goal of this evolution 
should be a more efficient and technologically advanced surface 
transportation system that better serves the business and social 
interests of the citizens of the country. An enhanced surface 
transportation system will improve domestic competition, increase the 
country's ability to compete globally, and provide for an improved 
social environment.
    These potential improvements, however, are dependent on a research 
and corresponding technology deployment program that addresses the 
major concerns and issues of a surface transportation system. Thus, it 
is imperative that a relevant program of basic and applied research be 
further developed that focuses on the pragmatic issues of planning, 
programming, managing, building, reconstructing, maintaining and 
operating a long-lasting surface transportation system in a safe and 
environmentally sound manner. Further, such a program should also 
include a basic research component that allows technological 
breakthroughs that provide the foundation for further advances in the 
near- as well far-term.

{time}  Integrate Transportation Research Through a National Strategic 
Research Plan

    Given the importance of research to the continued development of 
transportation and the limited nature of the scarce resources to 
conduct research a strategic plan for transportation research should be 
developed by the stakeholders (Federal, State, private sector, and 
universities) based on ongoing efforts of the National Partnership 
Forum, the RTCC, and F-SHRP that provides the necessary guidance for 
maximizing the contribution that research can make to transportation.

{time}  Expand Federal Funding for Research

    Increased federal investment in research is consistent with the 
need for an integrated and standardized national transportation system 
and commensurate with the ability of research to add value to the field 
of transportation by improving the overall cost-effectiveness, 
durability, safety and environmental soundness of highway and bridge 
projects to meet national mobility requirements.
    Federal surface transportation research activities should include 
projects that address construction materials, innovative technologies, 
intelligent processes and methods, inventive contracting and financing, 
and promotes the testing and experimental use of innovative 
technologies and materials.
    The reauthorization of TEA-21 should establish roadway safety as a 
priority for federal research activities. The program, which could be 
entitled ``Quantum Leap In Road Safety,'' should seek to apply new 
technologies and other innovations to help advance new infrastructure 
safety initiatives.

{time} Ensure Federal Research Funds Are Based on Merit

    To maximize the benefit of limited federal research dollars, 
investments in research should be merit based and used consistently 
with the strategic research plan. An advisory panel of Federal, State, 
educational institutions and private sector stakeholders should be 
created to make recommendations for the disbursement of federal 
research funds.

{time} Use New Technologies to Help Meet System and Mobility Needs

    U.S. mobility can be improved through breakthrough advances in 
adapting and integrating existing and new technologies into 
transportation by continued federal investment in transportation 
technology through the Intelligent Transportation System (ITS) and 
Technology Deployment programs. To ensure the wise use of federal 
investments in this area, the U.S. General Accounting Office or U.S. 
DOT should evaluate past ITS expenditures and report on their 
effectiveness.

{time} Adequately Fund University Research

    Higher educational institutions are uniquely positioned to provide 
solutions to complex problems and opportunities for states to develop a 
university research program that focuses on each state's individual 
transportation challenges. Increased federal investment in the 
University Transportation Centers Program will capitalize on this 
critical role and allow each state to participate in resolving regional 
and national issues through partnerships with universities.

{time} Provide Funding for Transportation Education Programs

    A well-trained and educated workforce is critical to meeting the 
growing challenges that face the Nation's transportation network. 
Consequently, a federal research program that promotes careers in 
transportation should be initiated to further develop knowledge workers 
for the transportation community. This initiative will help ensure 
human capital is available to: construct and maintain the Nation's 
transportation network using the latest techniques and technologies; 
educate the prospective transportation leaders in a innovative, 
enlightened, and competent fashion; and operate the transportation 
system to produce significant increases in mobility for the United 
States.

{time} Invest in Federal Technology Transfer Initiatives

    The reauthorization of TEA-21 should provide the necessary finding 
for technology transfer to the transportation construction and 
corresponding support industries to ensure the latest knowledge and 
information is available to accelerate the development of needed 
transportation improvement projects. These initiatives should also seek 
to enhance the safety, quality, and durability of the Nation's 
transportation infrastructure.

{time} Funding Recommendations by Program

    The funding recommendations in Table 2 capitalize on the specific 
research priorities identified above. These recommendations provide 
sufficient investment to fund specific projects of national importance, 
while at the same time ensure adequate resources for the continued 
development of important research and education programs at the 
discretion of the U.S. DOT. The roughly 50 percent increase in federal 
transportation research investment recommended below should be derived 
exclusively from aggregate increases in the federal surface 
transportation program and should not come at the expense of any 
current transportation initiatives.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


{time} Financing the Federal Surface Transportation Program in the 
Future

    To address the long-term needs of the Nation's transportation 
infrastructure system and the inevitable evolution of motor vehicle 
propulsion systems, federal policy should explore utilizing technology 
(such as a universal computer chip, global positioning system or other 
alternatives) to develop an architecture or mechanism that tracks the 
amount of vehicular travel, while respecting individual motorists' 
privacy. The system should also be capable of interfacing with the 
electronic highway.
    This proposal would transition the Nation to a post fuels-based 
surface transportation financing system that imposes a user fee based 
on travel volume. The objective of the system would be to ensure 
motorists contribute to surface transportation infrastructure 
improvements commensurate with their respective travel volume. The 
principle of the new financing system would be insulated from 
inevitable vehicular or fuels-based advances. Congress should seek to 
build on any ongoing research in this area during the reauthorization 
of TEA-21.
    Again, ARTBA appreciates the opportunity to submit our views on 
reauthorization of the transportation research, development and 
education programs.
                     Statement of Philip J. Tarnoff
 Director, University of Maryland, Center for Advanced Transportation 
   Technology on behalf of the Institute of Transportation Engineers

      PROVIDING A SAFE, RELIABLE AND SECURE TRANSPORTATION SYSTEM

    My name is Philip J. Tarnoff. I am a member of the Institute of 
Transportation Engineers (ITE) and the Director of the University of 
Maryland, Center for Advanced Transportation Technology. I appreciate 
the opportunity to represent ITE and to provide the organization's 
recommendations on research priorities for the reauthorized surface 
transportation bill.
    ITE is an international member educational and scientific 
association. The organization's 13,000 U.S. members include traffic and 
transportation engineers, transportation planners and other 
professionals who are responsible for meeting society's needs for safe, 
efficient surface transportation through planning, designing, 
implementing, operating and maintaining our transportation system 
nationwide.
    ITE supports a policy that meets society's need for the safe, 
reliable and secure transport of persons, services and goods. ITE 
envisions an effective system that maximizes transportation system 
performance through a coordinated and integrated decision-making 
approach to (1) construction, (2) preservation, (3) management, and (4) 
operation of transportation facilities.
    Federal, State and local governments, transportation professionals 
and citizens face critical transportation realities--increased person 
and vehicles miles traveled, increased demand on public services, the 
need to support economic growth, reduced mobility of an aging 
population, increased demand for special needs in accordance with ADA 
guidelines, heightened security threats to the system and 
infrastructure, and continued growth of metropolitan workforces. The 
Federal Highway Administration (FHWA) estimates that the lack of 
attention to managing and operating our transportation system has 
resulted in declining reliability of the transportation network, 
increased congestion and associated negative impacts on safety, the 
economy and the quality of life of the traveling public. The public is 
demanding more reliable and dependable transportation services and 
systems. This demand must be met by refocusing funding priorities to 
invest in research that will aid transportation professionals in 
meeting public needs.
    Building for the Future Through Research
    A coordinated national transportation research and development 
program will continue to be the basis for future transportation 
progress at the national level. Continuing research in transportation 
cannot be accomplished solely at the state and local level, or in the 
private sector. The Federal Government must play a strong leadership 
role in the coordination and pooling of resources for research and 
development that cuts across systems and modes. In order to ensure the 
maximum benefit to the traveling public, the results of this research 
must be made available as quickly as possible for application 
nationwide.
    Transportation research is critical in advancing technology and 
improving safety. It is an essential tool for transportation 
professionals in developing practical solutions to problems encountered 
in the design and daily operation of our national transportation 
system. ITE supports the ongoing work of the Federal Highway 
Administration's Research and Technology Program (FHWA R&T), University 
Transportation Centers (UTCs), the Department of Transportation's in-
house research, the Transportation Research Board's Cooperative 
Research Programs (NCHRP and TCRP), and the emerging transportation 
research program of the National Science Foundation. These programs 
appropriately encourage a collaborative environment for the support of 
research in the areas of safety, reliability and security. Accordingly, 
ITE has six major recommendations on research that should be 
incorporated into the revised surface transportation bill.

1. Fund the Future Strategic Highway Research Program (F-SHRP) through 
1/4 of one percent take-down of federal highway funds--approximately 
$450 to $500 million over the life of the bill.

    Congress authorized the Strategic Highway Research Program (SHRP) 
in the Intermodal Surface Transportation Efficiency Act (ISTEA). The 
five-year, $150 million program was designed to improve the performance 
and safety of highway materials and highway maintenance practices for 
highway workers and users. In the Transportation Equity Act for the 
21st Century (TEA-21), Congress requested the Transportation Research 
Board (TRB) to set priorities and design a new strategic highway 
program.
    ITE strongly believes that Congress should endorse the funding 
levels and program goals of F-SHRP as recommended by the TRB research 
group. They are:

        <bullet> To accelerate the renewal of America's highways by 
        developing a consistent, systematic approach to performing 
        highway rehabilitation. Research performed in this area would 
        provide for the better use of resources (equipment and person 
        power) when performing maintenance projects to reduce the time 
        wasted, congestion and traffic delays in commercial and 
        residential areas. Delays in work zone areas, which have been 
        expressed as among the major concerns of daily roadway 
        travelers, could also be reduced.

        <bullet> To make a significant improvement in highway safety 
        by preventing or reducing the severity of highway crashes 
        through a combination of improved data collection, traditional 
        crash analysis, and crash information management. Research in 
        the application of these tools will assist in developing 
        effective countermeasures to crash-related deaths and injuries. 
        According to the TRB report, ``every one percent improvement in 
        highway safety resulting from application of the results of 
        this research would mean more than 400 lives saved, 30,000 
        injuries averted, and $1.8 billion in economic costs avoided 
        annually.''

        <bullet> Providing a highway system with reliable travel times 
        through the prevention and reduction of nonrecurring incidents. 
        Research in this area should focus on studying traffic data, 
        its impact on transportation users and user-expectations to 
        improve traffic operations tools for reducing delays, improving 
        quality of life, and increasing consumer savings.

        <bullet> Providing highway capacity in support of the Nation's 
        economic, environmental and social goals by developing 
        approaches and tools for the systematic integration of 
        environmental, economic and community requirements into the 
        analysis, planning, and design of new highway capacity. Under 
        F-SHRP, a context-sensitive approach to highway design would be 
        formulated to include the best engineering, economic, 
        environmental, social and aesthetic practices in the highway 
        development process. This type of research would allow for 
        increased capacity where needed, while meeting or exceeding the 
        economic, social and environmental needs of the highway user.

2. Increase funding for the Transit Cooperative Research Program 
(TCRP) from $8.25 million per year--which has not increased since 
1993--to $15 million in FY 2004 and ensure future increases are 
proportional to increases in federal transit allocations.

    Transportation research is critical in advancing technology and 
innovation so necessary for America to maintain its edge in the global 
economy. In a more direct sense, certain practical, applied 
transportation research is also necessary to help transportation 
providers, consultants and suppliers develop practical solutions to 
everyday problems they encounter in the design and operation of 
efficient and effective transportation services.
    Since the establishment of the TCRP program through ISTEA and 
continued in TEA-21, the overall federal investment in surface 
transportation programs has gown considerably. Funding for the TCRP 
program, by contrast, has not. TCRP started with $9 million in 1992, 
and currently receives $8.25 million, despite its impressive record of 
achievement. Further, even less money is actually available to TCRP for 
industry-generated research as a result of substantial earmarking by 
Congress.

3. Require more focused research on intersection safety 
countermeasures.

    In 2000, more than 2.8 million intersection-related crashes 
occurred in the U.S.--approximately 44 percent of all crashes reported 
that year. Further over 8,500 fatalities (23 percent) and nearly one 
million injuries (more than 48 percent of all injury cases) occurred at 
or within the vicinity of an intersection.\1\ ITE's International Board 
of Direction has identified transportation safety as a priority topic 
for the organization. Intersection safety is an integral piece of ITE's 
Safety Action Plan. ITE's primary aim is to provide transportation 
professionals with the tools necessary to reduce fatalities, injuries 
and property damage due to intersection-related crashes.
---------------------------------------------------------------------------
    \1\ Intersection Safety Issue Briefs, 2002.
---------------------------------------------------------------------------
    In November 2001 ITE, in partnership with FHWA hosted a conference 
on intersection safety that drew transportation professionals from 
across the country. The attendees identified the need for additional 
data regarding the human, operations and design factors that lead to 
reduced intersection safety. Accordingly, ITE recommends that the 
reauthorized bill include additional resources for research focusing 
on:

        <bullet> Human factors related to drivers' decision-making 
        processes within the intersection environment;

        <bullet> Best practices on the provision of intersection and 
        safety information to drivers;

        <bullet> Costs-benefits analysis of intersection safety 
        countermeasures;

        <bullet> Advanced technologies including intersection 
        collision avoidance systems;

        <bullet> Clarifying the benefits and dispelling the myths 
        associated with automated enforcement; and

        <bullet> Ways to facilitate the expedient exchange of gathered 
        information and field application results achieved nationwide.

4. Require the Secretary of Transportation to initiate a study through 
the National Academy of Sciences to identify best practices of 
incorporating operations and safety into the planning process.

    In October 2001, ITE, as a member of the National Steering 
Committee on Transportation Operations, hosted the National Summit on 
Transportation Operations with FHWA. The meeting was an effort to bring 
together professionals representing various transportation modes to 
identify the needs and opportunities for enhancing transportation 
operations. According to the meeting participants, effective management 
and operations comprises a cooperative and collaborative environment 
that bridges modes, jurisdictions, and multiple professions in order to 
maximize the efficiency and safe operation of transportation systems.
    The management and operations spectrum ranges from planning and 
managing transportation resources and systems over the longer term to 
the everyday maintenance and real-time operations of individual 
facilities.
    Incorporating operations entails using traffic engineering projects 
that can maximize roadway efficiency and address safety. In some 
communities, operations solutions can be faster to implement and may 
not require the same degree of environmental impact analysis as new 
construction. The following issues related to management and operations 
were identified by the Summit participants and could greatly benefit 
from research in best practices:

        <bullet> Transportation system integration and management;

        <bullet> Jurisdictional cooperation and communication among 
        multiple transportation organizations, law enforcement, 
        emergency response, and media for real-time transportation 
        emergency management;

        <bullet> Regional operations and resource sharing for project 
        and programming decisions;

        <bullet> Implementation of performance measures related to 
        customer service, agency accountability, real-time monitoring, 
        results, outcomes over output, and instrumentation (enabling 
        infrastructure) and data; and

        <bullet> Research and deployment of data collection and use, 
        including technology for data collection, sampling, and 
        simulation modeling to augment system performance data.

5. Continue to fund the Intelligent Transportation Systems (ITS) 
Research and Deployment program focusing on traffic management center 
operations, traffic incident management, traffic signal system 
management, public transit management and advanced traveler information 
systems.

    In this time of uncertainty, continued investment in ITS research 
and development is critical. ITS plans in metropolitan areas should be 
updated to incorporate emergency management strategies and to 
facilitate national security. For example, many metropolitan areas have 
emergency management organizations, but they may not be integrated with 
a traffic operations center. Some metropolitan areas, which are 
vulnerable to hurricanes and other natural and manmade disasters, have 
evacuation plans and supporting systems, but many do not.
    ITS has a role to play in emergency preparedness. ITS components 
can be instrumental in supporting the establishment of key action plans 
directly related to evacuation planning and implementation, and 
emergency vehicle prioritization. Traffic management centers, with 
their communications and traffic surveillance capabilities, can monitor 
the static of critical transportation links and can be quickly 
transformed into command centers for disaster management. Traveler 
information systems can be used to guide people to safety.
    Because of the critical nature of system monitoring to system 
management and traveler information, ITS research must also include an 
evaluation of alternative approaches for the development of a 
comprehensive national traffic and weather-monitoring capability. These 
approaches should consider alternative organizational frameworks that 
incorporate both public and private sector participation.

6. LSupport findings of the Transportation Research Board's Special 
Report 261, The Federal Role in Highway Research and Technology, 
prepared by the Research and Technology Coordinating Committee of the 
National Research Council.

    The report recommends that the FHWA's R&T program should:

        <bullet> Invest at least one-quarter of research expenditures 
        in fundamental, long-term research aimed at achieving 
        breakthroughs in the understanding of transportation-related 
        phenomena;

        <bullet> Allocate approximately one-half of R&T resources 
        focusing on research on significant highway research gaps not 
        addressed in other highway R&T programs and emerging issues 
        with national implications;

        <bullet> Balance nationwide representation of stakeholders and 
        technical experts in problem identification with technical 
        review through open competition, merit review and systematic 
        evaluation of outcomes to make decisions that reflect a 
        strategic vision for the national transportation system-
        Congress should provide FHWA with the funding and authorization 
        to meet this need;

        <bullet> Promote innovation by surveying international 
        research and practice, with the aim of identifying promising 
        technologies, processes, and methods for use in the United 
        States;

        <bullet> Subject university transportation research funded 
        under the UTC program to the same guidelines of FHWA's R&T 
        program;

        <bullet> Seek increased funding in its R&T budget--a budget 
        twice the current level would only amount to one percent of the 
        annual total public highway expenditures.

Conclusion

    In conclusion, ITE recommends six key areas of research that the 
Subcommittee on Environment, Technology and Standards should recommend 
for inclusion in the reauthorized surface transportation bill.

        1. Support the program goals and increased funding for the 
        Future Strategic Highway Program.

        2. Support increased funding for the Transit Cooperative 
        Research Program.

        3. Require focused research on intersection safety and the 
        exchange of lessons learned nationwide.

        4. Require the Secretary of Transportation to initiate a study 
        through the National Academy of Sciences to identify best 
        practices of incorporating operations and safety into the 
        planning process.

        5. Continue to fund ITS research and deployment with emphasis 
        on system monitoring.

        6. Support the Transportation Research Board recommendations 
        for the Federal Highway Administration's Research and 
        Technology Program.

    ITE strongly believes that these recommendations are instrumental 
to ensuring the future safety, reliability and security of the 
transportation system. ITE appreciates the opportunity to share our 
views and looks forward to working with you in the future.
  Statement of the American Concrete Pavement Association (ACPA), the 
 National Asphalt Pavement Association (NAPA), and the National Stone, 
                  Sand and Gravel Association (NSSGA)

Introduction

    The American Concrete Pavement Association (ACPA), National Asphalt 
Pavement Association (NAPA), and National Stone, Sand and Gravel 
Association (NSSGA) appreciate the opportunity to submit this statement 
concerning Transportation Research and Development.
    The members of ACPA, NAPA, and NSSGA supply the materials used to 
construct our nation's highways, roads, and bridges. Aggregates, 
asphalt, and concrete provide the foundation--literally--for America's 
economy, safety, security, and quality of life.
    Transportation Research and Development efforts are vital to 
ensuring America's surface transportation system meets both current and 
future demands. Without analysis to determine how to make the system 
and its components better, we will fall short. History shows clearly 
that when we fail to look ahead, plan, and develop new products and 
processes through research our nation loses its competitive edge and 
the public is disadvantaged.
    In addition, by not spending money now for research to address 
identified concerns and create better products, we will end up spending 
more money in the future to address the same issues. In effect, we will 
create an unnecessary financial burden and shortchange the public by 
not doing all we can to provide the best possible transportation 
system.
    Although research is important, even in the best financial times it 
is often the first, or one of the first, areas to be considered for no 
funding increase or a funding cut as policy-makers decide how to 
allocate limited resources among competing priorities. With a federal 
budget deficit, pressure to cut research funding may be even greater 
than usual.
    As such, it is imperative that industry work with Congress to 
support and justify Transportation Research and Development programs. 
ACPA, NAPA, and NSSGA are committed to this effort and ensuring that 
these programs are adequately funded.
    As we move forward with reauthorization, it is instructive to 
remember that one of the five significant features of the 
Transportation Equity Act for the 21st Century (TEA-21) was investing 
in applied research and its application. We must continue this 
emphasis.

Pavement Research and Technology Program

    ACPA, NAPA, and NSSGA have come together to develop our proposed 
Pavement Research and Technology Program. We believe this program 
provides the most effective framework for ensuring that pavement 
research addresses the most pressing needs with full accountability to 
Congress and the public.
    This program would:

        1. Involve stakeholders, including the Federal Highway 
        Administration, State Departments of Transportation, pavement 
        industry representatives, and other experts such as the 
        Transportation Research Board and academicians.

        2. Develop specific pavement research priorities.

        3. Provide for important research-related activities such as 
        technology transfer and deployment, education and training, and 
        performance evaluation.

        4. Ensure accountability that clearly ties research to 
        quantifiable benefits with required reporting to Congress on an 
        annual basis.

    The pavement industry is currently without a true national research 
leader and champion. Pavement research in this country has evolved into 
a decentralized program that lacks clear vision and is aimed at 
satisfying many agendas. The result is a tapestry of pavement research, 
conducted at many levels, with no easily understood mechanism for 
disseminating the results or providing accountability.
    To remedy this problem, our Pavement Research and Technology 
Program would establish an oversight Committee of stakeholders. 
Stakeholders would include individuals representing the Federal Highway 
Administration, State Departments of Transportation, pavement industry 
representatives and other experts such as the Transportation Research 
Board and academicians.
    The Committee would be responsible for developing specific research 
priorities and providing the strategic focus for the program. It would 
also provide programmatic and project level input. To facilitate a more 
efficient and effective research process, it would also be empowered to 
make recommendations concerning awarding grants and contracts, and 
entering into cooperative agreements. We would emphasize that program 
participation would be open to all qualified entities in a fair and 
open manner.
    Our program would strengthen the linkage of research to technology 
development, education, and training. To do this, we recommend 
allocating a least $1.5 million per year under the program for 
education, training and technology transfer at universities and 
colleges. This funding would be used, for example, to encourage civil 
engineering programs to emphasize pavement technologies, which are too 
often left out of required courses.
    It is in the public interest to make sure that the research program 
we are proposing is transparent and accountable. We must be able to 
explain to the Congress and the public what is being achieved for the 
funding being spent on pavement research. We are, therefore, 
recommending under our program that the Pavement Research and 
Technology Committee report annually to Congress on what is being 
accomplished under the program and how it ties to the vision set forth 
by Congress.
    The investment level in our proposed program should be tied to the 
overall funding level of the next reauthorization legislation. The 
current federal investment in highway research, as a share of highway 
expenditures, is five-tenths of one percent. This is substantially 
lower than the research budget for firms in low-tech industries. It is 
also inadequate given the 13,000 fatalities that occur each year on 
U.S. roads due to unacceptable pavement conditions. A $95 million 
annual funding level for the Pavement Research and Technology Program 
would be a modest investment when weighed against the tremendous social 
and economic costs resulting from these deaths. This, of course, does 
not begin to cover the true ``costs'' due to related injuries.
    A pavement research program functioning under the framework 
outlined in our proposal would result in the efficient delivery of 
timely and effective research products, processes and traffic 
management systems that are readily discernible, quantifiable, and 
truly beneficial to America's road users. The Federal Government, 
contractors, owners, and academia, working together with a defined 
mission would maximize the federal investment in pavement research, and 
lead to a stronger highway network that meets the growing demands of 
the traveling public.
    The best way to ensure our success is to cooperate and use our 
combined knowledge and resources to develop a comprehensive program 
that provides for pavement research across a number of areas to the 
ultimate benefit of the public. We believe our Pavement Research and 
Technology Program does just that.
    We have attached a copy of our suggested legislative language to 
implement the Pavement Research and Technology Program and would be 
happy to provide any additional information that the Committee may 
require.

Attachment

                Pavement Research and Technology Program

IN GENERAL--The Secretary of Transportation shall establish a Pavement 
Research and Technology Program in accordance with this section.

(a) ESTABLISHMENT--Not later than 90 days after enactment of this Act, 
the Secretary of Transportation shall establish a Pavement Research and 
Technology Program to award grants, enter into cooperative agreements, 
or award contracts to qualified institutions to conduct research; 
technology transfer and deployment; education and training; and 
performance evaluation to improve asphalt pavement, concrete pavement, 
and aggregates used in the National Highway System.

(b) RESEARCH PRIORITIES--The members of the Pavement Research and 
Technology Committee, in consultation with the Secretary of 
Transportation, shall review past research, assess current research 
efforts, and not later than 120 days after enactment of this Act, 
develop specific research priorities to provide the strategic focus of 
the Pavement Research and Technology Program established under 
subsection (a).

(c) COMMITTEE--Not later than 90 days after enactment of this Act, the 
Secretary of Transportation shall establish a committee to be referred 
to as the Pavement Research and Technology Committee.

(d) DUTIES--The Secretary of Transportation shall consult with the 
Committee and make recommendations on matters involving or relating to 
pavement and aggregates research. The Committee shall consult with, and 
make recommendations to, the Secretary of Transportation concerning 
awarding grants, entering into cooperative agreements, and entering 
into contracts for such research.

(e) COMPOSITION AND APPOINTMENT--The Committee shall be composed of 12 
members appointed by the Secretary as follows:

        (1) Three (3) members appointed from among individuals 
        representing the United States Government.

        (2) Three (3) members appointed from among individuals who are 
        especially qualified to serve on the committee because of their 
        education, training or experience, and who are not officers or 
        employees of the United States Government.

        (3) Three (3) members appointed from groups outside the 
        Government that represent the interests of pavement 
        organizations.

        (4) Three (3) members appointed from state Departments of 
        Transportation, each representing a different geographic region 
        of the United States.

(f) FUNDING--The Secretary of Transportation shall obligate from the 
Highway Trust Fund $95 million for each of fiscal years 2004 through 
2009 to carry out activities under this section.

(g) ALLOCATIONS--Of the amount made available under this section:

        (1) $45 million for each of the fiscal years 2004 through 2009 
        shall be made available for applied asphalt pavement research;

        (2) $45 million for each of the fiscal years 2004 through 2009 
        shall be made available for applied concrete pavement research; 
        and

        (3) $5 million for each of the fiscal years 2004 through 2009 
        shall be made available for applied aggregates research.

(h) TRAINING AND EDUCATION--Of the funding provided under this 
provision, a minimum of $500,000 per year from each category shall be 
used for education, training, and technology transfer at universities 
and colleges through undergraduate curriculum.

(i) ADMINISTRATIVE--The Pavement Research and Technology Committee, in 
consultation with the Secretary of Transportation, shall establish the 
positions of recording secretary and financial officer to assist the 
Committee. The recording secretary will generally be responsible for 
the administrative requirements set forth by the Committee. The 
financial officer shall be responsible for overseeing the program's 
acquisition requirements, including, but not limited to, procuring 
research; administering grants, cooperative agreements, and contracts; 
reporting research results; and performing other duties, as 
appropriate.

(j) REPORT--Not later than 12 months after the date of enactment of 
this Act, and annually thereafter, the Secretary of Transportation 
shall submit to the Committee on Environment and Public Works of the 
Senate, and the Committee on Transportation and Infrastructure and the 
Committee on Science of the House of Representatives a report on the 
progress and results of activities carried out under this section.

REPORT LANGUAGE--Congress finds that the National Highway System (NHS), 
established in the Intermodal Surface Transportation Equity Act of 1992 
(ISTEA) is crucial to the Nation's security, economy and quality of 
life. The Interstate Highway System, the backbone of the NHS, was built 
in the 1960s and 1970s and is approaching or exceeding its design life, 
as are many other sections of the NHS. In addition, significant 
portions of the NHS are carrying traffic that far exceeds their design 
capacity.
    The purpose of this section is to develop new technologies through 
federal research necessary to provide a safer and more cost-effective 
surface transportation system that improves mobility, lasts longer, and 
can be maintained more efficiently and effectively. In addition, 
research is needed to explore the feasibility of designing and 
constructing dedicated truck-only lanes to facilitate freight 
transportation on the NHS and improve intermodal transportation 
networks.
    This section requires the Secretary of Transportation to establish 
a Pavement Research and Technology Program to award grants, enter into 
cooperative agreements, or award contracts to qualified institutions 
for conducting research to improve pavements.
    A Pavement Research and Technology Committee shall be established 
to provide strategic, programmatic, and project level stakeholder input 
to the Pavement Research and Technology Program. Funding under this 
section shall be used for conducting research; technology transfer and 
deployment; education and training; and performance evaluation to 
improve asphalt pavement, concrete pavement, and aggregates used in the 
NHS.
      Statement of the American Public Transportation Association
    APTA is a nonprofit international association of over 1,500 public 
and private member organizations including transit systems and commuter 
rail operators; planning, design, construction and finance firms; 
product and service providers; academic institutions; transit 
associations and state departments of transportation. APTA members 
serve the public interest by providing safe, efficient and economical 
transit services and products. Over ninety percent of persons using 
public transportation in the United States and Canada are served by 
APTA members.

INTRODUCTION

    Mr. Chairman and members of the subcommittee, on behalf of the 
American Public Transportation Association, thank you for this 
opportunity to speak to you about the federal public transportation 
research and training programs as they pertain to the reauthorization 
of TEA-21.

ABOUT APTA

    APTA's more than 1,500 member organizations serve the public 
interest by providing safe, efficient, and economical public 
transportation service, and by working to ensure that transit products 
and services support national energy, environmental, community, and 
economic goals. APTA public and private member organizations include 
transit systems; commuter railroads; design, construction, and finance 
firms; product and service providers; academic institutions; and state 
associations and departments of transportation. More than ninety 
percent of the people who use public transportation in the United 
States and Canada are served by APTA member systems.

APTA'S REAUTHORIZATION PROPOSAL ON RESEARCH AND TRAINING

    Mr. Chairman, the federal transit research and training programs 
have been invaluable to our members and the transportation community as 
a whole. Funding for these five programs needs to be increased in the 
reauthorization of TEA-21. Federal investment in research and 
technology enables our systems to operate more efficiently and safely 
while growing ridership and allows U.S. goods and services to become 
more competitive in the global marketplace. Without research and 
training, innovation withers and American jobs are lost offshore. 
Investment in the International Mass Transportation Program, for 
example, helps promote American transit products and services overseas, 
and affords opportunities for American vendors to showcase their 
products and services. Other types of research and assistance provide 
tools and information to transit agencies as they continue their 
efforts to increase ridership on their systems. In short, the several 
DOT sponsored research programs help provide a solid foundation and a 
guiding light in fostering innovation and growth in the transit 
industry.
    The Transit Cooperative Research Program, National Transit 
Institute, National Planning and Research (including Project Action), 
Rural Transportation Assistance, and University Transportation Research 
programs have helped the industry reduce costs, increase productivity 
and enhance operations. Unfortunately, funding for these federal 
transit research programs has had very limited growth over the past 
decade. This means that the transit research program has lost 
purchasing power to inflation even as the needs have grown, thus unduly 
stretching these limited resources.
    APTA has included the federal transit research and training 
programs in its recommendations for the reauthorization of TEA-21. Our 
proposal advocates providing for a one-time adjustment in Fiscal Year 
2004 to take the overall funding level to $73.59 million which will 
help restore the lost purchasing power of these programs during the 
TEA-21 authorization period. APTA proposes to increase research and 
training funding and to provide for annual increases until funding 
reaches approximately $132 million in Fiscal Year 2009.
    Because these programs are so valuable to the transit industry and 
the transportation community as a whole, I think it would be useful to 
provide for the committee some background on some of the research 
programs and provide for you APTA's recommendations for their future.

TRANSIT COOPERATIVE RESEARCH PROGRAM (TCRP)

    A key component of FTA's research program is the Transit 
Cooperative Research Program (TCRP). The Transit Cooperative Research 
Program was created under ISTEA in 1991 and reauthorized under TEA-21 
in 1998. It was created in response to strong demand for ideas and 
applied solutions to the everyday issues associated with delivering 
transit services effectively and efficiently, and to bring innovation 
to the industry. It is modeled after the highly successful National 
Cooperative Highway Research Program (NCHRP). TCRP is run cooperatively 
by the Transportation Research Board, the Transit Development 
Corporation (an affiliate of APTA), and FTA. It was the intent of the 
legislation that created this program that it be operated by an 
independent governing board, a system that continues today and that has 
worked very well.
    Research under TCRP is undertaken by researchers selected through a 
competitive process. Oversight panels provide the necessary peer-review 
to assure that the contracted research is on target with the industry's 
problem solving need. Once the research is completed, the TCRP in 
cooperation with APTA, disseminates the information to transit 
agencies, service providers, equipment manufacturers, and suppliers, 
the academic community and others. This is done through periodic 
reports, workshops, and other training aids. According to a recent 
report, the TCRP has commissioned 346 projects, and completed 247 
published studies to date. These projects are divided into eight 
categories, including operations; service configuration; engineering of 
vehicles and equipment; engineering of fixed facilities; maintenance; 
human resources; administration; and policy and planning.
    TCRP research has produced many success stories. One study on low-
floor light rail vehicles helped Santa Clara County, California save 
$20 million in costs associated with Americans with Disabilities Act 
compliance for its new light rail system. Another study is being used 
by bus systems around the country as they consider purchasing 
environmentally friendly hybrid-electric transit buses. A TCRP project 
that seeks to develop uniform technical standards for rail vehicle 
systems has saved New Jersey Transit $420,000 a year in procurement 
costs. TCRP Report number 54 ``Management Toolkit for Rural and Small 
Urban Transportation Systems'' identifies management principles and 
techniques for effectively operating transit systems in rural and small 
urban areas and is being used successfully by the West Virginia 
Division of Public Transit, among others. Over $2.3 million has been 
committed since 9/11/01 on fourteen projects to improve the security 
readiness of the Nation's transit systems. Other reports and studies 
are being used as training manuals or standard operating procedures for 
several transit projects, welfare-to-work programs, public information 
activities, intelligent buses and railcars, and more.
    All of this is done on an annual budget of $8.25 million, which is 
the same level of funding the program received when it was created in 
1991. In comparison, NCHRP--the sister program of TCRP--is currently 
funded at approximately $30 million, with funding levels rising with 
annual increases in the federal highway program. Had TCRP funding been 
pegged to the size of the federal investment in transit, which has 
grown through the ISTEA and TEA-21 years, current TCRP funding would be 
approximately $17 million instead of $8.25 million.
    With more federal investment, this program can do even more to save 
taxpayer dollars and better serve transit customers. Therefore, APTA 
recommends that this program receive $13.75 million in Fiscal Year 2004 
and annual increases to almost $27.93 million in 2009.
    Candidate projects for. TCRP funding are selected by a diverse, 
twenty-five member TCRP Oversight and Project Selection (TOPS) 
Committee. The TOPS Committee consists of a broad array of industry 
interests, public and private, as well as academics. It functions as 
the TCRP governing board and sets research priorities in accordance 
with the needs identified by the transit industry itself. In 
comparison, NCHRP comes under FHWA's State Planning and Research 
program (SPR). The SPR funds are apportioned to the fifty states. The 
states, in turn, commit a portion of their SPR funds to support the 
NCHRP program, by voluntarily signing annual agreements with the 
National Academy of Sciences committing the funds. The states recommend 
projects to be selected. Comparison of these two funding models shows 
that the NCHRP program has been insulated from the pressures associated 
with the federal budget process, while the TCRP program has been 
subject to Congressional earmarking and to the undue influence of FTA 
in the project selection process.

UNIVERSITY TRANSPORTATION RESEARCH

    Innovation resulting from the latest knowledge and a well-educated 
and well-trained transportation work force is key to improving 
mobility. As a country we must develop new transportation leaders and 
researchers, and assure the development of the most advanced and 
productive transportation technologies. Universities can play a 
critical role in this regard.
    National benefits in this regard are achieved through the 
University Transportation Centers Program (UTCP), and through the 
University Transportation Institutes. APTA strongly supports the 
continuation and growth of these programs.
    By forming a working relationship with universities, the transit 
industry and the FTA are able to create a link with the academic 
community in providing an open forum for problem solving and 
intellectual discourse.
    As with the TCRP, the UTCP budget has remained flat at the $6 
million level since 1993. APTA recommends a $10.5 million investment in 
this program in Fiscal Year 2004 and annual increases to $21.9 million 
in Fiscal Year 2009.

NATIONAL PROGRAM OF TRANSIT PLANNING AND RESEARCH

    The National Program of Transit Planning and Research, or TPR, is 
the FTA's primary program for TPR data collection and analysis, and 
technical assistance to the transit industry. TPR addresses challenges 
and opportunities that are national in scope including safety, 
security, mobility, fuel efficiency, clean air, and global trade. It 
includes research, development, testing and information transfer of 
innovative transit technologies and services. One of the most 
successful efforts has been Easter Seals Project ACTION, an initiative 
first commissioned by Congress in 1988 to promote cooperation between 
the transportation industry and the disability community to increase 
mobility for people with disabilities under the ADA and beyond.
    APTA works closely with FTA Administrator Dom and her team on a 
number of important issues, including safety and security, intelligent 
transportation systems, and setting voluntary standards for the transit 
industry. Unfortunately, FTA often has little discretion in which 
projects to undertake as nearly all funds are Congressionally directed. 
The effectiveness of the national research program would be enhanced if 
the program were made less susceptible to earmarking.
    APTA recommends funding this program at $36.2 million in Fiscal 
Year 2004, with annual increases to $57.5 million in Fiscal Year 2009.

NATIONAL TRANSIT INSTITUTE

    The National Transit Institute (NTI) was established in 1992. It is 
based at Rutgers University and, like the TCRP, is modeled after a 
successful highway program, FHWA's National Highway Institute. The NTI 
serves the training and staff development needs of the transit 
industry's workforce. It offers courses and seminars in a number of FTA 
offices in several policy areas including procurement, program 
management, and planning. The overall goal of the NTI is to help the 
transit industry attract and develop employees who are productive and 
technically competent.
    Like other programs mentioned previously, the investment in this 
program has remained relatively flat, receiving only a $1 million 
increase after Fiscal Year 1998 to $4 million annually. APTA recommends 
increasing this to just over $5 million in the next fiscal year and 
providing increases in investment up to $8.9 million in Fiscal Year 
2009.

RURAL TRANSIT ASSISTANCE PROGRAM

    Significant training and technical assistance services to promote 
delivery of safe and effective public transportation services in rural 
areas are provided through the Rural Transit Assistance Program (RTAP). 
APTA recommends that the RTAP program be funded at $7.94 million in FY 
2004, growing to a level of $15.33 million in FY 2009.

APTA RESEARCH AND TECHNOLOGY STRATEGIC PLAN

    Before closing, Mr. Chairman, I would like briefly to note that the 
transit industry through APTA has developed a strategic plan on 
research and technology. Our plan will address five key areas: safety; 
technology; workforce development; transit in the community; and market 
development. We look forward to briefing the Committee on the plan in 
the future, and working with FTA on its implementation.

CONCLUSION

    In closing, I want to express my appreciation for the opportunity 
to testify before you today. Investment in these important research 
programs is a cost-effective way to ensure that our nation's transit 
infrastructure is safe, modern, efficiently run and competently 
operated. When our transit network operates in this fashion, transit 
best serves our communities by serving as an important part of an 
integrated, multi-modal transportation system that gets and puts people 
to work, protects the environment, and moves goods and services. APTA 
recommends that Congress recognize the role transit research plays by 
increasing its investment in these programs. Mr. Chairman, we thank you 
for considering our views.

    American Public Transportation Association, 1666 K Street, N.W., 
Washington, DC 20006; (202) 496-4800.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Statement of Elizabeth Deakin
                   University of California, Berkeley

Emerging Trends and Policy Choices: Research Needs for Consideration in 
                         TEA-21 Reauthorization

    Thank you for this opportunity to comment on research in 
transportation needed over the next several years. I am a professor of 
transportation planning and policy at UC-Berkeley and director of the 
UC Transportation Center, which funds research on any and all of the 
nine UC campuses. I will address my comments to major demographic, 
economic, and environmental issues that will shape transportation over 
the next two decades and the research we will need to conduct if we are 
to meet the goals of mobility, safety, economic vitality, system 
preservation, and environmental protection that Congress has set forth 
in TEA-21.

Trends and Policy Choices

    Ten trends and policy choices pose significant challenges for 
transportation. They are:

         1. A Growing Population

         2. Demographic Change

         3. New Patterns of Employment and Economic Production

         4. Changing Location Patterns

         5. Changing Passenger and Household Travel Demand

         6. Changing Patterns of Freight Transport

         7. Emerging Technologies

         8. Concern for the Environment

         9. Equity and Participation

        10. The Finance Dilemma

    These trends and choices in turn raise important research needs, 
ranging from a need to improve our basic understanding of underlying 
processes to a need for evaluation research on alternative policy 
options and program approaches. Research in each of these areas would 
pay off in a transportation system that is more efficient, economically 
productive, environmentally sound, and equitable.

1. A Growing Population

    The U.S. population continues to expand more rapidly than that of 
most other developed countries, and this scaling up of the population 
will affect every aspect of life, from jobs and housing markets, to 
demands for public infrastructure and services, to access for open 
space. Population growth will not be even; some states are expected to 
see little population change overall, while others, especially the 
states of the South and West, will grow rapidly. In my home state of 
California, for example, the population is expected to increase by 20 
million or more by 2020, to a total of 45 million.
    Population growth also will not be even within the states. Most 
states will see growth concentrated in metropolitan areas, and within 
those areas, growth will frequently occur fastest at the metropolitan 
fringe. Again using California as an example, just eight counties--Los 
Angeles, San Bernardino, Riverside, Orange, San Diego, Alameda, Contra 
Costa and Santa Clara--are forecast to account for more than 60 percent 
of the State's total population growth over the next 20 years. From a 
regional perspective, the two largest metropolitan areas, Los Angeles/
South Coast and the San Francisco Bay Area, will account for the 
majority of the state's growth.
    Managing the increased demands for transportation will require not 
investment in new and improved facilities and services. But to make 
those investments wisely, we need to better understand how growth will 
affect demand patterns--across the modes and for both passenger and 
freight transport. We also need creative exploration of how best to use 
planning, technology, operations, and management to move people and 
goods efficiently and in ways that are supportive of the high quality 
of life we all want and expect.

2. Demographic Change

    Along with the rising size of the population, its composition is 
also expected to change over the next 25 years. One of the most 
important changes for most states and metropolitan areas will be the 
increase in the share of persons over 65 years of age, as the large 
Baby Boomer generation reaches senior citizen status. Among these 
seniors, the fastest growing group will be people over 80. These older 
Americans will face declining vision and physical mobility, but they 
will still be active and most will still be driving.
    The need for strategies to support the travel needs of older 
Americans while providing safety for everyone is already pressing and 
research to date has only begun to understand the issues and possible 
responses.
    In the fast growing states the share of the population under 18 
also will increase. For example, in California, the population under 18 
will increase by about 37 percent, compared to a 30 percent increase 
overall. These younger Americans have busy schedules at school and 
after school, but they cannot drive, for the most part, and in many 
areas the school bus transportation that gave their parents a ride is 
no longer available or is too limited to meet the needs of working 
parents. Thus parents provide most of their children's transportation, 
often with some difficulty given work schedules and other household 
responsibilities. Improved transit, walking and bicycling options offer 
promise for better, safer, more secure transportation for kids, but 
here too we have barely scratched the surface in understanding the 
needs and looking for solutions.

3. New Patterns of Employment

    Changes in the economy have significantly altered patterns of 
employment in the U.S. over the past twenty years: Global trading, 
newly developing market links with South Asia, growth in high-tech 
industries, and e-commerce are just a few of the changes that have 
altered the size, scope, and location of work. Trends and forecasts 
suggest that changes over the next two decades will be equally 
significant.
    Among all industries, services are the fastest growing, though 
there are state and metropolitan differences in their relative 
importance. In California, services are expected to account for one job 
in three by 2008, with a large increases in jobs at both the low end of 
the pay scale (<$30,000 per year) and at the high end (>$100,000 per 
year). Like population growth, employment growth is expected to be 
heavily concentrated in metropolitan areas, and within the metro areas, 
it is likely to be located largely (though not entirely) in outlying 
regional sub-centers, where comparatively sparse transportation 
networks now exist. Handling the transportation needs in these new 
growth areas remains a challenge and research is needed to explore the 
possible application of new technologies, new operations and management 
systems, and new land use-transportation coordination concepts.
    Unemployment is often thought of as an inner city problem but 
concentrations of unemployment also arise in older suburbs and in rural 
areas. Research on welfare to work, reverse commute services have paid 
off in identifying strategies that help people find and keep 
employment, but here too more work will be needed as employment shifts 
continue.

4. Changing Location Patterns

    Shifts in location of employment and population and continuing 
trends toward decentralization reflect complex interactions of land 
markets, development constraints, and personal and corporate 
preferences. Land availability and affordability are two interrelated 
factors that could have major impacts on location choices and travel 
patterns over the next decades.
    The availability of land for development is determined not only by 
physical suitability (e.g., floodplains and slide zones might be 
considered unsuitable or too costly for housing development), but also 
by local government policies on land protection, subdivision control, 
zoning, and development fees and exactions. Where land availability is 
restricted, land and housing prices (as well as commercial development 
prices) tend to be pushed upward. In such cases developers turn their 
attention to neighboring jurisdictions with fewer restrictions. Such 
spillover appears to be happening in many of the major metropolitan 
areas of the U.S. One result is a growth in commuting across 
metropolitan borders, with long commutes especially for first time home 
buyers. Another result is the loss of farmland and habitat in the 
outlying areas.
    Some metropolitan areas and a handful of states are attempting to 
redirect growth to existing urban and suburban communities through 
strategic investments in infrastructure, including highways and 
transit, as well as through policy interventions such as fast-track 
approval for infill housing, transit-oriented development incentives, 
public-private development partnerships, and urban growth boundaries. 
The efficacy of the various strategies has received research attention 
in the last few years but findings are still tentative and conflicting. 
Much more work remains to be done.

5. Changing Patterns of Personal and Household Travel

    Profound changes in personal and household travel have occurred 
over the past two or three decades, and these changes have important 
implications for future transportation planning. Among the most 
important changes are the growth in travel not related to the journey 
to work and the heavy increase in auto ownership and use.
    During the period from 1969 to 1995, work-related travel fell from 
36 percent to 18 percent of all trips nationally. To some extent this 
reflects accounting as well as behavior; a trip home from work with a 
side stop at the store is counted as a trip from work to store plus a 
second trip from store to home. Nevertheless, the growth in non-work 
travel to 82 percent of all trips nationally does reflect the 
complexity of travel and of American's busy lives.
    The growth in non-work activities is a key factor in the rapid 
increases in per capita and per household VMT, since these non-work 
activities are disproportionately made by car. Growth in auto use also 
reflects increasing levels of driver licenses among both men and women, 
a willingness to continue to drive well into old age, near-ubiquitous 
auto availability, the location of activities in the suburbs in 
patterns that depend on the car for access, and the ease and 
convenience of auto trips in comparison to most other travel options. 
Transit, in the meantime, has lost market share overall, although gains 
have been seen in some markets. Transit use is especially prevalent 
among lower income households in urban areas and among new arrivals to 
the U.S.
    Understanding consumers' travel patterns is a critical first step 
in developing good transport services and is especially critical when 
considering policies that are intended to alter travel choices (e.g., 
bus rapid transit, employer transit pass subsidy programs, parking 
charges or discounts). Unfortunately, many metropolitan areas are 
hampered by a lack of data. National data sets are too sparse to 
provide usable data for metropolitan planning unless the metro area has 
paid for a larger sample; many areas have lacked the resources or 
foresight to do so. Thus this is an area where not only is more 
research needed, but better data must be developed to support the 
research.

6. Changing Patterns of Freight Transport

    Freight transportation is critical to the economy but remains 
almost hidden from sight in most surface transportation policy arenas. 
Both trucking and rail freight have undergone changes of revolutionary 
proportions over the last three decades. Deregulation was coupled first 
with containerization and consolidation innovations and then with just-
in-time production processes and advanced logistics systems. Partly 
reflecting these changes and partly reflecting the changes in the 
Nation's economy and patterns of growth, trucking has gained market 
share for intercity transport, especially for higher-value shipments; 
trucking dominates urban goods movements. Rail continues to carry bulky 
and lower value items and has captured a significant market share in 
some areas by handling multimodal shipments. Air freight has also 
grown, as has intermodal truck-air transport. Water ports have been 
heavily affected by shifts in U.S. trade partners as well as by the 
rapid growth in ship size. Security concerns and the disruption caused 
by terrorism and the threats of terrorism have pointed out 
vulnerabilities in current practices and point to the need for re-
evaluation of current practices.
    Work is needed to understand how changing patterns of economic 
activity, changing production processes, and changing patterns of 
demand affect freight transport. Work also is needed to help manage the 
costs, efficiency, safety and security of the freight modes. Yet 
freight data are hard to come by and the size and quality of available 
data sets are not always sufficient--better data and more research are 
both needed.

7. New Technologies

    Electronics and telecommunications innovations are transforming 
social and economic activity, with major implications for 
transportation. Just-in-time delivery requirements, for example, have 
revolutionized logistics (and vice versa), with major impacts on 
businesses, from manufacturing to warehousing to retail sales. 
Transportation also is being changed by new technologies, as 
Intelligent Transportation Systems (including smart cards, on-board 
diagnostics and information systems, and smarter highways, transit, 
automobiles, logistics systems, and other information systems) are 
being implemented.
    Technological changes over the next two decades could change 
transportation system user choices and behavior in important ways. 
Location of businesses and households may be altered as 
telecommunications options improve. Already, there is evidence that 
businesses have become less dependent on proximate locations as 
electronic links have become more effective alternatives to face to 
face communications. Freight carriers are heavy investors in new 
technologies and are using them to more efficiently implement the just-
in-time, overnight, and same day services that are proliferating. 
Individual travelers are also using new technologies to pay tolls more 
conveniently and to find the best route to their destinations. And 
while full-time telecommuting is relatively rare today, 
telecommunications systems do appear to enable many workers to 
``commute'' from a home office on a part-time basis.
    The range of options and their impacts will continue to expand as 
new technologies are introduced over the next two decades, and may 
alter transportation systems in many ways, large and small. For 
example, electric or hybrid electric-petroleum vehicles may be 
introduced that would substantially alter emissions and fuel 
characteristics of the fleet, and potentially pose challenges in terms 
of system operations and finance. Smart card technologies could greatly 
improve the feasibility and convenience of a variety of pricing options 
for road use, parking, and transit fares. Monitoring and information 
systems could enable travelers to time trips and select routes to avoid 
congestion, reducing it in the process. Advanced traffic management 
systems could increase road capacity significantly while improving 
safety and respecting other objectives such as pedestrian comfort.
    There is a clear need for more research on new technologies--
extending from vehicles and fuels to pavements and structures to 
operations and management. In addition, more work is needed on demand 
for new technologies and on institutions, policies, and organizational 
design for their planning and deployment. Whether and to what extent 
new technologies become significant elements of the transportation 
systems will depend not only on technological developments but on both 
public and private decisions about the technologies' desirability and 
usefulness. Too often, new technologies are the ``hammer'' to which 
everything looks like a ``nail.'' In addition, most new technologies 
must be integrated into existing systems (hard and soft), so 
understanding of implementation pathways, incentives and disincentives, 
and new approaches for partnerships and collaboration are equally 
important as part of the technology implementation research agenda.

8. Concern for the Environment

    Transportation impacts on the natural and built environment are 
increasingly important factors in transportation decision-making. 
Environmental considerations both constrain transportation actions and 
offer important possibilities for environmental enhancement. Over the 
next two decades, key environmental considerations that transportation 
agencies will need to address in future planning and project 
development include:

        <bullet> air quality

        <bullet> water quality

        <bullet> protection of wetlands

        <bullet> protection of parks, historic sites, and other 
        cultural resources

        <bullet> conservation of farmlands and other special lands

        <bullet> protection and enhancement of scenic views

        <bullet> protection of endangered and threatened species and 
        their habitats

        <bullet> enhancement of roadside ecology and reduction of 
        severance effects, streambed effects, etc.

        <bullet> noise reduction; noise management

        <bullet> reduction of negative community impacts such as 
        neighborhood traffic

        <bullet> reduction of solid waste and hazardous waste 
        generation

        <bullet> recycling and use of recycled and other ``green'' 
        materials

        <bullet> reduction of CO<INF>2</INF> and other greenhouse gas 
        emissions.

    The Nation has made substantial progress on some of these matters, 
but much more remains to be done. For example, largely due to 
technological improvements in vehicle emissions controls and regulation 
of industrial sources, air pollution has been substantially reduced 
nationwide, even with substantial growth in activity. However, recent 
research suggests that we need to know much more about the toxicity and 
relative potency of various air pollutants, about air pollution 
modeling and forecasting, about ``modal'' emissions--how emissions vary 
with speed, stops, accelerations, etc.--and about the costs and 
benefits of various emissions control strategies.
    Similarly, progress has been made and there is reason to believe 
that we can further improve water quality, wetlands protection, 
habitat, and general ecological health though careful design/redesign, 
construction, and management of transport facilities. However, to 
accomplish this, more research is needed on issues ranging from 
ecosystem-scale impacts and opportunities presented by road systems to 
better understanding of how road chemicals affect plants and wildlife. 
In addition, land use itself is increasingly seen as an environmental 
issue. Among the topics of salience are the effects of transportation 
investments on the use of land, including induced demand, support of 
infill and other private investments, and the effects of land use 
patterns on travel demand (e.g., sprawl and auto dependence; jobs-
housing imbalance and congestion; compact growth as a means of 
facilitating walking, biking, and transit use). All of these areas 
require research support.
    Increasingly, transportation agencies are responding to 
environmental challenges by redesigning their planning and project 
development procedures to incorporate environmental considerations 
early in the process. Many transportation agencies are working more 
cooperatively with environmental and resource agencies and local 
governments. Detailed environmental databases and the availability of 
GIS mapping capabilities are important support tools enabling planners 
to emphasize environmental protection and enhancement through 
environmentally sensitive design over after-the-fact mitigation. 
Funding for these databases has been hard to come by but again, without 
good data, it is very difficult to produce good plans and analyses.

9. Equity and Participation

    TEA-21 called for increased opportunity for citizen participation. 
Reflecting concerns that minority and low income populations are 
frequently under-represented in public policy forums, directives to 
increase planning and outreach activities targeted at those groups have 
been issued. TEA-21's assignment of significant planning and decision 
authority to metropolitan planning organizations (MPOs), in partnership 
with state transportation agencies, strongly signaled a shift in 
federal policy toward an expectation of greater involvement of 
stakeholders. Federal law and regulations also acknowledge the need to 
involve both the public and private sector interests (including 
shippers, freight carriers, port users, etc.) in transportation 
planning, who also have been under-represented in the past.
    TEA-21 also underscored the need for public agencies to identify 
and address the environmental and socioeconomic effects of their 
programs, policies, and activities, mandating that transportation 
planning must be attentive not just to mobility and system preservation 
but to also to the larger societal goals of equity, safety, economic 
vitality, and environmental protection. There is a growing consensus, 
moreover, that social, economic, and environmental goals should not be 
``handled'' through special programs, but in fact should permeate the 
entire transportation planning process.
    How is this being accomplished? There is growing use of new 
planning approaches that are based on greater stakeholder and community 
involvement and that are broadly scoped to better address interrelated 
land use, transportation, and economic investment issues. Public-
private partnerships are being tested. In addition, methods for 
assessing the incidence of impacts on diverse communities and for 
measuring the performance of transportation plans and projects from an 
equity perspective are being developed. But far more work remains. We 
know little about how effective the various planning approaches are in 
improving transportation choices, increasing customer satisfaction, or 
improving system performance. Available methods are not well designed 
to answer the questions about distribution of costs and benefits that 
are being asked. Impacts of alternative policies and investments on 
freight transport are poorly understood.
    ISTEA and TEA-21 vastly altered the institutional arrangements and 
policy objectives for surface transportation, but few studies have 
examined how the new institutional arrangements are performing. What 
MPOs have done with their new authorities is not well documented or 
evaluated. Few studies have examined what makes a public-private 
partnership for transportation planning and deployment a success--or a 
failure. How to integrate decision-making across disciplines 
(transport, environment, development) requires more work and best 
practices need to be identified and documented.

10. The Financing Dilemma

    Funding shortfalls for transportation challenge the ability of 
transportation agencies to provide for the current and projected 
mobility and access needs of the Nation. The shortfalls are felt at 
every level of government, for capital projects as well as for 
operations and maintenance.
    Possible ways to address the financing dilemma are to raise the gas 
tax, expand the use and ``transportation capture rate'' of other taxes 
(e.g., sales taxes, property taxes, excise fees), raise fares and fees, 
and increase private sector provision of transportation infrastructure 
and services. While these mechanisms are fairly well understood, there 
remain opportunities to further develop innovative methods of finance 
for transportation facilities and services and to find ways to provide 
transportation better/cheaper/faster. Research also could help identify 
and understand the conditions under which the public would support 
higher taxes and fees, and about the benefits as well as the costs of 
such higher expenditures on transportation.

Getting Research Done

    Transportation has been spending a far smaller fraction of its 
resources on research than have other sectors of the economy. There is 
some reason to think that the low rates of research expenditure are in 
part responsible for the lack of innovation in some of our 
transportation business practice, with continued use of traditional 
designs, standard materials, longstanding operations approaches, and so 
on by our transportation agencies. Research needs to be done and 
disseminated widely in order for new ideas to emerge and take root, for 
implementation to be widespread. Funding for research is thus an 
investment in better transportation systems. Funding for the data that 
are needed to support research is also a critical investment. Data must 
be available to allow us to evaluate whether we are in fact improving 
our transportation systems' performance on mobility, safety, economic 
vitality, system preservation, and environmental protection, and must 
be sufficient to allow metropolitan and state decision-makers to 
evaluate their programs. Data scaled only to the national level are of 
limited use for these purposes.
    A mixed portfolio of transportation research should be the rule. 
For example, science research on pollutant toxicity and potency is 
needed. So is engineering research on methods for traffic operations 
improvements. So is social science research evaluating the performance 
of programs and planning approaches and designing and analyzing policy 
alternatives. Increasingly, the questions that need to be addressed are 
multidisciplinary. Some of the work needed can be short-term, e.g., 
best practices for citizen participation. Other issues require longer 
term and higher risk research (e.g., might develop and test new 
materials for bridge decks).
    For the some of the research I have suggested here, the Surface 
Transportation Environmental Cooperative Advisory Board has recommended 
the establishment of a new research program. Environmental research has 
been under-funded for years and there is much catching up to do. 
Environmental quality is a high priority for our citizens, and public 
health, ecosystem health, and a sound economy are all tied up in how 
well we address environment and planning issues. The Advisory Board has 
recommended a new program overseen by a board representing a broad of 
core partners (government agencies, industry, environmental 
organizations, public interest groups, academia) that would work to 
carry out high priority research with broad stakeholder involvement, in 
accordance with a strategic agenda, the first version of which is 
presented in the Board's report. The new program would receive seed 
funding from USDOT and would be authorized to seek matches from other 
government and private organizations to fund a peer reviewed, 
competitive research program. I believe funding in the range of $15-$25 
million would allow the program to get going, but eventually a research 
program budgeted at perhaps 6-10 times that level (drawing upon 
multiple agencies and organizations for funding) would be desirable if 
the program is to achieve its goals of uncovering fundamental 
relationships and devising new approaches to transportation and the 
environment.
    University programs also are a valuable resource for the conduct of 
research. University research orientation and capacity varies 
considerably, and some transportation programs are focused primarily on 
undergraduate education and technical assistance projects while others 
educate both undergrads and grad students and carry out both basic and 
applied research. Funding for transportation centers has been 
invaluable at building both kinds of programs and attracting high 
quality students and faculty into transportation. Many university 
transportation centers have good relations with their state DOTS, MPOs, 
transit operators, local transportation agencies, and the private 
sector, and at least some of their work is carried out in cooperation 
with them. But some independent research is also critical. For example, 
federal funding has also allowed faculty members to do evaluation 
research on organizational design, policy design, and business 
practices. Independent evaluation of such topics can help elected 
officials improve public policy and help public agencies improve 
performance. Independent research is also the source of many 
innovations and inventions. A sound research program needs to allow 
researchers to develop new ideas on their own at least some of the 
time.
    The UTC program has done just that--allowed for both partnership 
projects and independent research--but its low level of funding is 
problematic. An increase to a baseline of perhaps $3 million a center 
would be more realistic, especially for the centers that are large, 
multi-campus, multidisciplinary efforts. I also believe that 
competition for centers and among centers is a good thing, producing 
the best results.
    To sum up, we need more research on changing demographic, economic, 
and environmental conditions and their implications for transportation, 
more policy research, more evaluation research, and better data to 
support these efforts. New competitive research initiatives such as the 
proposed Surface Transportation Environmental Cooperative Research 
Program would complement a rejuvenated and better funded program of 
university research and would pay off in better transportation 
outcomes.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
